<html>
<title> - H.R. 318, H.R. 4029, H.R. 4049, H.R. 4182, H.R. 4272, H.R. 4283, H.R. 4489, AND H.R. 4527</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 
H.R. 318, H.R. 4029, H.R. 4049, H.R. 4182, H.R. 4272, H.R. 4283, H.R. 
                          4489, AND H.R. 4527

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                      SUBCOMMITTEE ON PUBLIC LANDS

                      AND ENVIRONMENTAL REGULATION

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         Tuesday, June 10, 2014

                               __________

                           Serial No. 113-74

                               __________

       Printed for the use of the Committee on Natural Resources

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

88-342 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
          
          
      

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Rauul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Caardenas, CA
Paul A. Gosar, AZ                    Jared Huffman, CA
Rauul R. Labrador, ID                Raul Ruiz, CA
Steve Southerland, II, FL            Carol Shea-Porter, NH
Bill Flores, TX                      Alan S. Lowenthal, CA
Jon Runyan, NJ                       Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Steve Daines, MT                     Katherine M. Clark, MA
Kevin Cramer, ND                     Vacancy
Doug LaMalfa, CA
Jason T. Smith, MO
Vance M. McAllister, LA
Bradley Byrne, AL

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON PUBLIC LANDS AND ENVIRONMENTAL REGULATION

                        ROB BISHOP, UT, Chairman
            RAUUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Niki Tsongas, MA
Louie Gohmert, TX                    Rush Holt, NJ
Doug Lamborn, CO                     Madeleine Z. Bordallo, GU
Paul C. Broun, GA                    Gregorio Kilili Camacho Sablan, 
Tom McClintock, CA                       CNMI
Cynthia M. Lummis, WY                Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Rauul R. Labrador, ID                Carol Shea-Porter, NH
Steve Daines, MT                     Joe Garcia, FL
Kevin Cramer, ND                     Matt Cartwright, PA
Doug LaMalfa, CA                     Jared Huffman, CA
Jason T. Smith, MO                   Vacancy
Vance M. McAllister, LA              Peter A. DeFazio, OR, ex officio
Doc Hastings, WA, ex officio

                                 ------   
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, June 10, 2014...........................     1

Statement of Witnesses:
    Cleaver, Hon. Emanuel, a Representative in Congress from the 
      State of Missouri..........................................    49
    Duffy, Hon. Sean P., a Representative in Congress from the 
      State of Wisconsin, Prepared statement of..................    62
    Fountain, Edwin, Commissioner, World War I Centennial 
      Commission.................................................    50
        Prepared statement of....................................    52
    Knox, Victor, Associate Director, Park Planning, Facilities 
      and Lands, National Park Service, U.S. Department of the 
      Interior...................................................    36
        Prepared statement of....................................    37
    McClure, Steve, Commissioner, Union County Board of 
      Commissioners..............................................    11
        Prepared statement of....................................    12
    Michaud, Hon. Michael H., a Representative in Congress from 
      the State of Maine.........................................     2
    Roberts, Christy, Ellington, Missouri........................    28
        Prepared statement of....................................    30
    Ross, Hon. Robert, State Representative District 142, 
      Missouri House of Representatives..........................    33
        Prepared statement of....................................    34
    Simpson, Hon. Michael K., a Representative in Congress from 
      the State of Idaho, Prepared statement of..................    62
    Walden, Hon. Greg, a Representative in Congress from the 
      State of Oregon............................................     4
        Prepared statement of....................................     6
    Weber, William E., Colonel, United States Army, Retired; 
      Chairman, Korean War Veterans Memorial Foundation..........    54
        Prepared statement of....................................    55
        Rebuttal to testimony of Victor Knox, Department of the 
          Interior...............................................    57
    Weldon, Leslie A.C., Deputy Chief, U.S. Forest Service, U.S. 
      Department of Agriculture..................................     7
        Prepared statement of....................................     8

Additional Material Submitted for the Record:
    Confederated Tribes of the Umatilla Indian Reservation, 
      Prepared statement on H.R. 4272............................    66
    Lecky, William P., Board of Directors for the Korean War 
      Veterans Memorial Foundation, Prepared statement on H.R. 
      318........................................................    67
    Letter submitted for the record by Rep. Grijalva on H.R. 4029 
      and H.R. 4182..............................................    82
    Letters submitted for the record by Rep. Duffy on H.R. 4049..    63
    Letters submitted for the record by Rep. Walden on H.R. 4272.    70
    List of documents submitted for the record retained in the 
      committee's official files.................................    83
    National Parks Conservation Association, Prepared statement 
      on H.R. 4029, H.R. 4049, and H.R. 4182.....................    69
                                     

    LEGISLATIVE HEARING ON H.R. 318, TO AUTHORIZE A WALL OF 
REMEMBRANCE AS PART OF THE KOREAN WAR VETERANS MEMORIAL AND TO 
   ALLOW CERTAIN PRIVATE CONTRIBUTIONS TO FUND THAT WALL OF 
    REMEMBRANCE; H.R. 4029, TO REQUIRE THE SECRETARY OF THE 
  INTERIOR TO TRANSFER ALL FEDERAL LAND, FACILITIES, AND ANY 
    OTHER ASSETS ASSOCIATED WITH THE OZARK NATIONAL SCENIC 
    RIVERWAYS TO THE STATE OF MISSOURI FOR THE PURPOSES OF 
MAINTAINING A STATE PARK, AND FOR OTHER PURPOSES; H.R. 4049, TO 
 AMEND THE ACT TO PROVIDE FOR THE ESTABLISHMENT OF THE APOSTLE 
 ISLANDS NATIONAL LAKESHORE IN THE STATE OF WISCONSIN, AND FOR 
    OTHER PURPOSES, TO ADJUST THE BOUNDARY OF THAT NATIONAL 
  LAKESHORE TO INCLUDE THE LIGHTHOUSE KNOWN AS ASHLAND HARBOR 
BREAKWATER LIGHT, AND FOR OTHER PURPOSES, ``ASHLAND BREAKWATER 
  LIGHT TRANSFER ACT''; H.R. 4182, TO PROVIDE THAT THE OZARK 
 NATIONAL SCENIC RIVERWAYS SHALL BE ADMINISTERED IN ACCORDANCE 
WITH THE GENERAL MANAGEMENT PLAN FOR THAT UNIT OF THE NATIONAL 
    PARK SYSTEM, AND FOR OTHER PURPOSES; H.R. 4272, TO STOP 
  IMPLEMENTATION AND ENFORCEMENT OF THE FOREST SERVICE TRAVEL 
     MANAGEMENT RULE AND TO REQUIRE THE FOREST SERVICE TO 
INCORPORATE THE NEEDS, USES, AND INPUT OF AFFECTED COMMUNITIES 
BEFORE TAKING ANY TRAVEL MANAGEMENT ACTION AFFECTING ACCESS TO 
  UNITS OF THE NATIONAL FOREST SYSTEM DERIVED FROM THE PUBLIC 
   DOMAIN, AND FOR OTHER PURPOSES, ``FOREST ACCESS IN RURAL 
  COMMUNITIES ACT''; H.R. 4283, TO AMEND THE WILD AND SCENIC 
   RIVERS ACT TO AUTHORIZE THE SECRETARY OF THE INTERIOR TO 
   MAINTAIN OR REPLACE CERTAIN FACILITIES AND STRUCTURES FOR 
COMMERCIAL RECREATION SERVICES AT SMITH GULCH IN IDAHO, AND FOR 
   OTHER PURPOSES; H.R. 4489, TO DESIGNATE MEMORIALS TO THE 
 SERVICE OF MEMBERS OF THE UNITED STATES ARMED FORCES IN WORLD 
 WAR I, AND FOR OTHER PURPOSES, ``WORLD WAR I MEMORIAL ACT OF 
  2014''; AND H.R. 4527, TO REMOVE A USE RESTRICTION ON LAND 
FORMERLY A PART OF ACADIA NATIONAL PARK THAT WAS TRANSFERRED TO 
       THE TOWN OF TREMONT, MAINE, AND FOR OTHER PURPOSES

                              ----------                              


                         Tuesday, June 10, 2014

                     U.S. House of Representatives

        Subcommittee on Public Lands and Environmental Regulation

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 10:01 a.m., in 
room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, McClintock, Tipton, 
LaMalfa, Smith; Grijalva, and Cartwright.
    Mr. Bishop. All right. This hearing is going to come to 
order ahead of time. Mr. Grijalva is on his way, but we will do 
some audibles as time goes on here.
    The Subcommittee on Public Lands and Environmental 
Regulations is meeting to hear testimony on a wide variety of 
bills. Under the rules, the opening statements are limited to 
the Chairman and Ranking Member. However, we ask unanimous 
consent to include any other Member's opening statement in the 
record. I also ask unanimous consent that Members who are not 
of the full committee or the subcommittee be allowed to sit on 
the dais and take part in the proceedings.
    [No response.]
    Mr. Bishop. And, hearing no objections, we are going to do 
that.
    Today's hearing is going to deal with several different 
panels, and we are doing it in a different order to try and 
actually make hearings meaningful. Stupid idea.
    So we are going to do bill by bill, in which case we will 
hear the testimony of a bill and ask the questions before we 
move on to the next piece of legislation, with one caveat to 
that. Mr. Michaud from Maine has another obligation from when 
he was scheduled, so I am actually going to take his testimony, 
his bill first. We will deal with that, and then we will move 
on to the Walden bill.
    So, the gentleman from Maine is recognized for 5 minutes. 
And then, when Mr. Grijalva is here, if he has an opening 
statement we will add that opening statement for the record. I 
will not have an opening statement.
    You are on.

 STATEMENT OF THE HON. MICHAEL H. MICHAUD, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF MAINE

    Mr. Michaud. Thank you very much, Mr. Chairman. And I want 
to thank Ranking Member Grijalva, as well as members of the 
subcommittee, for holding this hearing on H.R. 4527. Also 
really appreciate, Mr. Chairman, your taking me out of order, 
as you know I have to manage a veterans bill coming up at the 
same time I was supposed to be here for this bill. I also want 
to thank Chairman Hastings and Ranking Member DeFazio for their 
leadership.
    H.R. 4527 would make a simple change to ensuring that a 
community in my district can continue to use land formerly 
owned by Acadia National Park. In 1950 Congress conveyed a 
track of land from the park to the Town of Tremont, 
specifically for the purpose of building and maintaining a 
school. The conveying deed contained a clause requiring the 
land to be transferred to the National Park Service if it was 
ever used for non-school purposes.
    Unfortunately, what had been best for the Park Service and 
the community in 1950 might not be best for the town in 2014. 
Today, as Tremont and surrounding communities are facing 
declining enrollment, the town has explored merging its 
elementary school with neighboring Southwest Harbor. Under the 
terms of the original conveyance, should the town close the 
school, the land would be transferred back to the Federal 
Government. Complicating the situation is legislation passed by 
Congress in 1986 establishing a permanent boundary for Acadia 
National Park. The boundary established did not include the 
track of land containing the school. As a result, if Tremont 
were to stop using the land, it would be transferred to GSA.
    My legislation simply removes current use restriction on 
the land, which would allow Tremont to continue to utilize the 
property it has been maintaining for 64 years. Acadia National 
Park has expressed a strong support for the bill, and the GSA 
has communicated to my office that it would not oppose the 
effort to allow Tremont to keep the land.
    This simply is common-sense legislation that would ensure 
that my constituents can continue to use this land for 
community purposes, as the local residents see fit. I ask the 
committee to support this simple fix to allowing the community 
of Tremont to continue to use this land that has been part of 
the community for more than six decades.
    And let me again express my sincere gratitude to the 
Chairman and Ranking Member for bringing this bill before the 
subcommittee, and for an opportunity to speak today.
    I yield back, Mr. Chairman.
    Mr. Bishop. Thank you. Are there any questions?
    [No response.]
    Mr. Bishop. I thank you for bringing the bill here. To be 
honest, you have a tough row to hoe in this particular bill, 
because it is logical, it makes sense, it is the right thing to 
do. That is something we don't do in government. But I like the 
bill, I support it fully. And thank you for being here.
    Mr. Michaud. Thank you very much, Mr. Chairman.
    Mr. Bishop. All right. Let me move to--I really--nothing 
personal. I would really not like to go any--because the 
gentleman from Maine had another engagement, so he decided to 
check that box and get it out of the way. I would like not to 
do anything more until Mr. Grijalva is here.
    But since he is here already, we can go forward with the 
next bill.
    [Laughter.]
    Mr. Bishop. Fine, make me look stupid, see if I care. No, 
that is fine.
    Before Mr. Grijalva has a chance to sit down--I don't know 
if he has an opening statement he wants to make for the record.
    Mr. Grijalva. Just submit it for the record, if there is no 
objection.
    Mr. Bishop. All right, and I appreciate that.
    We will then move on to the next one. Mr. Walden's bill, 
H.R. 4272, Mr. Walden is here with the dais. He will be 
recognized first.
    We also have at the panel, I believe, Steve McClure from 
Union County Board of Commissioners and Ms. Leslie Weldon from 
the Forest Service. I understand, Ms. Weldon, you also have a 
plane to catch. So after this testimony, and if you would like 
to give quick testimony on the Simpson bill, please leave us 
whenever you would like to.
    So, with that, we will go to bill H.R. 4272. Mr. Walden, 
you are recognized for 5 minutes to introduce the bill.
    Mr. Walden. Walden and Weldon.
    Mr. Bishop. Yes.

STATEMENT OF THE HON. GREG WALDEN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. Walden. Thank you very much, Mr. Chairman, Ranking 
Member Grijalva, for allowing me to testify on this bill, H.R. 
4272, the Forest Access in Rural Communities Act. I look 
forward to working with the committee as you, hopefully, move 
forward to mark this up and bring it to the full Floor.
    Over half of Oregon's land--53 percent, to be exact--is 
controlled by the Federal Government. And in many counties it 
can be much higher, just as the national forests have 
historically played a significant role in providing timber jobs 
that were the pillars of rural economies. Access to these 
forests now is a cultural and social mainstay, as well. It is 
what we do out in the West.
    Local residents accessing these forests are camping, 
hunting, fishing, cutting firewood, collecting berries, doing 
what we do, enjoying their families, generation after 
generation. These activities are a way of life in rural 
America, and certainly in the rural West.
    In eastern Oregon, the Wallowa Whitman National Forest 
Travel Management Plan is really what prompted this 
legislation, and similar planning failures along the way that 
caused me to introduce this bill. From the beginning, local 
communities and volunteers dedicated countless hours of 
personal time traveling, documenting the roads, communicating 
their needs to agency officials. But at the end of the process 
they developed comments and put forth suggestions on roads that 
weren't being used, that could be closed, but also pointed out 
roads that are popular, necessary, and needed to remain open.
    In 2012, when agency officials rolled out the final plan, 
more than 4,000 miles of roads were slated for closure--4,000 
miles on a forest where a quarter of the land, some 600,000 
acres, is already designated wilderness. You can't drive there. 
In Wallowa County alone, over 70 percent of the national forest 
is already shut off to motorized recreation--70 percent of the 
national forest already shut down.
    In what amounted to an assault on good process and rural 
traditions on public lands, it was clear to those who 
participated in the process that the Forest Service had 
largely, if not entirely, ignored the thoughtful and deliberate 
input that they got in this planning process. Having faced 
years of declining timber harvest and the resulting 
unemployment and, frankly, rural poverty created by lack of 
management on our Federal lands, the agency, frankly, ignored 
local citizens. And at one point, close to 1,000 citizens in a 
small rural county--or three counties, in this case--turned out 
to protest the arrogance of the Forest Service.
    And I don't use that term lightly. And Ms. Weldon and I go 
back a long ways when she was on the Deschutes Forest. This was 
a travesty. I got involved, I heard from the county 
commissioners, I called the Region 6 supervisor. Frankly, I 
raised hell about it, because the good process that should 
occur in public policy had been rejected.
    At the end--and I know you will reference this in your 
testimony--I would not characterize what the Forest Service did 
as an example of how the public process worked. Because, in the 
end, you ended up having to remove the local forest supervisor 
from her position, and then you pulled back the plan--both of 
which needed to happen, by the way, but that is not how good 
public policy should move forward.
    Hopefully, we have learned from this lesson and that, going 
forward, we can have a different process, which is what led me 
to introduce--write and introduce this bill. We have support 
from five counties, seven forest user groups that I would like 
to enter into the record without objection, Mr. Chairman. This 
legislation simply puts a stop to what I see as a flawed travel 
management planning rule that applies a one-size-fits-all 
approach for road management on every community.
    I actually chaired an oversight hearing on this issue back 
in about 2005 or 2006, when young Mr. Crandell had hair, and 
was the counsel on this committee. And we looked at these 
issues, because we wanted to maintain this access to what is 
left of the forest we can access. And I am just telling you I 
know it has worked out in some areas. In a lot of my district 
people are furious that their whole lifestyle is being shut 
down. County commissioners--and you will hear from Mr. 
McClure--say, ``Look, we've got to be able to access these 
forests for rescue, for fire fighting, and for our people.'' 
And it has been a real fight that didn't need to exist.
    President Theodore Roosevelt said--and I quote--``We shall 
succeed, not by preventing the use, but by making the forests 
of use to the settler, the rancher, the miner, the man who 
lives in the neighborhood.'' It seems that we have lost our way 
from that multiple use vision for the great forest reserves, 
and have lost sight of the important role local communities 
need to be able to play in this process.
    H.R. 4272 provides an opportunity to move back to that idea 
by putting our local communities in an important driver's seat 
when it comes to accessing and managing our public forests. I 
look forward to working with the Administration to find 
something that gets a better balance than we see today in many 
parts of rural America.
    Mr. Chairman, representing these local communities and 
speaking specifically on the need for this legislation, I am 
really pleased to have the opportunity to introduce Union 
County Commissioner Steve McClure. Steve and the residents of 
Union County that he represents so effectively, so ably, so 
capably, were at the heart of the Wallowa Whitman travel 
management planning process in a responsible, thoughtful way, 
where they actively engaged in the process only to have their 
input then ignored by the decision the Forest Service made.
    So, I think you will find his testimony quite helpful in 
this debate so we get back to a better balance of having local 
input really matter in the process, and a western way of life 
of accessing America's public lands restored.
    With that, Mr. Chairman, I thank you for your courtesy and 
your indulgence.
    [The prepared statement of Mr. Walden follows:]
    Prepared Statement of the Hon. Greg Walden, a Representative in 
             Congress from the State of Oregon on H.R. 4272
    Thank you, Chairman Bishop, Ranking Member Grijalva and members of 
the committee, for the opportunity to testify today in support of H.R. 
4272, the Forest Access in Rural Communities Act.
    I look forward to working with the committee to mark up this bill 
and move it promptly to the Floor for final consideration.
    Over half of Oregon's land, 53 percent to be exact, is controlled 
by the Federal Government, and in many counties this number can be much 
higher. Just as the National Forests have historically played a 
significant role in providing timber jobs that were the pillars of 
rural economies, access to these forests is a cultural and social 
mainstay as well.
    Local residents accessing these forests are camping, hunting, 
fishing, cutting firewood or collecting berries in the same places 
their families have visited for several generations, and often depend 
on these public lands for their livelihood. These activities are a way 
of life in rural Oregon; yet with the onslaught of national monuments, 
roadless areas, wilderness, and the Forest Services' travel management 
rule, it seems access constantly is being restricted. And far too often 
restrictions are put in place while overlooking the uses and needs of 
the local community.
    In eastern Oregon, the Wallowa-Whitman National Forest's travel 
management plan is one of the best examples of how these processes have 
pushed forward while ignoring local communities along the way.
    From the beginning, local counties and volunteers dedicated 
countless hours of personal time traveling, documenting roads, and 
communicating their needs to agency officials. At the end of the 
process, they developed comments and put forth suggestions on roads 
that weren't being used and could be closed, but also pointed out roads 
that are popular, necessary, and needed to remain open.
    In 2012, when agency officials rolled out the final plan, over 
4,000 miles of road were slated for closure, on a forest where a 
quarter of the land, 600,000 acres, is already designated wilderness. 
In Wallowa County alone, well over 70 percent of the National Forest is 
already shut off to motorized recreation. In what amounted to an 
assault on good process and rural traditions on public lands, it was 
clear to those who participated in the process that the Forest Service 
had largely, if not entirely, ignored their thoughtful and deliberate 
input.
    Having faced years of declining timber harvest and the resulting 
unemployment and poverty at the hand of the Federal Government and 
agency bureaucrats, the local communities didn't take this lying down. 
They pulled together and organized. At one point close to 1,000 people 
attended a meeting to learn how to effectively appeal the plan.
    The Forest Service has since pulled their plan back, but will 
approach this again. Hopefully they have learned from the past, but 
issues with travel management planning on other forests in Oregon and 
across the country suggest otherwise.
    Since the plan was pulled backed, I have worked with county 
commissioners and the local residents who enjoy driving, riding, 
camping, cutting firewood and picking berries on their National Forest 
to craft this legislation to ensure local communities have a say in 
forest access decisions.
    Mr. Chairman, I ask that the letters of support for this 
legislation from five counties and seven forest user groups be entered 
into the record. I appreciate their support and their time, effort and 
feedback in helping craft legislation that meets the local communities' 
needs.
    This legislation simply puts a stop to the flawed travel management 
planning rule that applied a one-size-fits-all approach for road 
management on every community. For future proposals that result in a 
road closure or access restriction, it requires the Forest Service to 
consult during the planning process, and seek concurrence from the 
counties within which the road closure occurs, and the neighboring 
counties, before the project can be implemented.
    Doing so levels the playing field and ensures that the local 
residents and communities, those most affected by these management 
decisions, have a strong say and aren't ignored in the process.
    President Theodore Roosevelt said ``We shall succeed, not by 
preventing the use, but by making the forests of use to the settler, 
the rancher, the miner, the man who lives in the neighborhood . . .'' 
It seems we have lost our way from that multiple use vision for the 
great forest reserves and some have lost sight of the important role of 
local communities in this process. H.R. 4272 provides an opportunity to 
move back to that idea by putting our local communities back in the 
driver's seat when it comes to accessing and managing our public 
forests.
    Representing these local communities and speaking specifically on 
the need for this legislation, I'm very pleased to have the opportunity 
to introduce Union County Commissioner Steve McClure. Steve and the 
residents of Union County that he represents were at the heart of the 
Wallowa-Whitman travel management planning process, where they actively 
engaged in the process only to have their input ignored. I look forward 
to hearing Commissioner McClure's testimony and thank him for making 
the trip here to testify.

                                 ______
                                 

    Mr. Bishop. Thank you.
    Ms. Weldon, we will turn to you next for the Forest Service 
recommendation. And, once again, you are testifying on a couple 
of bills. You don't need to take 5 minutes on each of them. Be 
judicious. You are recognized.

  STATEMENT OF LESLIE A.C. WELDON, DEPUTY CHIEF, U.S. FOREST 
            SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Ms. Weldon. Thank you, Mr. Chairman, members of the 
subcommittee, Congressman Walden, for inviting me here today to 
testify regarding two bills affecting the national forests.
    Many visitors to America's national forests--for many of 
them, motorized access represents an integral part of their 
recreation experience. People come to the national forests to 
ride on roads and trails in pick-up trucks, ATVs, motorcycles, 
and a variety of other conveyances. We see something new every 
day. Motor vehicles are a legitimate and appropriate way for 
people to access and enjoy the national forests in the right 
places, and with proper management.
    The Travel Management Rule of 2005 was developed to address 
the growing popularity and capability of off-highway vehicles, 
and to continue to provide these opportunities while sustaining 
the health of National Forest System lands and resources.
    On a national scale, it is critical that we continue to 
manage the National Forest System for multiple uses, including 
responsible recreation, while conserving these great resources 
for future generations. The Administration opposes H.R. 4272 
because it would impair the agency's ability to manage National 
Forest System lands and resources in a safe, effective, and 
efficient way.
    Under the Travel Management Rule, travel management 
decisions are made by the local forest supervisor or district 
ranger, and the rule requires a broad spectrum of interested 
and affected citizens to be able to provide their input and to 
be involved, as well as tribal governments, in making these 
management decisions. This approach has seen great success in 
the vast majority of our national forests.
    And, Congressman Walden, I acknowledge that this has not 
been the case for the Wallowa Whitman National Forest in your 
district. The Forest Service should have fostered much better 
collaboration in developing our Travel Management Plan in 
Eastern Oregon and, by extension, listened to you, respected, 
and really done a deep level engagement on the great input that 
was developed and received by the community. And I wanted to 
stress that our agency has heard your concerns loud and clear.
    The current forest supervisor on the Wallowa Whitman Forest 
is re-assessing the travel management decision in response to 
public input, and we are committed to working with your office 
and with the local communities to improve how we cooperate with 
local groups and governments to manage the forests in your 
district.
    Across the System we have engaged with our stakeholders to 
incorporate their comments into implementation of the travel 
management rule. On the Dixie National Forest in Southern Utah, 
for example, each road section was reviewed by employees, a 
citizen's working group, interested public and cooperating 
government agencies, as they established their road system 
under the Travel Management Rule.
    On the Deschutes and Ochoco Forests, the agency worked with 
a chartered Federal advisory committee, as well as interested 
public, to develop a strategy for implementing the rule. And 
the advisory committee, you know, in and of itself represented 
a broad spectrum of interests, including local government 
officials, tribes, business owners, interested public groups, 
Federal agencies. And they provided recommendations that were 
used to lay a framework for how the proposed action would be 
developed in a subsequent analysis.
    H.R. 4272 would undercut the significant work already 
completed during the process of obtaining public input and 
coordinating with all of these entities for making travel 
management decisions. About 90 percent of our administrative 
units across the system have completed implementation of 
Subpart B of the travel rule, which provides a national 
framework for local Forest Service units to use in designating 
a system of roads, trails, and other areas for motorized use. 
And we are on track for, hopefully, achieving completion of 
Subpart B on all units by the end of next fiscal year.
    Additionally, about 35 percent of the units have completed 
or nearly completed the requisite travel analysis that will 
support implementation of Subpart A of the rule.
    I would like to express that we are committed to working 
with Representative Walden and Congress to ensure the best 
possible management of the forest lands, in conjunction with 
the interests of the local community.
    And briefly on the Administration's position on H.R. 4283, 
to amend the Wild and Scenic Rivers Act, we are looking forward 
to work with Congressman Simpson on the new proposed language, 
and I am available now to answer any questions you have. Thank 
you.
    [The prepared statement of Ms. Weldon follows:]
  Prepared Statement of Leslie A.C. Weldon, Deputy Chief, U.S. Forest 
   Service, U.S. Department of Agriculture on H.R. 4272 and H.R. 4283
           h.r. 4272--forest access in rural communities act
    Many National Forest visitors use motor vehicles to access the 
National Forests, whether for recreation, commercial purposes, or the 
other multiple uses of National Forest System (NFS) lands. For many 
visitors, motor vehicles represent an integral part of their 
recreational experience. People come to National Forests to ride on 
roads and trails in pickup trucks, ATVs, motorcycles, and a variety of 
other conveyances. Motor vehicles are a legitimate and appropriate way 
for people to enjoy their National Forests--in the right places, and 
with proper management. The Travel Management Rule of 2005 was 
developed to meet the growing popularity and capabilities of Off 
Highway Vehicles (OHVs), and continue to provide these opportunities 
while sustaining the health of NFS lands and resources.
    The Travel Management Rule has three subparts, dealing with overall 
roads analysis, management of the road system, and management of over-
snow vehicles. Subpart A of the Travel Management Rule requires 
identification of the minimum road system needed for safe and efficient 
travel and for administration, utilization, and protection of NFS 
lands. Subpart B of the Travel Management Rule of 2005 provides a 
national framework for local Forest Service units to use in designating 
a system of roads, trails, and areas for motor vehicle use as the 
Agency moves toward a road system that can be sustainably maintained 
and that minimizes environmental impacts. The goal of Subpart B is to 
secure a wide range of recreation opportunities while ensuring the best 
possible care of the land. Subpart C of the Travel Management Rule 
provides for designation of routes and areas for over-snow vehicle use.
    Under the Travel Management Rule, travel management decisions are 
made by the forest supervisor or district ranger, and the rule provides 
for involving a broad spectrum of interested and affected citizens, 
other State and Federal agencies, and tribal governments in making 
travel management decisions.
    H.R. 4272 would prohibit implementation and enforcement of all 
subparts of the Travel Management Rule on all NFS lands derived from 
the public domain; it would require consultation with affected county 
governments in making travel management decisions under all subparts of 
the Travel Management Rule and decisions affecting non-motorized access 
on public domain NFS lands; and it would require concurrence of each 
affected county for implementation of travel management decisions and 
decisions affecting non-motorized access on public domain NFS lands.
    The Administration opposes H.R. 4272 because it would impair the 
agency's ability to manage NFS lands and resources safely, effectively, 
and efficiently.
    Specifically, the bill would undercut the significant work already 
completed during the process of obtaining public input and coordinating 
with Federal, State, county, and tribal governments in making travel 
management decisions. Approximately 90 percent of administrative units 
have already completed implementation of Subpart B of the Travel 
Management Rule. Designations are displayed on motor vehicle use maps, 
which show the public where and when they may operate motor vehicles on 
NFS lands. The agency is on track to achieve implementation on all 
units by the end of this fiscal year.
    Additionally, approximately 35 percent of units have completed or 
nearly completed the requisite travel analysis that will support 
implementation of Subpart A. The travel analysis does not effect any 
changes on the ground, including road closures. Travel analysis for 
Subpart A is expected to be completed on all units by the close of 
Fiscal Year 2015.
    In the specific case identified by Representative Walden--
designation of routes and areas for motor vehicle use in the Wallowa-
Whitman National Forest--the Forest Supervisor has agreed to reassess 
the travel management decision in response to public input, thus 
illustrating the agency's response to public involvement and the impact 
of public involvement on the designation process.
    The bill could preclude the Forest Service from enforcing public 
safety prohibitions and restrictions on NFS roads, such as speed, load 
and weight limits, closures during forest fires, and prohibitions on 
operating a motor vehicle carelessly and recklessly. Additionally, some 
travel management decisions involve other programs. Curtailing 
implementation and enforcement of travel management decisions could 
therefore affect ongoing programs in other disciplines because of 
interdependent NEPA decisions and Endangered Species Act consultation.
    The consultation requirements in the bill are duplicative. All 
subparts of the Travel Management Rule provide for involvement of a 
broad spectrum of interested and affected citizens, other State and 
Federal agencies, and tribal governments in making travel management 
decisions.
    Moreover, the bill's concurrence requirements would significantly 
delay or prevent implementation of future individual travel management 
decisions needed to protect NFS lands and resources, address use 
conflicts, and provide for public safety. It would be difficult to 
obtain concurrence from even one county, but ``affected county'' as 
defined in the bill includes a county that contains NFS lands affected 
by a travel management decision, as well as a county adjacent to that 
county. To illustrate the scope of the concurrence requirement, there 
are six counties adjacent to Representative Walden's Umatilla County. 
Four of those are in Oregon, and two are in Washington. Therefore, to 
implement travel management decisions affecting Umatilla County, it 
would be necessary to get concurrence from seven counties.
    To the extent H.R. 4272 would apply only to public domain NFS lands 
and not to acquired NFS lands, the bill would result in inconsistent 
management of NFS lands.
    This bill is not needed because the 2005 Travel Management Rule 
provides for dynamic management of the forest transportation system. 
Access can be changed or otherwise managed as needed to address issues 
that are important to the public and the ecosystem, including issues 
raised by affected counties.
           h.r. 4283--to amend the wild and scenic rivers act
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to testify before you today on H.R. 4283, to amend the Wild 
and Scenic Rivers Act.
    The Administration opposes H.R. 4283 because it discriminates 
between the businesses operating within the Main Salmon Wild River 
Corridor and would place an undue financial burden on the public for 
the operation of a private enterprise. We hope to work with 
Representative Simpson to find a solution that is mutually beneficial 
to his constituents and the Forest Service.
    More than 160 rivers in 38 States and the Commonwealth of Puerto 
Rico comprise the National Wild and Scenic River System. More than 
11,000 river miles are protected reflecting tremendous geographic 
diversity, from the remote rivers of Alaska, Idaho and Oregon to rivers 
threading through the rural countryside of Massachusetts, New 
Hampshire, and Ohio.
    Smith Gulch is located within the Main Salmon Wild River corridor, 
located within the Frank Church-River of No Return Wilderness in Idaho. 
Both the Wild River and Wilderness were designated as such by the 
Central Idaho Wilderness Act of 1980 (16 U.S.C. 1132). The Act mandates 
that the Main Salmon River corridor be managed according to the 
requirements of the Wild and Scenic Rivers Act.
    Public Law 108-447, enacted in 2004, amended the Wild and Scenic 
Rivers Act, 16 U.S.C. Sec. 1274(a)(24)(D), and directed that the Forest 
Service continue to authorize the established use and occupancy of 
three commercial recreation services within the Main Salmon River 
Corridor, including the services at Smith Gulch. Such continued 
authorization is to be subject to such reasonable regulation as the 
Secretary deems appropriate, including rules that would provide for 
termination for noncompliance, and if terminated, reoffering the site 
through a competitive process.
    The facilities and structures for commercial recreation services at 
Smith Gulch in Idaho are authorized and operated under a Term Special 
Use permit to River of No Return Lodge, Inc. (Permit #NFK249). The 
permit is authorized under the authority of the Act of March 4, 1915, 
as amended July 28, 1956, (16 U.S.C. 497). This permit is issued with 
provisions and terms similar to those of recreation facilities 
throughout the National Forest System. The permit takes into account 
the location and surroundings of facilities and improvements, the 
public values affected by such an operation, and any specific public 
health and safety concerns. Through such authorizations, the 
responsibility for a fairly offered, high quality outdoor recreation 
service is shared by the Forest Service, which represents the public at 
large, and the private business enterprise.
    H.R. 4283 would require the public to bear more of the cost of 
providing recreation services in the operation of a private business, 
with the Forest Service bearing the cost of environmental analysis. 
Under the existing approach, regulations directing the assignment of 
costs are found in 36 CFR 251.58, with Forest Service policy in FSH 
2709.11 Chapter 20. These regulations direct the assessment and 
collection of fees to recover agency processing and monitoring costs 
for new and existing authorizations. This legislation as written does 
not explain why the agency should bear the costs of a privately 
provided recreation service in this location.
    The Forest Service has in place appropriate policies to accommodate 
the needs of a recreation service business operating at this location. 
Consistent with statutory guidance, the policies allow for such 
facilities and structures needed to provide the authorized recreation 
services. Smith Gulch operates under these policies and requirements; 
just as other similarly authorized businesses within the Main Salmon 
Wild River Corridor.
    As evidenced by the proclamation of June 2014 as Great Outdoors 
Month, the Forest Service recognizes and fully embraces its mission to 
provide high quality outdoor recreation services to the public. I 
encourage the operators of the recreation service business at Smith 
Gulch to work with the appropriate local Forest Service officials to 
resolve any issues related to their utilizing existing agency 
regulations, policies and authorities.
    I would like to thank the Chairman and committee members for 
inviting me to testify on this issue, and I welcome any questions you 
may have for me at this time.

                                 ______
                                 

    Mr. Bishop. Thank you. Commissioner McClure, we are happy 
to have you here.
    Mr. McClure. Thank you, Mr. Chair.
    Mr. Bishop. You are now recognized on the Walden bill.

STATEMENT OF STEVE McCLURE, COMMISSIONER, UNION COUNTY BOARD OF 
                         COMMISSIONERS

    Mr. McClure. Thank you, Mr. Chair, members of the 
committee. My name is Steve McClure--oh, excuse me.
    Mr. Bishop. Let me interrupt, Commissioner. I appreciate 
that.
    Ms. Weldon, whenever you need to go, you are free to go.
    Mr. McClure. OK.
    Mr. Bishop. Commissioner, go ahead.
    Mr. McClure. All right, thank you. I have been a 
commissioner in Union County for 24 years. I am the second-
longest-sitting commissioner in the State of Oregon. I have 
been through the wars.
    I guess for me to describe the process that occurred in the 
Wallowa Whitman Forest would probably be a wonderful war story, 
it would probably take 2 hours to tell. I have 5 minutes, so I 
can't tell the war story. But I guess the best way for me to 
characterize it, it would be a study in the wrong way to do it. 
OK? If you want to know how to do it wrong, you need to come 
and look at how it was done in the Wallowa Whitman.
    Essentially, if you look at what the Wallowa Whitman 
situation was, when the Umatilla National Forest did their 
plan, they implemented travel management. The Wallowa Whitman 
did not. And that created a situation where you had two 
forests, side by side on Interstate 84, and if you were coming 
from Walla Walla or any place that has to do with recreation, 
you went to the forest that allowed you to do whatever you 
wanted to do, essentially. So there was a huge emphasis on the 
Wallowa Whitman for this kind of recreation, not only from the 
community, but from outside the community.
    It was very clear that Steve Ellis was sent to do travel 
management. The chief had talked to Steve and said, ``That is 
one of the jobs that we expect you to do. We know it is going 
to be difficult, but we have faith in you to do it.'' So they 
initiated the process. The first step in the process was to 
close all management level one roads across the board, just all 
of them.
    The problem was the Forest Service really didn't know the 
status of those roads. And they went to the counties and said, 
``Look, you know, this is our initial proposal, but we also 
understand that this is an important issue to your communities, 
and we invite you to take a look at these roads and then come 
back to us with suggestions of where we need to make changes, 
and we would certainly consider them. This is our process, this 
is the normal Forest Service process, don't be afraid of it, go 
do it.''
    So, that is what we did. Wallowa County had 30 volunteers 
that spent two summers with their own vehicles, their own gas, 
and went out and looked at over 1,000 roads. They had a 17-
question questionnaire that they answered on every one of those 
roads, all right? And they made a determination that almost 47 
percent of those roads were already closed, had been closed 
naturally. They were gone. So they came up with the proposal--
they said, ``Well, the roads that aren't there, we will give 
those up, but we really think we need to maintain the level of 
the roads that we have now.''
    Union County actually concurred with that, that was the 
position that we took. To be honest with you, we did not start 
as soon as Wallowa County did. We kind of dug in our heels and 
said not only no, but hell no. But we were informed that if we 
didn't participate, we weren't going to get anything. So we, in 
the second year, did participate. And we found about the same 
results. I didn't provide those as attachments, but I have 
them. If you want to read them, you can see road after road 
that was closed, barricaded, so on and so forth.
    So, I can go through all the details, but, actually, what 
happened was, when the decision was made, a good friend of mine 
who was the ranger--no longer works for the Forest Service, but 
was the La Grande ranger--called me 2 weeks before the decision 
came out and said, ``Steve, County didn't get a damn thing out 
of this.'' He said, ``I argued for 2 weeks,'' and he said, 
``You got nothing.''
    OK. We asked for four specific things that we wanted that 
we had identified that we needed, very simple things. And they 
are in my testimony. I mean they were loop roads, they were 
roads that were very simple. We got none of them. So the outcry 
that you got from the public--the congressman mentioned it--I 
have never seen in my 24 years the size of the outcry that that 
community had. It wasn't what the commissioners did that 
changed this; it was the people in the community, OK? Their 
values, their belief, their use.
    You need to understand what has happened to a lot of these 
forests. The economic piece has gone away. Now we are taking 
away the recreational piece. And those people absolutely resent 
it.
    Now, I want to spend just a few minutes to the bill. You 
know, it appears, if you first look at the bill, this gives 
county commissioners a free pass. All right? Gives them a veto. 
This bill does not give us a veto. We have to have travel 
management. We are working on a timber sale right now in the 
Wallowa Whitman, and the issue of travel management has come 
up, and we are being challenged because we don't have a rule. 
OK? But it makes commissioners step up to the plate and raise 
their hand and do it in concurrence.
    Right now it is easy for me if the Forest Service--I just 
say, ``Hey, they made the mistake. I didn't.'' But we have 
asked for years for that participation, and we are willing to 
do that participation, and that is what this bill provides for.
    Thank you, Mr. Chair.
    [The prepared statement of Mr. McClure follows:]
Prepared Statement of Steve McClure, Union County Commissioner on H.R. 
                                  4272
    Thank you Mr. Chair and members of the subcommittee for the 
invitation to testify on H.R. 4272. My name is Steve McClure. I have 
had the honor of serving the citizens of Union County, Oregon for 
nearly 24 years as a County Commissioner. During that time I have had 
the opportunity to observe and participate in the changes that have 
occurred in the management of Natural Resources.
    Today I would like to relate to you the experiences of not only 
Union County, but also of Baker and Wallowa counties as it relates to 
the process the Forest Service went through to develop the Wallowa-
Whitman National Forest Travel Management Plan.
    When the Wallowa-Whitman did their last Forest Management Plan, 
travel management was not included in the plan. At the same time the 
Umatilla National Forest did their plan and they did include Travel 
Management except for the Heppner Ranger District. The outcome of those 
resulted in a situation where two National Forests side by side on 
Interstate 84 had two entirely different travel restrictions--one that 
was extremely limited in access and the other that had no restriction 
at all as it related to ORV use. As you can well imagine the Forest 
with no restriction became the preferred recreation site for ORV 
recreation.
    Even though the three National Forests in eastern Oregon, together 
with the 10 counties in Oregon and Washington, were in the process of 
developing a new Forest Plan notice came that the Wallowa-Whitman would 
also do a Travel Management Plan at the same time rather than including 
it in the ongoing plan process.
    The Forest Supervisor of the Wallowa-Whitman made public his 
proposed conditions which was to close all ML 1 and reduce some ML 2 to 
ML 1 and at the same time assured the counties and the local 
communities that it was not going to be the final outcome and invited 
each of the three counties to examine the proposals and submit changes 
that the counties wanted.
    All three counties then submitted to the Forest Service the changes 
they wanted to see in the ROD and they were all rejected but a few 
minor changes in Baker County. (I have included Union County's request 
and rationale that we submitted as part of the record).
    I could spend an hour in telling all the details of what happened 
but rather than that I would just like to finish by summarizing what I 
consider to be the major problems and issues with the Travel Management 
Plan for the Wallowa-Whitman National Forest.
    First, this was a top down decision. The decision had already been 
made with the initial proposal and the counties were involved because 
of public governmental requirements, but that input was never seriously 
considered by the decisionmakers. At least some part of the counties' 
requests could and should have been acceptable.
    Second, the Wallowa-Whitman National Forest did not know or 
represent current conditions as they existed when they made their 
initial proposal. The counties discovered that almost half of the roads 
that were proposed for closure were no longer useable because they had 
naturally grown over.
    Finally, the Forest Service clearly exceeded the boundaries of what 
was acceptable to the Local Communities as demonstrated by the largest 
rally of opposition to any governmental decision in my 24 years as a 
County Commissioner.
    Our experience with the Wallowa-Whitman Travel Management Plan 
clearly shows the need for H.R. 4272 which provides a chance to restore 
local control over these planning processes and ensure that local 
communities, and their needs and uses are not ignored. It is important 
that the counties not only participate but that there is an agreement 
between the Forest Service and the communities.
    The following document is part of my testimony and not to be 
considered an attachment.

                UNION COUNTY TRAVEL MANAGEMENT COMMENTS
    Union County affords unparalleled recreation opportunities in the 
vast forests and mountains surrounding the Grande Ronde and Indian 
Valleys. Thousands of visitors annually hike, explore, photograph, 
four-wheel, cross-country ski, snowmobile, cut firewood, pick berries 
and mushrooms, hunt, mountain bike, or just enjoy the panoramic views, 
peace, quiet, and clean air. Nearly half (45 percent-49 percent) of 
Union County land area is administered by the Forest Service consisting 
of Umatilla National Forest but primarily Wallowa Whitman National 
Forest. Most of these many recreational opportunities take place on 
Forest Service land and are an intricate part of what makes Union 
County a great place to live.
    The economic benefits of these activities are obvious and 
substantial; from the hunters and fishermen that stay in our motels and 
eat in our restaurants, to the mushroom and berry pickers that purchase 
fuel in our gas stations and supplies in our stores. These activities 
depend greatly on the ability to easily access our forestland. The true 
value of access reaches far beyond the economic benefits. To the many 
individuals that choose to live and work in Union County, the ability 
to access a favorite spot is part of a heritage handed down from 
generation to generation. During our committee's work to quantify and 
qualify the use of our forestland, many stories were related speaking 
directly to this heritage. Countless citizens recounted stories of how 
their father took them to this place and their father before them. Rich 
traditions are developed around simple camps on dead end roads or jeep 
and OHV trails that take you farther ``off the beaten path''. Secret 
berry and mushroom patches are passed down from generation to 
generation. These experiences are the foundation of what defines us as 
a people in northeast Oregon and an intricate part of our heritage. An 
act as simple as closing a single road may lose these traditions 
forever. The first conclusion the County's travel management committee 
would put forth is that it is impossible to capture and quantify the 
social value of these traditions and document specific access to them. 
The approximate 25,000 citizens of Union County utilize many different 
areas for many different uses. How is it possible to capture and 
quantify each citizen's use, and accurately represent the social value 
to that individual? Social values will absolutely be impacted by 
reducing the level of motorized access. Reducing access in any given 
area will impact those that have grown up recreating in that area.
    Instead what would greatly benefit the many precious resources in 
our forests would be to enforce those closures that have already been 
made. The inability of existing closures to be maintained and enforced 
calls into question the ability of the Forest Service to enforce the 
many additional closures proposed. During conversation with the Forest 
Service Law Enforcement Officers it has become clear that little to no 
additional staffing will be added as a result of this process. It was 
also stated that if additional staff is added, they will not be 
assigned to this area. It has also been made clear that the proposed 
closures will not be physical closures, but merely a road will be 
indicated closed by a chart on the back of a map. Given the limited 
number of law enforcement currently available, the lack of additional 
law enforcement foreseen in the future, and the fact that roads will 
not be physically closed, Union County views the implementation of more 
restrictive options as unsustainable and unrealistic.
    Permitted access, especially collecting firewood, will be greatly 
impacted by reducing access. Reducing the number of access roads will 
largely serve to concentrate those that take part in this activity. The 
same could be said of many other activities including but not limited 
to hunting, berry picking and mushrooming. The ability to have a 
positive and productive experience while taking part in these 
activities will be greatly impacted by reduced access. The more users 
that are concentrated along limited access routes, the more difficult 
the activity will become resulting in both the degradation of social 
values as well as a reduced ability to harvest fuel wood as well as 
berries, mushroom or game.
    It is certainly true that not all Union County citizens value 
motorized access as the priority recreational experience. Although, 
many of these users utilize various forest roads to access the roadless 
areas. For those that value what has been termed ``quiet recreation'' 
there are currently large roadless areas and areas of regulated vehicle 
use. In Union County these areas include the Eagle Cap Wilderness Area, 
the La Grande Watershed and the Dry Beaver-Ladd Canyon Travel 
Management Area. In adjacent counties additional roadless areas include 
the North Fork Umatilla Wilderness, the Wenaha Tucannon Wilderness, The 
Baker Watershed, The North Fork John Day Wilderness, and the Hells 
Canyon Recreation Area. In the Wallowa Whitman alone approximately one-
fourth of the management area is currently wilderness (586,729 acres) 
and over 110,000 acres of wilderness lie in Union County.
    The threat of catastrophic wild fire is very real in Union County. 
Although the draft EIS allows for access to all roads for emergency 
response, the reality is that upon discontinuing active use many roads 
will be reclaimed by nature. As these roads currently provide access to 
fire apparatus, fewer roads will certainly result in less access by 
engines crews. Roads can certainly be reopened however this will cost 
valuable time during initial attack while crews wait for the proper 
equipment to respond and open a road. The county believes it is 
unrealistic to expect roads will be reopened anytime a fire breaks out 
near closed roads. More realistically these fires will be dealt with 
using less effective crews rather than engine crews or roads will not 
be opened until fires become large enough to warrant the cost and 
allocation of resources.
    For the reasons detailed above as well as the many reasons 
submitted independently by the local forests users, Union County 
supports Draft Alternative 3 as the preferred alternative.
    Since the release of the draft EIS it has been made clear to Union 
County that Alternative 3 will not meet the many stringent requirements 
applied by the various resource agencies and planning guidelines. As a 
result the County has spent hundreds of volunteer hours attempting to 
evaluate the current Forest Service road system. These evaluations were 
completed by one group during one season. Through no lack of effort on 
the part of these volunteers, the data is limited and incomplete. For 
example, by only surveying through one time of year it is difficult to 
document the changes in use during other seasons. Additionally, we were 
unable to complete all road systems, however we believe a good sample 
has been established from which a precedent can be created and applied 
forest wide. Union County completed a road survey in which 283 roads 
totaling 236 miles were identified as physically closed, inaccessible 
or unable to locate (see attachment 1). It is the County's assertion 
that prior to closing additional open roads the Forest Service should 
first remove all the closed and inaccessible roads from the inventory. 
A substantial number of roads could be removed to meet the many 
management requirements without impacting the current access. It is 
only after these roads have been removed from consideration that a true 
and accurate picture of the existing road system can be gained.
    During this survey many current uses were identified (see 
attachment 2). As stated above, one result that was made clear during 
the survey is that it is impossible to document the social value of 
each individual road to all the citizens of Union County. Attachment 2 
should be considered an example of the myriad of uses that take place 
on all the road systems in the forest.
    There are a few areas the County would like to specifically callout 
as priority areas to maintain access. The first is the Five Points 
Creek OHV area (see attachment 3). As the Forest Service is aware the 
County is currently developing the Mount Emily Recreation Area (MERA).
    Discussions have been underway to link MERA in to the existing 
Forest Service OHV trail system. The attached map and data details an 
existing OHV route that crosses the Five Points Creek at the Camp One 
Crossing. It is the County's opinion that this crossing and the 
connecting trails are critical to access all the open and available 
trails on the west side of Five Points Creek. This crossing and 
associated trails will allow a substantial expansion of the current 
Forest Service OHV <= 50" trail system eventually benefiting both the 
Forest Service and MERA.
    The second priority area is the South Fork Catherine Creek Trail 
(see attachment 4). Union County considers this a vital link between 
the 7787 and 7700 roads. Currently the trail is utilized extensively by 
OHVs during all times of the year. The Buck Creek area is also used by 
hunters, berry and mushroom pickers, wood cutters as well as an access 
point to the Eagle Cap Wilderness. The South Fork Catherine Creek Trail 
as detailed on the map and the road system in the Buck Creek area are 
of major social value to the citizens of Union County. The county would 
propose that the trails system be open year round to OHVs <= 50".
    The third priority area is the Dry Beaver-Ladd Canyon and Clear 
Creek Travel Management Areas. These areas are currently under travel 
management. It is the opinion of the County that these areas should 
maintain the current level of access and closures. Since the existing 
conditions are regulating both off road travel and overall motorized 
access, the County sees no reason to further limit access. It has been 
represented to the County that some options allow for this request, 
i.e. Option 5. However upon close inspection of Option 5 some current 
green dot roads do not appear on the map such as the 4300500 and 
4300300. As we have been led to believe Option 5 maintains the green 
dot roads as open, all green dot roads should be open under this 
option.
    The fourth priority area is the Breshears OHV Trail system. Since 
this area is an identified OHV trail area, the County wishes to 
maintain that area as built, including those Forest Service roads used 
to access what is currently Forest Capital property. The Breshears 
system is primarily maintained by the users and is utilized extensively 
by Union County citizens. Under Option 5 there are loop roads and 
connectors such as the 6205, 6210090 that are proposed to be closed or 
the connection is to be severed that will reduce the functionality of 
the trail system. As this is already a designated OHV area, it should 
be maintained as such.
    According to the Draft Environmental Impact Statement the Travel 
Management process includes an annual review. It is the hope of Union 
County that this review be a collaborative process allowing for the 
reopening of roads found to be of substantial social and economic 
value. As a part of the annual review process Union County requests 
that the number and total mileage of roads currently closed and 
inaccessible be identified as well as those that are closed as a result 
of the travel management plan. Union County does not believe an 
accurate current condition has been represented. The County views the 
review process as vital to rectify the closing of roads that the 
community finds to be necessary and important for the many reasons 
listed above.

                                 ______
                                 

    Mr. Bishop. Thank you. I appreciate that. We will now have 
questions to our witnesses on this particular bill.
    I am going to yield my time to Mr. Walden, if you have some 
particular questions of the other two witnesses.
    Mr. Walden. No, I--thank you, Mr. Chairman. I appreciate 
that, and--allowing me to say a few words.
    I think Mr. McClure--Commissioner McClure really summed it 
up well. And he is not alone. As you go across eastern Oregon, 
commissioners really want a better relationship with the Forest 
Service when it comes to these roads. In some cases I have 
heard from commissioners that have that. But it is so dependent 
upon who is in that local forest. And it shouldn't be that way. 
And that is why we wrote this bill to try and make the point 
and move forward to build better collaboration at the local 
level.
    Because I have to tell you. Steve really stepped up. And 
his colleagues. And there were other counties around that 
weren't quite sure they should go down this path, and their 
local voters and residents weren't sure they should even 
participate. And so you can imagine what happened when they 
finally convinced everybody, as did I, ``You better participate 
so you are doing the public process, so you have your input, or 
else the Forest Service won't be able to evaluate what you 
suggest,'' only to find out all that gets thrown out. Now there 
is no confidence in the system. Now 1,000 people turn out. This 
isn't downtown Portland, where turning out 1,000 people is no 
big deal. How many people live in Union County, Steve?
    Mr. McClure. Twenty-five thousand.
    Mr. Walden. Twenty-five thousand. So 1 out of every 25 
showing up for a meeting.
    Mr. McClure. Yes.
    Mr. Walden. If that doesn't get your attention--and I had 
to make calls, and all of that, as well.
    And we had to do it, frankly, on the Malheur, when the new 
forest supervisor or Region 6 supervisor--first place I took 
him was the Malheur, because the same issues were bubbling up 
there.
    So, it is not just this isolated case. Other places, yes, I 
would admit it has worked out. And certainly probably in other 
regions of the country it has worked out. But the feeling that 
folks I represent have, and that I have deeply is you already 
locked off X percent per forest on wilderness, roadless, 
whatever. Now it feels like you are coming back for the rest. 
And that is what I think has people really upset and concerned.
    I don't know anybody who thinks you ought to be able to 
take an off-road vehicle and just run it across the range and 
destroy the habitat. There is probably somebody in every case. 
But that is not what we are about here at all. We want good 
management. But you also want to be able to access these roads. 
And it just feels like a few people in an office make the 
decisions.
    So, maybe I could go to Steve for a question, Mr. Chairman, 
just in terms of this collaboration with the counties, because 
I know the Administration opposes that piece of this bill.
    How do you see--foresee that working? Before they could 
close a road, they would have to reach out to you. And I know 
Ms. Weldon, in her testimony, references northeast Oregon. And 
maybe the way we have worded it would require six counties and 
two States to sign off. Is that something you think we could 
work through, Steve?
    Mr. McClure. Congressman, Mr. Chair, Congressman, we have 
been doing that for years in eastern Oregon. You need to 
understand the relationship that counties have out there. We do 
not have a bad relationship. I really need to tell you that. We 
have been in the process for almost 10 years now, developing a 
new plan for the three forests in eastern Oregon: the Malheur, 
the Wallowa Whitman, and the Umatilla. OK? We have planned for 
10 years. And we finally have a plan on the street for public 
comment. And I will be honest with you. The counties were at 
the table, we were--the 10 counties, 3 in Washington, 7 in 
Oregon--we were co-conveners. So it is in our culture to do 
this kind of work.
    Now, I will be honest with you. We don't always agree with 
the Forest Service, but we sit down with the Forest Service at 
the table. We do it all the time. And my community, we provide 
a tanker base, we have a relationship constantly with the 
Forest Service. We work with the Forest Service. We have always 
worked with the Forest Service. And we worked with the Forest 
Service on this particular circumstance, we honestly did. We 
went out and did the survey. My opinion is the Forest Service 
should never have put the proposal on the table without knowing 
the condition of those roads to begin with. It shouldn't have 
been the community's job to go out there and determine which 
ones were closed and which ones weren't. But that--being that 
what it may, we did.
    So, when you talk about cooperation, yes, we know how to 
cooperate. We have done it. And it doesn't change what we are 
doing. I think the important thing to this bill, it honestly 
brings the commissioners to the table, where they have to make 
a decision. OK? That is the important piece, all right? We can 
no longer sit on the sidelines and complain and complain. We 
now are going to have to have travel management. It is going to 
go into the courts when we try to do activities. If you don't 
have travel management, it is going to be required. It is going 
to require us to negotiate and come up with concurrence with 
the Forest Service, so that we have buy-in. And that is 
something that we, as local county commissioners, have wanted 
for years out there, is that responsibility. And I honestly 
tell you there are people that don't want that. But that is the 
position that I think. Thank you.
    Mr. Bishop. Thank you. I appreciate that. Mr. Grijalva, do 
you have questions?
    Mr. Grijalva. Thank you. Chief Weldon, If this bill were to 
become law, would the Forest Service have to restart the entire 
travel management process that was required since 2005 under 
President Bush's administration?
    And even though approximately 90 percent of the national 
forests in the country are now managed under the finalized 
decision on the rule, any idea, if that process were to start 
over, what are the costs that would be incurred by the 
taxpayers at this point?
    Ms. Weldon. Thanks, Chairman Grijalva. You know, I am not 
totally sure what the implications would be, as we would move 
forward under the Act. The need for the concurrence is the 
piece that would need to be evaluated. You know, we have 
decisions that have been made. But without those having been 
made with concurrence from the commissioners, then we would 
have to figure out how to go back and open those decisions up 
to enable that to occur.
    So, potentially, it could open the planning process again, 
because there may be enough difference in conditions and such 
that would require really digging into those analyses again. 
So----
    Mr. Grijalva. Yes. The issue of concurrence that is in the 
legislation?
    Ms. Weldon. Yes.
    Mr. Grijalva. Essentially, giving veto power to the 
counties over Federal decisions. And what does that mean for 
tribes or other stakeholders that might be involved in that?
    Ms. Weldon. Again, I think there is much to be worked out, 
and we look forward to working with Congressman Walden on that 
as it relates to the nature of concurrence, and whether that is 
something that--what weight does that carry in the context of 
the other involvement of citizens for decisionmaking. So those 
things are just things that need to be developed further with 
the bill.
    But our real intent is to ensure that we move forward with 
as strong and close understanding of what the context of this 
decision means to the local citizens. And that is something 
that we can do much better at than we have done in this 
instance.
    Mr. Grijalva. Yes. The point of the legislation is to halt 
the implementation, as part of it. And then, the consequence 
after that is the concurrence. And----
    Ms. Weldon. Correct.
    Mr. Grijalva [continuing]. Where that all----
    Ms. Weldon. Yes. The part about halting is of great 
concern, because that is something that throws off the work 
that is in play and being implemented, and could have the 
potential of stopping us from following through on the portions 
of the rule that are in play and working well to allow access 
and to protect the resource.
    Mr. Grijalva. Well, even the 90 percent, the decisions that 
have been made, I would suggest under that language is--they 
are all under question.
    Ms. Weldon. That is correct, yes.
    Mr. Grijalva. Commissioner, going back to that roughly 90 
percent of the national forest lands in the country are now 
being managed under the finalized decisions of the rule, see, 
if the legislation that you are supporting were to become law, 
all of these plans would be scrapped. And that is a concern.
    I understand the difficulties you faced in your community 
with the Forest Service. But as a taxpayer yourself, would you 
want to see the rest of the country start over in all those 
travel management plans that have cost millions of dollars to 
get to that point, if the language of this legislation is the 
way it is?
    Mr. McClure. Congressman--Mr. Chair, Congressman----
    Mr. Grijalva. Sure.
    Mr. McClure. I would agree with you. It doesn't make sense 
to go back and start all over. I am not a lawyer. I am not one 
that can give you a legal opinion. But my opinion is that it is 
not unreasonable to pass this bill with the understanding, as 
we go forward, this will be the process. I mean put language in 
the bill that says, ``If you have a travel management in place, 
you don't have to go back and do it over because of this 
bill.'' I have no problem with that. Communities have made it 
work.
    I mean we look at individual communities, and the way they 
have made it work is fine. We made an honest, good-faith 
attempt to work with the Forest Service, and it did not work in 
our community, OK, for a number of reasons. So, to ask 
concurrence----
    Mr. Grijalva. OK.
    Mr. McClure [continuing]. I don't think is unreasonable, 
but I agree with you, I don't think it makes any sense to go 
back and spend the money to do it all over again all over the 
country.
    Mr. Grijalva. Commissioner, I think the Deputy Chief said 
that that process didn't go, in your particular instance, the 
way it should have gone, and that they look forward to working 
on a--even a potential restart on some of the issues that you 
are bringing up. I just think this legislation is so 
encompassing that the rest of the country, then, has to follow 
the dictates, based on the situation in your area. And I don't 
think that is fair. Yield back.
    Mr. Bishop. Mr. Tipton, you beat me here. Do you have 
questions for these witnesses?
    Mr. Tipton. Thank you, Mr. Chairman. And, Mr. McClure, 
thanks for taking the time to be here. You could be a county 
commissioner in Colorado. We are hearing the same complaints 
throughout our district. We have 54,000 square miles of 
Colorado, and many of the same challenges and concerns that you 
are expressing here today we have certainly heard out of our 
district.
    In your opinion, after listening to your testimony and 
reading through it, was the Forest Travel Management Plan 
already pre-determined before the counties were able to weigh 
in? Was the decision already made?
    Mr. McClure. Mr. Chair, Congressman, I think that is one of 
the criticisms, that it--maybe it wasn't, but the outcome 
appeared that it was. OK?
    I mean when you go through the process that we went 
through, and none of what we had put on the table was 
considered, you have to believe that it was a top-down decision 
that came from DC that the Wallowa Whitman would have the 
management, and this is what it would be. I mean that is the 
feeling that the community has out there, that this was totally 
a top-down decision.
    Now, can I say that unequivocally? No. But that is the 
feeling that we had in the community----
    Mr. Tipton. Could you maybe give us a couple of----
    Mr. McClure. We were not considered in the process.
    Mr. Tipton. You made some requests, some suggestions for 
the management plan. Could you just give us a couple of 
examples of what those requests were to be included?
    Mr. McClure. Well, we went with option three, which was 
considered the Wallowa County option. Wallowa County did a 
fantastic job of identifying roads. And their position was 
simply, ``OK, the roads that are no longer serviceable, we take 
them off the list. But we keep the rest of them on the list.'' 
All right? ``We allow people to use the roads,'' you know?
    These are last-mile roads, they are the ones that get you 
to your Elk camp, they are the ones that get you to the 
huckleberry patch, they are the ones that get you to the last 
mile. And if they are still functioning, we allow them. OK? 
There is not a lot of cost to them. They are dirt roads. But 
they are the piece that brings the public into the recreation 
area. We accepted that.
    But we asked for things as simple as to maintain 
connectivity between private lands and Forest Service lands, 
you know? Routes that we had----
    Mr. Tipton. That sounds reasonable to me, yes.
    Mr. McClure. If you took the Forest Service piece out, the 
loop route went away.
    Mr. Tipton. Right.
    Mr. McClure. I mean what we were asking for was extremely 
simple, and there were only four specific things that we asked 
for.
    Mr. Tipton. So you asked for----
    Mr. McClure. We got none of the four.
    Mr. Tipton [continuing]. Four specific things. Sounds 
reasonable to me. What was the response from the Forest 
Service?
    Mr. McClure. From the Forest Service? You know----
    Mr. Tipton. Did they give you an explanation as to why they 
disregarded the request that you made?
    Mr. McClure. I think part of the problem that happened was 
there was a change in leadership at a crucial time when this 
happened. The forest supervisor that went through the process 
went back to work for the BLM in Idaho. We got a new supervisor 
who I really don't think understood it, and made a decision in 
total disregard from what the community had made. OK?
    If you really want to look at it, that was a huge mistake. 
OK? It was a personnel change.
    Mr. Tipton. Right.
    Mr. McClure. And essentially, the input from the community 
was totally disregarded.
    Mr. Tipton. Input from the community was totally 
disregarded.
    You know, I am a big believer in having that collaborative 
process. And Colorado, where we have a lot of public lands, it 
has worked well, to try to be able to work out some of these 
issues. But, Ms. Weldon, maybe you could answer for me. We have 
had Chief Tidwell before us, talking about closing public 
lands.
    We had forest fires out in Colorado in my district, West 
Fork Complex fire that went through. When I went to the 
incident command centers, they said that the model that the 
Forest Service had was completely out the window. This was 
impacting public safety, not to mention just access into these 
public lands.
    So, can you assure us that, when you are holding these 
hearings, that you are actually listening? Or is this just 
eyewash?
    Ms. Weldon. I can assure you we are listening. I am 
listening, and I really appreciate hearing the county 
commissioner describe what we hold to be very important, that 
we make better decisions when we make them with the interests 
of a local community in mind. They are better, but that doesn't 
mean they are easy.
    So, I just want to emphasize to you that what we are 
talking about here, by way of effective collaboration, is 
extremely important.
    Mr. Tipton. Well, when we are talking about effective 
collaboration, four simple requests.
    Ms. Weldon. Right, and what I would commit to----
    Mr. Tipton. Simply--and they were disregarded.
    Ms. Weldon. Yes, and that----
    Mr. Tipton. Is that listening?
    Ms. Weldon. Not in this instance. It was not listening.
    Mr. Tipton. It was not.
    Ms. Weldon. And what I----
    Mr. Tipton. But the policy is in place.
    Ms. Weldon. Correct. And our policy wasn't followed in that 
instance. So what I would say is that as we move forward, we 
need to hear and listen and take into consideration the hard 
work that the local community did to help us make a decision.
    Mr. Bishop. OK, thank you. Mr. Garcia, you just joined us. 
Are you up to speed here? Did you want more time before you ask 
questions?
    Mr. Garcia. No, Mr. Chairman.
    Mr. Bishop. All right. Mr. McClintock, do you have 
questions?
    Mr. McClintock. Yes, thank you, Mr. Chairman. You have 
heard from Oregon, you have heard from Colorado. I represent 
the lion's share of the Sierra Nevada, and my district runs 
from Truckee, north of Lake Tahoe, through Yosemite Valley, all 
the way down to Kings Canyon in Fresno County. And I have to 
tell you, word for word, what Commissioner McClure has said 
about the sentiments of local officials in his region are what 
I am hearing constantly from the local officials in my region.
    There is a very strong sense that local wishes are not 
being considered by the Forest Service, and that the Forest 
Service's maxim of Gifford Pinchot years ago, ``Greatest good 
for the greatest number in the long run,'' has been radically 
altered to a policy of ``Look, but don't touch.''
    The widespread shutdown of access roads in our region has 
severely limited public access. In many cases, local 
governments have actually volunteered to maintain the roads 
when the Forest Service has said, ``Oh, we just don't have the 
funding for it,'' despite the fact they are sitting on one of 
the most valuable assets the U.S. Government owns, the national 
forests. Local governments have stepped forward and said, 
``Fine. We will pay to maintain those roads,'' and they have 
been turned down by the Forest Service. It is inexplicable.
    Mr. McClure's point is spot on. You have already shut down 
economic activity on our public lands, which has severely 
impacted the economies of these local mountain communities. But 
you have always said, ``Well, don't worry about the fact we are 
shutting down timber, don't worry about the fact we are 
shutting down minerals. Don't worry, because you will always 
have recreation.'' And now you are shutting down the 
recreational opportunities. The public resents it, it resents 
it intensely.
    You know, 42 percent of California is owned by the Federal 
Government. In my district I have Alpine County; 96 percent of 
Alpine County is owned by the U.S. Forest Service. When the 
Norman and Plantagenet kings declared one-third of the land 
area of Southern England off limits to commoners, they declared 
it the Royal Forest, the exclusive preserve of the king, the 
king's foresters, and the king's favorites, the public 
resentment was so strong that no fewer than five clauses of 
Magna Carta were specifically devoted to redressing these 
grievances. And I have to warn you, as I have been for years 
now, that that public resentment is building and building in 
California, obviously also in Colorado, obviously also in 
Oregon.
    The preservation of the public lands for future generations 
doesn't mean closing them to the current generation. And yet, 
that appears to be the overriding policy of the U.S. Forest 
Service today. And that is not going to be allowed to stand. 
This is increasingly the attitude of the U.S. Forest Service 
under this administration. You have been warned and warned and 
warned of the public resentment that is building. And yet the 
Forest Service has obstinately proceeded in this exclusionary 
policy. And I will warn you again. It is not going to be 
tolerated by the public.
    You know, 30 years ago we harvested the excess timber out 
of the national forests before it could burn. And as one 
forester said long ago, ``The''--sorry, I don't know what--
sorry, at least I am not alone.
    Mr. Bishop. We are on the third floor. I don't think the 
flash flood will hit us.
    Mr. McClintock. Anyway, the point I was going to make was 
that the--when we harvested that--the forester says, you know, 
all of that excess timber comes out of the forest one way or 
another. It is either burned out, or it is carried out, but it 
comes out. When it was carried out we had healthier forests and 
a thriving economy.
    And we had one other thing: a well-maintained timber road 
system throughout the forests, small groups of foresters spread 
throughout those forests. When they saw a fire starting on a 
neighboring ridge, they had the equipment and they had the good 
fire access roads to get over there and put out that fire 
before it could spread. That is all gone now, and we are seeing 
massive forest fires. In my district the rim fire destroying 
400 square miles of forest land, and one of the contributing 
factors is this policy of shutting down the timber roads.
    I couldn't agree more with the bill. And I thank you for 
the time.
    Mr. Bishop. Thank you. And, once again, after this hearing 
is over, I want to find out how the Forest Service was able to 
interrupt his questions.
    [Laughter.]
    Mr. Bishop. It is the government. You manipulate us 
somewhere. There was a black helicopter around, and you did it 
some way. I don't know how you did it, but you did it.
    Mr. LaMalfa, do you have any questions?
    Mr. LaMalfa. Thank you, Mr. Chairman. If you could only 
arrange for that to be in northern California, where we need 
the water supply, instead of here, for the flood.
    Thank you to the panel here. Again, I can echo a lot of the 
same frustrations and complaints that Mr. McClintock did, Mr. 
Tipton did, and the reason for Mr. Walden coming forward. I 
represent the area basically north of Mr. McClintock's 
district, and we have many county supervisors that express--and 
the people that have, in the past, until recent years, used the 
forests and used them wisely but, nonetheless, had the access.
    And now what you find--and I get probably more complaints 
about this--well, except maybe the VA--than anything else, is 
that the access to the public's land has been denied. A recent 
policy of travel management or non-travel management has found 
people with more and more closed gates, very arbitrary. And 
that is a part of the problem.
    Ms. Weldon, when you have a new person that comes in, you 
have a new attitude. You have a new subjective way of looking 
at how this particular unit be managed. And so there is no set 
rule. So I don't see a thing wrong with this law that Mr. 
Walden has put forward, this proposal, H.R. 4272, simply 
requiring that if something--like part of the language, ``If it 
will or can reasonably be expected to alter public assets in 
the National Forest System lands of the unit, including any 
change or access,'' then it will be subject to a little more 
closer scrutiny by the local folks, local government. What 
could possibly be wrong with that, Ms. Weldon?
    Ms. Weldon. I think that the law itself is affirming the 
value and importance of the level of collaboration and 
connection and engagement we need to have with the local 
citizens, and that the counties, as a representative, can be of 
assistance to that.
    The complexities come in with whether or not there is a 
suspension of our ability to implement the current decisions we 
have in place, and how do we work through or work out the other 
primary entities affected when it comes to the role that the 
counties play. And so----
    Mr. LaMalfa. What other entities would that be?
    Ms. Weldon. There are tribes, there are other stakeholders 
that may not be associated with the decisions that the counties 
would make. So I am just saying those are things that we would 
like to keep working with the committee to be able to resolve, 
so that----
    Mr. LaMalfa. I am sure the tribes can be very effectively 
worked with on that, similar to the local government. It is 
another form of government, and I am sure they can be heard 
very well, but that shouldn't be used as an excuse. The reason 
that, again, we are so frustrated is that you might get a new 
forest manager in there, or a current one, that decides, ``Hey, 
this is my forest, and we are going to do it this way.''
    Ms. Weldon. And if I could please address that, you know--
--
    Mr. LaMalfa. We have had that attitude. Very, very 
frustrating in the north.
    Ms. Weldon. Yes, and----
    Mr. LaMalfa. And it has----
    Ms. Weldon. It is a--you know, when we bring leadership in 
for the national forests, we all need to have the same intent, 
and that is a core value of working very closely with local 
communities, and being able to stay consistent with our policy. 
And we owe that to the communities not to have very distinct 
swings in intent, because of the--I would say the inherent 
connection and contract that we have with that local community 
on how----
    Mr. LaMalfa. Well, we certainly owe that in a collaborative 
process, and we haven't been getting that. It has been very 
closed off in many cases here. So, I would have to strongly 
disagree that just because it is already in place doesn't mean 
we can't go back. Because, you know, Mr. McClure--their group 
has been very active in the process. Maybe some of the other 
group supervisors, commissioners, kind of got caught before 
they really understood what was going on, and the initial 
decisions were made.
    So, I think we would have to have the ability to go back 
and redo or adjust or modify or slightly tweak--however you 
want to look at it--the management plan that is in place. 
Because if you still ask those people in those districts, they 
are probably still very dissatisfied with their lack of access 
by the whim of a new administration or a new manager in that 
district. So we shouldn't alter this legislation at all. Just 
because those units have been done or finished--this plan is in 
place doesn't mean, hey, it is over with.
    They need to have that ability to alter a decision that was 
made. What would you say to that, Mr. McClure?
    Mr. McClure. I certainly appreciate what you are saying, 
Congressman. You know, I am looking at it from my perspective, 
going forward. I was not involved in the decisions that were 
made. You make a lot of sense when you make that discussion.
    But I would like to comment on the comment about how we get 
representation from other parts of our community. I need to 
tell you. Just like you, Congressman, I am elected. OK? I have 
stood seven times for election in Union County. I lost the 
first time, all right? I just finished going through my last 
election here in May. I have a job evaluation every 4 years. If 
I am not representing that community, I don't continue to do 
that.
    So, to imply that I am a county commissioner--am not--or a 
county commissioner is not qualified to make those decisions, I 
dispute that. We are just like anybody else, as an elected 
official. You know, we represent our communities. So----
    Mr. LaMalfa. We are over time, and I will come back to you 
in the second round here. But I appreciate that, because you 
probably make a decision closer to your people than anybody can 
3,000 miles away in Washington, DC. I will yield back and come 
to you in the second round. Thank you.
    Mr. Smith [presiding]. Does any Member have any further 
questions for a second round?
    Mr. LaMalfa. Well, let's keep going, then.
    Mr. Smith. Mr. LaMalfa?
    Mr. LaMalfa. Are we OK, Mr. Chairman?
    Mr. Smith. Proceed.
    Mr. LaMalfa. Mr. McClure, please continue that thought.
    Mr. McClure. Yes. So I am sensitive to that argument. Now, 
don't get me wrong. Everybody in Union County doesn't agree 
with me, and I understand that, I don't expect that. But I 
guess, from my perspective, when I stand for election, I get my 
ticket punched, so to speak, just like you do, Congressman. You 
stand for election. And we know what that means. You have to 
put yourself on the line. So that does mean something. And we 
are the elected representatives of that county.
    I don't think there is any idea that we are going to ignore 
other functions. You are not going to get complete agreement 
anyway. But I will guarantee you that I represent the interests 
of Union County, what the people of Union County believe.
    And I think the important point to consider is there is a 
saying in politics, ``You can mess with someone's vocation, but 
don't touch their avocation.'' And that is what you have done 
here. OK? We have taken away the timber supplies, we are 
closing the mills down. But now we have gone the second step. 
OK? We have gone to the point where we are impacting what 
people do out of pleasure, out of their hearts, and everything 
else. And it is not acceptable in these communities. It is 
becoming less and less acceptable. And that is exactly my 
concern.
    Now, if we look at the issue of cross-road travel and all 
those other issues, I will tell you that Union County obtained 
3,800 acres that we made into an ATV park. OK? We got the money 
from the State of Oregon, the Parks Department. One of the 
first questions that we had to answer was how were we going to 
deal with off-road travel with ATVs. And you know what we did? 
We decided we were not going to allow it. All right? And the 
community accepted that. And the community understands that. 
They will accept those kinds of things that make sense.
    And we are not the only ones that have done that. Morrow 
County has one that is 9,000, almost 10,000 acres, and they 
have done the same thing. So you can do this responsibly, 
listening to----
    Mr. LaMalfa. Well, you need to give people an outlet, and 
they find that there is no outlet. State of California, they 
had their--what is called the Green Sticker Fee doubled with 
the consent of the off-road community some years ago to put 
more money into the fund to open off-road and maintain off-road 
facilities. That money was swiped by the State legislature and 
moved into other areas. And so, here we are, off-roaders, 
holding the bag once again for a lie.
    And so, this Walden legislation, I think, is perfectly in 
line with having a better say by your local government to 
determine does it make sense for your community, is it right 
that we can get together and discern where it is appropriate 
and where it isn't. We are finding just locked gates. We are 
finding people that approach those gates, they park their 
vehicle, heck, you've got people over-zealously fining them for 
the way they are parking their vehicles in front of the locked 
gate. So, it is making people very angry in these districts 
like mine, Mr. McClintock's, and probably the others, as well.
    And, Ms. Weldon, there needs to be a heck of a lot more 
connectivity. So you coming in here and saying you are opposed 
to this legislation, I don't have a lot of sympathy, because it 
hasn't been very collaborative up to this point.
    And I will yield back, Mr. Chairman.
    Mr. Smith. Thank you. Mr. Grijalva?
    Mr. Grijalva. Thank you, Mr. Chairman. Two quick questions.
    Deputy Chief, going back to the point I think you started 
to discuss, could this legislation put the Federal Government 
in a potential violation of its trust and treaty responsibility 
to tribes? Say, hypothetically, if a proposed action is needed 
to meet treaty obligations such as off-reservation hunting, 
fishing, or the protection of a sacred site.
    Ms. Weldon. If the legislation requires a cessation of 
implementation of the decisions that have already been made, 
then I would say it does create a concern for those tribal 
entities who have entered into the government-to-government 
consultation, as part of how the decisions were made.
    So, it opens that up again and again. That is something we 
would like to work with the committee on, to get clarity on how 
we would move forward. But it does open up the need for us to 
revisit those decisions, and to make sure we are on track with 
the outcomes that were agreed upon with the tribes.
    Mr. Grijalva. Mr. Commissioner, just a question about how 
far does one extend the input. Because this legislation 
elevates counties, to some extent, above all other 
stakeholders. That is why I asked the question about tribes.
    Let's say, hypothetically, vacationing families from 
Portland, they want to weigh in on the planning process for the 
national forest in eastern Oregon. So these people from 
Portland are coming there to the area to hike, bike, hunt, fish 
in your local--and helping the local economy. Would they get 
equal input? What level of input would they have, since they 
are not from that immediate county region?
    Mr. McClure. Would they get input? Yes, they would get 
input, certainly. I mean if they are using public lands, we 
would listen to input from people outside the community. We 
have a relationship with the tribes. We deal with two tribes on 
a constant basis. We would take input. We understand that 
concept.
    I do represent specifically the citizens of Union County. I 
do represent what their concerns are. But to suggest that we 
wouldn't listen to outside input, no, we would listen to 
outside input.
    Mr. Grijalva. What I am asking, since they are not 
constituents in the sense of the word, what would be their 
level of input? Equal? And what role would they play in that 
process that the counties would be involved in, in terms of 
validating whatever plan comes out from Forest Service?
    Mr. McClure. Someone outside the county?
    Mr. Grijalva. Yes.
    Mr. McClure. Like I said, we would consider their input, 
like we would consider any other input. OK? They would be 
invited to testify. I am not going to say that they would be 
the driving force, but we would not exclude input from anybody. 
We don't, in our processes.
    Mr. Grijalva. I think that covers--I think that kind of--
yes, that answers it. Thank you.
    Yield back, Mr. Chairman, thank you.
    Mr. Smith. Thank you. Seeing no further questions, thank 
you very much for your testimony, and we will move on to panel 
two.
    On our second panel we will hear from witnesses on two of 
my bills: H.R. 4029, it transfers land and facilities 
associated with the Ozark National Scenic Riverways to the 
State of Missouri; and H.R. 4182, that requires the Park 
Service to administer the Ozark National Scenic Riverways and 
it coordinates with its current management proposal.
    Our first witness is Ms. Christy Roberts. Christy Roberts 
is from Ellington, Missouri. Our second witness will be Robert 
Ross. Robert is a State Representative from District 142 in the 
Missouri House of Representatives. And our third witness is Mr. 
Victor Knox. He is the Associate Director of Park Planning, 
Facilities and Lands with the National Park Service.
    Witnesses all have 5 minutes to present their oral 
testimony. There are lights in front of you. When they turn 
from green to yellow you have one minute to finish. And when 
they turn red you must end your statement.
    First let me thank the committee for taking their time to 
consider my two pieces of legislation, H.R. 4029 and H.R. 4182, 
regarding the Ozark National Scenic Riverways, a national park 
contained wholly within the eight congressional district. If 
you all will recall, in this committee last July, I spoke with 
Secretary Sally Jewell about my opposition and my constituents' 
opposition to the National Park Service's planning process for 
the Ozark National Scenic Riverways, and specifically, any plan 
that would close horse trails, limit boat motors on the river, 
close access points to the river, or propose new congressional 
wilderness designations in the Park.
    That November the Park Service released a draft general 
management plan that would do all four of these things, despite 
my public and frequent opposition to all four. In the meantime, 
I have sent numerous letters to or spoken up in this committee 
or in my office with everyone who will listen from the Park 
Service, including the witness today, Mr. Knox, asking that my 
concerns be taken into account.
    Every indication that I have received leads me to think 
that a plan will be finalized for the Park this fall or late 
summer that closes horse trails, it limits boat motors on the 
river, closes access points, and advances the process of 
designating new congressional wilderness areas. If Mr. Knox 
knows otherwise, I would be interested in hearing differently 
today.
    Having exhausted other remedies, I propose two different 
approaches to dealing with the management issues on the Ozark 
National Scenic Riverways. H.R. 4029 would give the Park back 
to the State of Missouri, and H.R. 4182 would amend the statute 
that created the Park to ensure that the general management 
plan for the Park stays the same way as it is currently, while 
providing the additional protections for public use.
    The State of Missouri has shown a willingness to receive 
the Park lands, including funds for the Park in this year's 
budget, and also sending two concurrent resolutions from each 
body of the legislature, asking Congress to consider turning 
the Park back over to the State of Missouri. State 
Representative Robert Ross led the charge in Missouri to secure 
funding for the Park, and he is here to testify today.
    In addition to asking Congress to consider turning the Park 
back over to Missouri, these resolutions also supported a no-
action alternative to the draft general management plan. This 
alternative would leave the Park as it is now, under a general 
management plan that has existed for over 30 years, and would 
not close horse trails or remove motorized vessels from areas 
of the Park where they are currently allowed, close public 
access points, or prepare new areas to be designated as 
congressional wilderness areas.
    While there are certainly problems with the current 
management plan, it does not include these sweeping changes in 
the draft plan that threaten to undermine public access to the 
Park, threatening the entire area's tourism industry.
    Ms. Christy Roberts is also here to testify today. And, as 
a lifelong resident of the area whose family has lived around 
and used the Park before it was Federal property, she can give 
you specific examples of how important the Park is to the 
region, how the local folks take care of it, and how the Park 
Service has abandoned its duties to the Park and to the region. 
It is my hope that, with this hearing, we will highlight the 
importance of the lands that comprise the Ozark National Scenic 
Riverways in my district.
    I look forward to the testimony of all the witnesses here 
today, and working together going forward to find an adequate 
solution to this problem.
    Ms. Roberts.

       STATEMENT OF CHRISTY ROBERTS, ELLINGTON, MISSOURI

    Ms. Roberts. One half-century of management by neglect. 
That is the current legacy of the National Park Service in the 
Ozark Riverways, as seen by the locals. Fifty years of lost 
cultural and economic opportunity in a region ripe with both, 
and certainly in great need of the latter.
    From the Park's almost immediate demolition of the lodge at 
Round Springs, which destroyed both an iconic landmark and a 
thriving business, to the more recently announced closing of 
the Big Spring Lodge and the cabins for a proposed 3 years.
    Good morning. I am Christy Roberts, President of a local 
Chamber and a business owner in the region. I am honored to 
speak on behalf of the proposal to return these parks and 
riverways to the State of Missouri, and I am saddened by the 
necessity.
    Much like the recent debacle in the VA, what is on paper 
and what is actually taking place are far from in agreement. 
The ONSR can produce records of federally supported river 
clean-ups, as the general management plan calls for, yet no one 
working in the canoe rentals or floating the river has seen 
such an effort for years. Organizations such as the Missouri 
Stream Teams and the Ozark Heritage Project are conducting the 
clean-ups, along with local boaters and conservation-minded 
tourists. National Park Service personnel are nowhere to be 
found.
    If you review the 1984 general management plan, you will 
see impressive proposed projects and reasonable policy, much of 
which has not been implemented in the 30 years.
    The ONSR will allow you to believe that the historical 
traditions of the local people are of great importance. 
However, their actions speak quite loud when they cancel local 
festivals created to highlight a way of life of the days gone 
by. This was prevalent when the Haunting of the Hills, a local 
favorite October event, and the Ozark Riverways Heritage Days 
were canceled in 2013. Thanks to a local organization, the 
Ozark Heritage Project, the above events will continue with 
very little assistance from the Park Service.
    The ONSR promised to be a good steward of the Missouri 
lands granted them and, as Missourians, we doubt that promise 
and offer the following as proof.
    Cemeteries, graveyards, and grave sites are now closed and 
inaccessible to the general public. They are overgrown, they 
are uncared for, and access is denied. Roads deemed illegal are 
closed or are proposed to be closed. This committee should be 
made aware that there are no illegal roads located in the ONSR. 
All roads, however remote, went somewhere at one point in 
history, of which may have been a church, a school, a cemetery, 
or a settler's homestead. It is necessary for locals and 
visitors to be allowed to experience these locations.
    Historic structures were destroyed. They are allowed to 
deteriorate, those that are left, losing forever the historical 
value of the area and the former residents. River accesses are 
closed, and proposed closures are a major issue. River accesses 
are natural, and nearly all accesses are created by the natural 
occurrences of the rise and the fall of the river. Boat 
restrictions have been applied, with more restrictions yet to 
come.
    It needs to be said that Secretary Udall, the first 
director of the ONSR, realized the necessity to have the word 
``recreation'' included in the original legislation, and he 
intended for the main reasons--for the creation of the Park, 
all of them to have equal value: conservation, preservation, 
and recreation for all. The words ``for all'' do not limit the 
use of a boat to only canoes. The intention of the Park was for 
all to enjoy.
    Primitive campsite closures and proposed closures. 
Primitive camping is a favorite pastime of visitors, and is a 
local and regional resident tradition. It is integral to the 
economy of the area that access is kept for the canoe 
outfitters, horse riders, and outboard motor visitors to enjoy 
in unity. The combined experiences of these groups should be 
enhanced and improved, not subject to yet further restrictions 
and limitations. My husband and his brothers are a fourth-
generation family who still visit and utilize the river on a 
weekly basis. Their grandfather, Frank Roberts, and great-
grandfather, John Richmond Roberts, both owned farms on the 
bank of the current river. They watched their family heritage 
torn apart, burned down, and destroyed at the hands of the very 
people that promised to preserve it. And I can express the 
grief that they still feel when they visit those areas.
    This is only the story of our family. And I want to express 
that there are hundreds of families whose heritage was 
destroyed. And I am here today to speak for them. We have seen 
our rights deteriorate and stripped from us without reason, and 
we fear more is about to come. Our hope is that our children, 
our grandchildren, and our great-grandchildren will be afforded 
the same pleasures we enjoy, the same rights we have had, 
giving them the same opportunity for the next generation of 
families to experience.
    We live here. And no one considers it more critical to be 
good stewards of the land than the residents who call this 
pristine location in the Ozarks home. I believe the State of 
Missouri would be a better steward of the lands located within 
the boundaries of the Ozark National Scenic Riverways, and have 
proven by the current outstanding Park System within the State 
that they are capable of this undertaking. I am proud to be 
here today in support of Representative Jason Smith's proposed 
bills to either transfer the Ozark National Scenic Riverways 
back to the State of Missouri, or to require the National Park 
Service personnel to administer the Park under the current 1984 
general management plan.
    I invite you to visit with us and get to know the people 
who truly can serve, preserve, and enjoy the recreation that 
our area provides. Thank you.
    [The prepared statement of Ms. Roberts follows:]
          Prepared Statement of Christy Roberts, Ellington, MO
                       on H.R. 4029 and H.R. 4182
                               H.R. 4029
    One half century of management by neglect. Fifty years of lost 
cultural and economic opportunity in a region ripe with both and 
certainly in great need of the latter. From the Park's almost immediate 
demolition of the Lodge at Round Springs which destroyed both an iconic 
landmark and a thriving business to the more recently announced closing 
of the Big Spring Lodge and Cabins for a proposed minimum of 3 years 
beginning at the end of this summer. These are just a few of the 
reasons why the residents in the region I live in applaud 
Representative Smith for the proposal of H.R. 4029.
    I am Christy Roberts, President of the Ellington Chamber of 
Commerce and business owner in the region. I have witnessed firsthand 
much of this neglect in the past several decades--trash dumps created 
on the very sites that were once tourist attractions, access denied to 
family graveyards as well as gravel bars, timber allowed to rot and 
waste because of administrative inaction. My family and friends, many 
of which are business people and all of whom grew up for generations 
calling Current River home, have seen it all. I am honored to speak on 
behalf of the proposal to return these parks and riverway to the State 
of Missouri; and I am saddened by its necessity.
    Much like the recent debacle in the VA, what they have on paper and 
what is actually taking place are far from in agreement. The ONSR can 
produce records of federally supported river clean-ups, as the present 
General Management Plan calls for--yet no one working at the canoe 
rentals or floating the river has seen such an effort for years. 
Organizations such as Missouri Stream Teams and the Ozark Heritage 
Project are conducting the clean-ups, along with the local boaters and 
conservation minded tourists. NPS personnel are nowhere to be found.
    The ONSR will also allow you to believe that the historical 
traditions of the local people are of great importance; however their 
actions speak quite loud when they cancel local festivals created to 
highlight a way of life of days gone by. This was prevalent when the 
Haunting of the Hills, a local favorite October event and the Ozark 
Riverway Heritage Days were canceled in 2013. Both of these events 
highlighted important historical demonstrations such as Lye Soap 
Making, Rope Making, Quilting, Dutch Oven Cooking, Ozark Story Telling, 
I could go on. Thanks to a local organization, the Ozark Heritage 
Project, which in part was created just to re-establish these events 
and make sure the traditions of days gone by does not disappear, the 
above events will continue with very little assistance by the ONSR and 
without any funding.
    The ONSR promised to be good stewards of the Missouri lands granted 
them and as Missourians we doubt that promise and offer the following 
proof:

  1.  Many cemeteries, graveyards and gravesites are now closed and 
            inaccessible to the general public, they are overgrown, 
            uncared for and access is denied.
  2.  Roads deemed ``illegal'' are closed or are proposed to be closed. 
            This committee should be made aware that there are no 
            ``illegal'' roads located in the ONSR, all roads, however 
            remote went somewhere at one point in history, of which may 
            have been a church, school, cemetery or settler's 
            homestead. It is necessary for locals and visitors to be 
            allowed to experience these locations.
  3.  Historic structures destroyed, allowed to deteriorate, losing 
            forever the historic value to the area and former 
            residents.
  4.  River access closed or proposed closures; river accesses are 
            natural and nearly all accesses are created by the natural 
            occurrences of the rise and fall of the river.
  5.  Boat restrictions applied; Secretary Udall, the first director of 
            the ONSR realized the necessity to have the word 
            ``recreation'' included in the original legislation and 
            intended the main reasons for creation of the park to each 
            have equal value; Conservation, preservation and recreation 
            for all. The words ``for all'' do not limit use of a boat 
            to only canoes, kayaks and rafts. The intention of the park 
            was for all to enjoy. No one group should be singled out 
            for exclusion.
  6.  Primitive camp site closures and proposed closures; primitive 
            camping is a favorite past time of visitors and is a local 
            and regional resident tradition. Campers at these sites are 
            afforded no services for these camping locales even though 
            they are required to pay a fee. Canoeists and guests who 
            arrive by water are welcome to these same locations without 
            having to pay a camp fee. I believe this to be an unjust 
            discrimination to visitors who drive in while the NPS shows 
            preference to preferred groups who float in.
  7.  Resistance to economic growth in the poorest counties in the 
            State. It is integral to the economy of the area that 
            access is kept for the canoe outfitters, horse riders and 
            outboard motor visitors to enjoy in unity. The combined 
            experiences of these groups should be enhanced and 
            improved, not subjected to yet further restrictions and 
            limitations.

    My husband and his brothers are a 4th generation family who still 
visit and utilize the river on a weekly basis. Their grandfather Frank 
Roberts and great-grandfather John Richman Roberts both owned farms on 
the banks of the Current River. They watched their family heritage torn 
apart, burned down and destroyed at the hands of the very people that 
promised to preserve it and I can express the grief they still feel 
when we visit those areas. This is only the story of our family and I 
want to express there are hundreds of families who's heritage was 
destroyed and I am here today to speak for them as well. We have seen 
our rights deteriorate and stripped from us without reason and we fear 
more is about to come. Our hope is that our children, our grandchildren 
and our great grandchildren will be afforded the same pleasures we 
enjoy and the same rights we have had, giving the same opportunities to 
the next generation of the Roberts family. We live here and no one 
considers it more critical to be good stewards of the land than the 
residents who call this pristine location in the Ozarks home.
    I believe the State of Missouri would be a better steward of the 
lands located within the boundaries of the Ozark National Scenic 
Riverway and have proven by the current outstanding park system within 
the State they we are capable of this undertaking.
    I am proud to be here today in support of Representative Jason 
Smith's proposed bill to support the transfer of the Ozark National 
Scenic Riverway to the State of Missouri and I invite you to visit with 
us, get to know the people who truly intend to conserve, preserve and 
enjoy the recreation our area provides.
                               H.R. 4182
    In lieu of the passage of H.R. 4029, H.R. 4182 would be very 
favorably received by the local communities and would allow the current 
economies to endure, visitors to remain constant, historical structures 
and locations to remain accessible and local resident traditions to 
carry on.
    As noted in my testimony on H.R. 4029, the historical prevalence of 
the river and land is what locals believe has been typically forgotten 
since the creation of the Ozark National Scenic Riverway.. Briefly 
allow me to highlight:

    <bullet> Historical structures allowed to decline or be demolished
    <bullet> Historical farm fields grown up and not remain as 
            ``pastoral settings''
    <bullet> Historic roads, trails and river accesses closed
    <bullet> Folk lore presentations discontinued
    <bullet> Primitive camp sites closed
    <bullet> Cemeteries not maintained

    Then, Secretary of the Interior Stewart Udall and the original 
authors who wrote the 1964 legislation to establish the park used the 
words conservation, preservation and recreation for all. The intention 
of the word preservation was to preserve the history of the original 
inhabitants and their activities, as well as preservation of the river 
and wildlife.
    The addition of the wording ``preservation of historical 
activities'' to current policy and giving it the same weight in 
determining management decisions would improve the current policy.
    H.R. 4182 requires the National Park Service personnel to manage 
the Ozark National Scenic Riverway as it is currently being managed and 
to abide by the 1984 General Management Plan. The 1984 plan would 
continue to allow the horseback riders to continue the tradition of 
riding in the Ozarks, river accesses would remain open for all to 
enjoy, traditional recreation activities such as fishing, gigging, 
boating, canoeing, kayaking and swimming would all continue. River 
baptisms would be allowed to continue without restriction.
    The inclusion that the National Park Service prohibit the addition 
of any land within the Ozark National Scenic Riverway boundary from 
being included in such initiatives as the recent ``National Blueway'' 
or past ``Biosphere'', and the requirement that National Park Service 
personnel not allowed to designate a ``wilderness area'' without the 
proper legislation from Congress is appreciated.
    If the Ozark National Scenic Riverway and the National Park 
personnel would abide by the 1984 General Management Plan, implement 
and move forward with the proposed improvements to the park and allow 
for the current policy to remain the rule, the Ozark National Scenic 
Riverway would continue to provide traditional river experiences to the 
visitors and local residents.
    These rivers have truly been the lifeblood of the communities that 
grew up around them. These people developed a spirit along with a 
compassionate belief in assisting our neighbors and welcoming visitors. 
Personally and professionally Ozark people have attended to the needs 
of visitors for generations and this return to the original purpose of 
the creation of the Ozark National Scenic Riverway would free local 
businesses and organizations to better do so again.
Lack of 1984 GMP Implementation
    In the 1984 General Management Plan the NPS included commitments 
and policy to improvements to the park many of which have yet to be 
seen proving yet again the NPS is not a friend to the region but is 
directed by people who do not live in nor care about the communities 
that it is encompassed by.

  1.  The farms along the rivers had been allowed to grow up and become 
            brush thickets. The 1984 plan promised to maintain many of 
            the open fields in various stages of succession--for 
            aesthetic benefit and to provide diversification favorable 
            to wildlife; this was promised in the original plan as 
            well, siting ``pastoral settings'' of the way the land was 
            farmed before it became a park as an important visitor 
            experience, however not until the lower river area was 
            recently developed for the new elk being restored by the 
            Missouri Dept of Conservation were the proposed fields 
            manicured and revitalized. This was done at the expense of 
            the Missouri tax payer.
  2.  The plan states that cultural resources will be vigilantly 
            maintained and protected, however sites like the Lower 
            Parker School, one of the last one-room school houses in 
            Dent County is allowed to deteriorate. Cardareva School 
            House is demolished and native rock removed, cemeteries are 
            left in disarray, Button Rock School House continues to 
            decline. I would also like to note that cultural 
            experiences refers to camp locations, which often are 
            located on an old family farm, visited by descendants and 
            many of these have been closed off with large boulders 
            prohibiting use. The NPS also attempted to halt river 
            baptisms last year, a 200-year tradition in the Ozarks and 
            I hardly believe that could be considered protecting the 
            cultural resources of the area.
  3.  The plan encourages and supports efforts to stimulate study of 
            regional folk life. We do not believe this has been done 
            and is proven by the fact that park personnel were willing 
            to allow several events that promote the introduction and 
            exposure of local folk life to expire.
  4.  Litter was addressed in the plan and noted that existing cleanup 
            program continues to include summer cleaning crews and an 
            annual NPS/Canoe Concessioner cleanup day in March. To our 
            knowledge this does not exist or is not publicized to allow 
            for assistance by the locals. The only cleanup day events 
            currently noted are done by the Missouri Stream Team and 
            the Ozark Heritage Project, without the assistance of NPS 
            personnel. As for summer cleaning crews, trash pickup was 
            discontinued for many camping areas and providing trash 
            bags was eliminated.
  5.  Campground to be built along with a 200-person amphitheater to be 
            built at Aker's was never built, nor the improvements at 
            Powder Mill and the living demonstrations Blacksmithing, 
            Horseshoeing and Sorghum Making have ceased; widening of 
            the road to lower access at Log Yard and install concrete 
            boat ramp, were never done. The plan also speaks of 
            improvements at Jerk Tail and now that access is being 
            threatened with closure and a 200-seat amphitheater to be 
            constructed at Big Spring, also not completed.

    These are all projects and improvements put forth in the 1984 GMP 
but have yet to be implemented. These need to be addressed as to why 
the commitments were not followed through on and the point needs to be 
made of their negative impact on the economies in the area and the 
level of accountability the leadership of the NPS has shown.

                                 ______
                                 

    Mr. Smith. Thank you, Ms. Roberts.
    Representative Robert Ross.

    STATEMENT OF THE HON. ROBERT ROSS, STATE REPRESENTATIVE 
        DISTRICT 142, MISSOURI HOUSE OF REPRESENTATIVES

    Mr. Ross. Mr. Chairman, members of the committee, I am 
Robert Ross, State Representative from the 142nd District in 
south-central Missouri. I am here today to talk about the Ozark 
National Scenic Riverways, and the management of the Ozark 
National Scenic Riverways.
    But first, really, we should discuss the families, and from 
a number of perspectives. Number one, as Ms. Roberts mentioned, 
there are a number of families that, during the creation of 
this riverway, that either sold their land or had it taken from 
them in the process of eminent domain. And you have canoe 
rentals, you know. Those are ran by individuals that have 
families. The trail rides, the gas station owners, restaurants. 
I mean this is vital to our local economies.
    And then there are also families like mine that use this 
breath-taking area to enjoy, to relax, to get away. Make no 
mistake, this is an area where memories are actually made, 
whether you are riding a horse for the first time, catching 
your first bass, seeing a bald eagle for the first time, 
which--all of these add to the passion of the issue.
    The Ozark National Scenic Riverways is a conglomerate of a 
number of things, of caves, springs, scenery, recreation, and 
wildlife centered around the Current and Jack's Fork Rivers. 
When Congress saw the need to designate this as a national 
scenic riverway in 1964, there was a commitment and the intent 
to protect the area, while also protecting the individuals' 
access and ability, both near and far, to come and enjoy the 
natural beauty that we have there. Under the management of the 
National Park Service, this has been steadily and almost 
incrementally changing, and it is no longer the case at the 
present date.
    The recent mode of operation includes harassing family 
campers whether their tent is 2 inches out of the correct 
position, or placing boulders and gates across the rivers and 
the access, along with this new proposed general management 
plan that they mention they prefer Alternative B, which--that 
alone would close two-thirds of the current horse trails which 
exist in the area.
    It would make the upper 40 miles of both the Current and 
Jack's Fork non-motorized. You would not be allowed to camp on 
a gravel bar if it were not a designated camping area. And it 
would close 150 miles of roads which, despite their terminology 
as ``illegal,'' those roads were there prior to that 
designation as the Ozark National Scenic Riverways. Those roads 
were made by the local individuals and part of the logging 
operations.
    In this whole process of the comment period and, you know, 
relative to the general management plan, I heard it mentioned 
earlier in the hearing about eyewash. That is exactly what 
these hearings have been. They have not been held from a way of 
actually receiving public input and listening to what is being 
requested by the public.
    At this point the National Park Service is failing their 
original commitment to balance the protection and preservation 
of the area and of individuals' access to the area, and now 
seems bent on keeping people away. If the National Park Service 
is to continue managing the Ozark National Scenic Riverways, 
they should remember and re-read the language enacted in 1964, 
as previously mentioned, which balances the protection of the 
area with the protection of the people's ability to enjoy it, 
without proposing further restrictions and closing accesses, as 
contained within Congressman Smith's House Bill 4182.
    This past year in Missouri, through a bipartisan effort on 
a House Concurrent Resolution Number 9, Senate Concurrent 
Resolution Number 22, we discussed being able to take this part 
back. In fact, as was mentioned earlier, I was able to add 
funding for that. In Missouri we understand the balance of 
protecting our land and allowing the people to enjoy it, which 
is evident in our State Park and Conservation System.
    As Ms. Roberts previously mentioned, the people are the 
ones--the local people, not Park Service personnel, the local 
people are the ones that actually pick up the trash along the 
river and keep this area clean. Bringing the Current and Jack's 
Fork Rivers back under Missouri's management would be, by far 
and away, the best option to capture the original intent of the 
riverways creation, as outlined in Resolution 4029.
    And at that point I would be happy to answer any questions.
    [The prepared statement of Mr. Ross follows:]
   Prepared Statement of the Hon. Robert Ross, State Representative, 
            District 142, Missouri House of Representatives
                               H.R. 4029
    Mr. Chairman and members of the committee, as we continue our 
discussion of Missouri's Ozark National Scenic Riverways (ONSR) and the 
best way to manage this treasure moving forward, I would like to 
advocate for what we Missourians believe to be the best option in 
balancing the preservation of the area and the recreational 
opportunities that it affords.
    When Congress acted in 1964 to designate large portions of the 
Current and Jack's Fork Rivers as a ``Scenic Riverway,'' it did so with 
the intent and commitment of maintaining and protecting public access 
to an area that today receives more than 1.3 million visitors annually. 
In my conversations with some of the families who gave up their 
property (some land was purchased, while much was taken through Eminent 
Domain) those many years ago to allow for the creation of the ONSR, the 
recurring theme is that they did so because the Park Service assured 
them it would protect the riverways without limiting or restricting 
their access; and that future generations would be able to utilize and 
enjoy the area in the same manner that these local families had been 
able to. While that was the case for a number of years, the latest 
efforts by the National Park Service to restrict access and curtail 
recreational opportunity (which is a central theme in the proposed 
General Management Plan ``GMP'') threaten the integrity of the accord 
that was originally struck between the people of Missouri and the 
Federal Government.
    As discussed in my previous testimony, our State has came together 
in supporting the ``No Action Alternative'' which would not further 
limit access or increase restrictions. And while we believe this would 
be the ideal plan for the National Park Service to utilize going 
forward, the most favorable option to ensure proper management of the 
park would involve the Federal Government relinquishing control of the 
ONSR and returning it to the State of Missouri. For that reason I am 
fully supportive of Congressman Smith's H.R. 4029 that would empower 
our State to manage and protect the ONSR as a State park.
    These are Missouri lands and Missouri rivers, and I can confidently 
say that Missourians (as we have for generations) know best how to 
preserve and protect these resources both today and moving forward. We 
understand that this park is one of the greatest destinations in our 
Nation for floating, boating, hiking, camping, hunting, fishing and 
horseback riding, and we want to ensure visitors are able to enjoy 
these activities just as they have for decades. At the same time we are 
committed to protecting the ONSR as it represents a vital part of our 
local economies and an integral part of our way of life, and we are 
dedicated to ensuring it continues to be the natural treasure we all 
know it to be today.
    As previously mentioned in my testimony on H.R. 4182, the 
resolutions passed in the Missouri House and Senate express that we 
believe ``Missouri citizens most impacted in their daily lives are in 
the best position to formulate policy and regulations to manage and 
protect Missouri's natural resources as opposed to a Federal agency 
headquartered in Washington, DC''. We emphasized that statement again 
this session when my colleagues supported my efforts to secure funding 
for the operation and maintenance of the ONSR by the State of Missouri, 
within our operating budget. It should be mentioned that our State 
constitution requires a balanced budget and that we have continued to 
walk a very fine line in finding funding for many of our most critical 
needs. To authorize funding for this purpose despite the difficult 
budget situation we face is a testimony itself to the high level of 
importance we place on Missouri regaining control of the Ozark National 
Scenic Riverways.
    In conclusion, we urge you to take action to help us preserve 
access to this undeniably beautiful part of our State and Nation. It is 
possible to allow visitors to responsibly use and enjoy these waterways 
while also preserving and protecting their natural beauty so that they 
can be enjoyed by future generations as well. We believe it is not the 
National Park Service that is most capable of carrying out this 
mission, but instead our own State and people; which is evident in our 
conscientious management of the other thousands of acres we currently 
manage and protect. We hope that you will join us in supporting this 
effort to allow Missouri to serve as a responsible and proud steward of 
the Ozark National Scenic Riverways.
    Thank you for your consideration. I will do my best to answer any 
questions you may have.
                               H.R. 4182
    Mr. Chairman and members of the committee, I appreciate the 
opportunity to appear before you today to voice some of my thoughts and 
concerns regarding the management of Missouri's Ozark National Scenic 
Riverways.
    As the State representative for the 142nd legislative district, I 
represent approximately 37,000 Missourians, many of whom have their 
lives and livelihoods directly dependent on the continued success and 
accessibility of the natural treasures that are the Current and Jacks 
Fork Rivers. It should go without saying that these waterways are an 
integral part of our culture and a vital part of our economy, and that 
the people I am blessed to serve feel very strongly about protecting 
and preserving this important part of our history and our future.
    It is my contention that our scenic riverways must be protected but 
also managed in a way that will allow for proper stewardship that does 
not infringe on the rights of Missourians and visitors who wish to 
enjoy them. For decades now this has not been an issue as my 
constituents, as well as visitors from all around the State and the 
world, have camped, boated, hunted, fished and, in general, enjoyed the 
abundance of activities that are available along these waterways. It is 
this responsible use of the land that we want to continue.
    However, given the latest actions of the National Park Service, it 
has become quite clear that the goal is to limit access to these 
natural treasures, which is a decision that will have catastrophic 
effects on the lives of my constituents, as well as on our local 
economies. In particular, we have grave concerns with the National Park 
Service's preferred ``Alternative B''. This particular plan will lead 
to increased restrictions on access and the outright elimination of 
recreational activities in vast portions along the riverways.
    The people of Missouri are far more supportive of what is commonly 
referred to as the ``No Action Alternative''. We believe this 
management plan will allow users to responsibly experience this area 
that we agree is special, which was the central idea shared by property 
owners, the State of Missouri, and the NPS when the ONSR was created. 
It is this option that we believe is consistent with the way the park 
has been successfully managed for decades, and that will give us the 
best opportunity moving forward to protect and preserve this natural 
treasure without disrupting the way of life for thousands of 
Missourians.
    I feel it is important to note at this time that my colleagues in 
the Missouri General Assembly moved in overwhelming numbers this year 
to support this ``No Action Alternative''. We approved both SCR 22 and 
HCR 9 in both the House and Senate this year. These resolutions not 
only encourage the adoption of the ``No Action Alternative'', but also 
encourage Congress to explore the option of returning control of the 
park to the State of Missouri. As the resolutions read, we believe 
``Missouri citizens most impacted in their daily lives are in the best 
position to formulate policy and regulations to manage and protect 
Missouri's natural resources as opposed to a Federal agency 
headquartered in Washington, DC.''
    Furthermore, H.R. 4182 goes beyond simply ensuring that the current 
general management plan does not become more restrictive, it provides 
specific protections for recreational activities that have historically 
been performed within the park, including riding horses and using boats 
with motors. It seems beyond reason, but the Park Service's proposed 
alternative for management would close 65 miles of horse trails that 
are currently in use, and ban motorized vessels from areas of the river 
where they are currently allowed.
    In conclusion, we urge you to honor the original spirit of the 
agreement that was made when the Ozark National Scenic Riverways were 
first created. That means allowing Missourians to responsibly use and 
enjoy these waterways while also preserving and protecting their 
natural beauty so that they can be enjoyed by future generations as 
well. For decades we have been successful in this endeavor and we 
believe we can continue this success in the years to come without the 
need for overly burdensome regulations handed down by the National Park 
Service.
    Thank you for your consideration. I will do my best to answer any 
questions you may have.

                                 ______
                                 

    Mr. Smith. Thank you, Representative.
    Mr. Knox, please proceed.

 STATEMENT OF VICTOR KNOX, ASSOCIATE DIRECTOR, PARK PLANNING, 
FACILITIES AND LANDS, NATIONAL PARK SERVICE, U.S. DEPARTMENT OF 
                          THE INTERIOR

    Mr. Knox. Mr. Chairman, thank you for the opportunity to 
present the Department of the Interior's views on H.R. 4029 and 
H.R. 4182. I would like to submit our full statements on both 
of these bills for the record, and summarize the Department's 
views in my testimony.
    H.R. 4029 would require the Secretary of the Interior to 
transfer all Federal land, facilities, and any other assets 
within Ozark National Scenic Riverways to the State of Missouri 
for the purpose of maintaining a State Park. The Department 
strongly opposes the enactment of H.R. 4029.
    Our fundamental concern is that the bill would erode the 
idea of a Federal system of public lands, and the system of 
laws, regulations, and policy that govern the management of 
those lands. State governments have very different 
responsibilities for the management of State lands than the 
Federal Government, and are accountable only to residents 
within their particular States, rather than managing for the 
benefit of all Americans.
    H.R. 4182 would require the Secretary of the Interior to 
administer Ozark National Scenic Riverways in accordance with 
the general management for that unit of the National Park 
System that was adopted in 1984. The Department strongly 
opposes the enactment of H.R. 4182.
    This bill would undermine a public planning process that 
has been underway since 2005, and would deny the opportunity 
for all Americans, including Missourians, to have a voice in 
the future management of their national park.
    Mr. Chairman, this concludes my testimony. I would be glad 
to answer any questions that you or members of the committee 
have. Thank you.
    [The prepared statement of Mr. Knox follows:]
 Prepared Statement of Victor Knox, Associate Director, Park Planning, 
  Facilities and Lands, National Park Service, U.S. Department of the 
 Interior on H.R. 4029, H.R. 4182, H.R. 318, H.R. 4489, H.R. 4049, and 
                               H.R. 4527
                               H.R. 4029
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on 
H.R. 4029, a bill to require the Secretary of the Interior to transfer 
all Federal land, facilities and any other assets associated with the 
Ozark National Scenic Riverways to the State of Missouri for the 
purpose of maintaining a State park, and for other purposes.
    The Department strongly opposes the enactment of H.R. 4029.
    H.R. 4029 would transfer all lands, facilities, and assets 
associated with the Ozark National Scenic Riverways to the State of 
Missouri to be operated as a State park in substantially the same 
fashion as it was operated as a unit of the National Park System. If 
the State of Missouri attempted to sell any portion of these lands, 
assets, or facilities, or did not operate them in the same fashion as 
the National Park Service, they would revert to the ownership of the 
Federal Government. The bill would also require the Federal Government 
to pay all of the costs of the transfer.
    The Department has a number of concerns with H.R. 4029. Our 
fundamental concern is that the bill would erode the idea of a Federal 
system of public lands, and the system of laws, regulations, and 
policies that govern the management of those lands. The management of 
Federal lands involves the exercise of inherently Federal functions and 
decisionmaking by land managers for the long-term benefit of all 
Americans. State governments have very different responsibilities for 
the management of State lands than the Federal Government, and are 
accountable only to residents within their particular States. 
Accordingly, each State would be under strong pressure to manage 
according to local rather than national interests.
    2014 marks the 50th anniversary of the designation of the Ozark 
National Scenic Riverways as a unit of the National Park Service. In 
1964, Missouri's Congressional delegation united in support of a bill 
to set aside 134 miles of crystal clear spring-fed rivers in 
recognition of the inherent value of the unique scenic, natural and 
historic values of the Current and Jacks Fork rivers in the Ozark 
Highlands as a crucial part of our national heritage. Public Law 88-492 
was the culmination of 40 years of efforts by local businessmen, State 
officials and conservationists and became the model for the National 
Wild and Scenic Rivers Act, a landmark conservation act, signed into 
law by President Nixon.
    The enabling legislation charged the National Park Service with 
conserving and interpreting unique scenic and other natural values and 
objects of historic interest, preserving portions of the Current River 
and the Jacks Fork River in Missouri as free-flowing streams, caring 
for a world class spring system unparalleled in North America, 
including the largest spring protected in the national park system, and 
over 400 caves situated in the valleys and narrow hollows that meander 
between steep ridges, and for providing for the use and enjoyment of 
these outstanding outdoor recreation resource for the people of the 
United States.
    This mandate to conserve the park's resources while providing for 
access and recreational opportunities mirrors the mandate contained in 
the National Park Service Organic Act. The Riverways' 80,785 acres 
protect an important center of biodiversity, including three listed 
threatened and endangered species and numerous endemic species not 
found elsewhere in the world. The Riverways also contain many 
archeological sites and historic structures and landscapes that reflect 
more than 12,000 years of human habitation in the Ozark Highlands. 
Interpretation and education programs focus on the rich cultural 
heritage of the region. Tourism and recreation opportunities, such as 
boating, fishing, and horseback riding, are encouraged by the park and 
managed in balance with these resources and the diverse interests and 
desires of multiple user groups from across the Nation.
    In 2012, Ozarks National Scenic Riverways welcomed 1.4 million 
visitors and generated approximately $56 million in economic benefits 
for the surrounding community. Enactment of H.R. 4029 would not only 
contravene the intent of the Missouri delegation when it initially 
established the Riverways as a unit of the National Park System, it 
would also diminish the stature of these nationally significant 
resources and could reduce the economic benefits that accrue to 
national park sites by alienating certain user groups.
    The park is currently engaged in a planning process to update its 
1984 General Management Plan. This public process ensures that all 
Americans, including all Missourians, have a voice in the management of 
their park. Over 2,800 people from across the Nation have provided more 
than 16,000 comments and participated in public meetings, open houses, 
and stakeholder workshops since the planning process began in 2005. 
Ozark National Scenic Riverways has published a draft General 
Management Plan and collected public comments on this draft. The 
National Park Service is currently considering changes to the plan 
based on public comments, and anticipates releasing the final plan by 
early 2015.
    Mr. Chairman, this concludes my testimony on H.R. 4029. I am 
prepared to answer any questions from members of the committee.
                               H.R. 4182
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on 
H.R. 4182, a bill to require the Secretary of the Interior to 
administer the Ozark National Scenic Riverways in accordance with the 
General Management Plan for that unit of the National Park System and 
for other purposes.
    The Department strongly opposes the enactment of H.R. 4182.
    H.R. 4182 would amend the purpose of the Ozark National Scenic 
Riverways to include the preservation of historical recreational 
activities. The bill would prohibit the park from designating 
management zones and would require the National Park Service to manage 
the park, including the use of motorized vessels within the park, in a 
manner that is not more restrictive than the policies detailed in the 
park's 1984 General Management Plan. The bill would also require the 
park to allow horseback riding in areas where that activity has 
traditionally been conducted and to maximize public access points for 
traditional recreational activities on the Riverways. It would prohibit 
the park from requiring a permit for a baptism in the river, or 
including the Riverways as part of a National Blueway, or managing park 
lands as wilderness without specific designation. The bill would 
exclude all lands within the park from eligibility for Congressional 
wilderness designation.
    H.R. 4182 would undermine a public planning process that has been 
underway since 2005, and deny the opportunity for all Americans, 
including Missourians, to have a voice in the future management of 
their national park. The park is concluding the planning process to 
update its 1984 General Management Plan. Over 2,800 people from across 
the Nation have provided more than 16,000 comments and participated in 
public meetings, open houses, and stakeholder workshops since the 
planning process began in 2005. Ozark National Scenic Riverways has 
published a draft General Management Plan and collected public comments 
on this draft. The National Park Service is currently considering 
changes to the plan based on public comments, and anticipates releasing 
the final plan by early 2015. Enactment of H.R. 4182 would force the 
park to disregard the input that it has received from park users.
    Public participation is at the core of the National Park Service 
planning process--it ensures that the NPS fully understands and 
considers the public's interest in the parks. It is NPS policy to 
actively seek out and consult with existing and potential visitors, 
neighbors, federally recognized tribes, and other people with 
traditional cultural ties to park lands, scientists and scholars, 
concessioners, cooperating associations, and gateway communities. The 
Department cannot support any bill that would deny the public's 
opportunity to engage in the planning process and voice their opinions 
on the future management of the Ozark National Scenic Riverways.
    H.R. 4182 includes a number of provisions related to the 
administration of the Ozarks National Scenic Riverways.

    <bullet> Zones: Management zoning is a standard practice of local 
            and regional planning as well as planning for national 
            parks. Management zones provide direction to managers on 
            the nature and scope of allowable activities within 
            specific areas. Management zones are written broadly enough 
            to allow the flexibility to adapt management strategies 
            according to current and desired conditions.
    <bullet> Horseback Riding: Horseback riding is currently allowed in 
            the park and the NPS is looking to sustain the activity in 
            such a way as to not harm resources, specifically the 
            exceptional waters of the Current and Jacks Fork Rivers.
    <bullet> Access to the River: The National Park Service is 
            committed to providing access to the rivers in a 
            responsible manner. Baptisms do not require a permit. We 
            have reviewed our management policies and determined that 
            the superintendent has the flexibility to continue to allow 
            baptisms without a special use permit. Also, the Secretary 
            of the Interior issued an order ending the Blueways program 
            last year.
    <bullet> Use of Motorized Vessels: The National Park Service is 
            currently undertaking a comprehensive review of motorized 
            vessel use within the Riverways as part of the ongoing 
            planning process. H.R. 4182 would deny the public the 
            opportunity to share their views on appropriate horsepower 
            levels and areas of use and would limit the park manager's 
            ability to make necessary modifications for public safety 
            which could negatively affect tourism.
    <bullet> Congressional Wilderness Designation: The Wilderness Act 
            directs Federal agencies to assess if wilderness 
            characteristics are present and then provides a process for 
            public involvement. This issue is being considered in the 
            ongoing General Management Planning process and we cannot 
            support limiting the public's input during this process. We 
            recognize that only Congress has the authority to designate 
            wilderness.

    Additionally, H.R. 4182 effectively eliminates the National Park 
Service Organic Act as the fundamental law by which the Riverways would 
be administered. This law is the basis by which all of the other 400 
units of the National Park System are managed and eliminating its 
applicability to the Riverways is a precedent we strongly oppose.
    The Ozarks National Scenic Riverways is a powerful economic driver 
in southeast Missouri. In 2012, Ozarks National Scenic Riverways 
welcomed 1.4 million visitors and generated approximately $56 million 
in economic benefits for the surrounding community. The National Park 
Service encourages tourism and recreation opportunities, such as 
canoeing, kayaking, floating, horseback riding, camping, boating, 
fishing, trapping, hiking, gigging, swimming, and hunting. By 
supporting these activities, while conserving the unique natural and 
cultural resources that inspired Congress to protect these lands as 
part of the national park system, and with the input of diverse user 
groups from across the Nation, the National Park Service is helping to 
ensure that the park is responsive to users across America and remains 
an economic driver for future generations of Missourians and others.
    Mr. Chairman, this concludes my testimony on H.R. 4182. I am 
prepared to answer any questions from members of the committee.
                                H.R. 318
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on 
H.R. 318, to authorize a Wall of Remembrance as part of the Korean War 
Veterans Memorial and to allow certain private contributions to fund 
that Wall of Remembrance.
    The Department opposes H.R. 318 because it would significantly 
alter the character of the existing Korean War Veterans Memorial, and 
it is inconsistent with the Commemorative Works Act.
    H.R. 318 would amend Public Law 99-572 to expand upon the original 
purpose and design of the Korean War Veterans Memorial. The bill adds 
new subjects for commemoration and would require the display of certain 
information at the memorial about members of the U.S. Armed Forces who 
served in the Korean Conflict. Also, the bill would require the display 
of information at the memorial about members of the Korean armed forces 
and other Korean military personnel as well as the 20 other non-U.S. 
forces that were part of the United Nations Command who served in the 
Korean Conflict.
    The Korean War Veterans Memorial commemorates the sacrifices of the 
5.8 million Americans who served in the U.S. armed services during the 
3-year period of the Korean War. The Memorial also recognizes the 
participation of the 22 nations who served as United Nations 
contributors. During the Korean War's relatively short duration from 
June 25, 1950, to July 27, 1953, 54,246 Americans died. Of these, 8,200 
are listed as missing in action, lost, or buried at sea. In addition, 
103,284 were wounded during the conflict.
    The Memorial was designed, constructed and completed by its 
legislatively designated sponsor, the American Battle Monuments 
Commission (ABMC) and the Korean War Veterans Memorial Advisory Board, 
with public involvement throughout. It was dedicated on July 27, 1995.
    The Memorial's design, and each of its features down to its 
plantings, is symbolic. The Memorial is the culmination of years of 
work by the ABMC, and careful reviews, followed by revisions, and 
ultimately approvals reached by the National Park Service and other 
Federal entities including the National Capital Planning Commission and 
the U.S. Commission of Fine Arts. This painstaking and public process 
began with the competition design, and resulted in the completed 
Memorial we know today. The Memorial should not now be changed to 
include the engraving of names of Americans who served in that 
conflict. The opportunity to mimic the design characteristics present 
at the Vietnam Veterans Memorial was purposefully avoided when the 
design was requested during an open, international design competition.
    The concept of engraving names at this Memorial was considered 
extensively when the Memorial was being designed. The ABMC and the 
Korean War Veterans Memorial Advisory Board with the Department's 
concurrence, advised against the incorporation of engraved names at the 
Memorial. Both agencies arrived at this decision upon reflection of 
years of experience with the Vietnam Veterans Memorial. Inscribing 
names is a lengthy and painstaking process even when it goes smoothly. 
But more important, as the Vietnam Veterans Memorial experience showed, 
there is not always agreement on those names to be included and those 
names that are not, and this has led to public contention and 
controversy. Choosing some names and omitting others causes a place of 
solace to become a source of hurt. The Vietnam Veterans Memorial honors 
all who served in that conflict, but only the names of the 58,272 
killed within the combat zone are engraved on the Wall. This meant that 
those killed by a fire on a Navy ship just outside the zone were not 
eligible to have their names engraved on the wall--a difficult message 
for their survivors to accept.
    The ABMC and the Department felt the lessons learned at the Vietnam 
Veterans Memorial must not be ignored, that a different type of 
commemoration must occur at the Korean War Veterans Memorial, and that 
the Memorial should be representative in design and not include 
individual names. As a compromise to the Korean War veterans who wanted 
the names engraved, ABMC created the Korean War Honor Roll, which is an 
electronic registry of names. Visitors have access to this registry 
from the Internet or at the kiosks at the Memorial. A kiosk containing 
the Korean War Honor Roll stands at the west entrance of the Memorial. 
It is serviced by a National Park Service ranger, who provides 
assistance to visitors. The Honor Roll computer contains the names of 
all military personnel who lost their lives during the Korean War, 
including the individual's name, service, rank, service number, date of 
birth, hometown or county of entry into the service, cause of death, 
and date of death. If the information is furnished to ABMC, the Honor 
Roll includes the serviceman's unit, his awards, the circumstances 
surrounding his death or his going missing in action and a photograph. 
The ABMC also has the names of those missing engraved at the Courts of 
the Missing at the Honolulu Memorial.
    The Korean War Veterans Memorial is located near the Lincoln 
Memorial on the National Mall in Washington, DC, in an area designated 
by Congress in the Commemorative Works Act as the Reserve--an area in 
which no new commemorative works shall be located. As Congress noted in 
the law creating the Reserve, ``. . . the great cross-axis of the Mall 
in the District of Columbia . . . is a substantially completed work of 
civic art; and . . . to preserve the integrity of the Mall, a reserve 
area should be designated . . . where the siting of new commemorative 
works is prohibited.'' The Korean War Veterans Memorial is a completed 
work of civic art in this special landscape of the Reserve. Moreover, 
we cannot ignore the practical effect of this legislation. Essentially, 
the Memorial wall would be a second Korean War Veterans Memorial, 
effectively thwarting the intent of the Commemorative Works Act to 
prohibit new memorials within the Reserve and would be an addition that 
would significantly alter the character of the existing Memorial. And 
this second memorial would have the effect of violating the 
Commemorative Works Act prohibition on interfering or encroaching on an 
existing memorial.
    We feel very strongly that the Korean War Veterans Memorial, like 
the Vietnam Veterans Memorial, exists to recall the exemplary service 
and sacrifice of outstanding Americans, and this memorial has already 
been completed as it stands today. The Korean War Veterans Memorial is 
a place of honor and dignity and we should avoid any intrusions that 
will become a source of contention or controversy.
    That concludes my prepared testimony on H.R. 318, and I would be 
happy to answer any questions you may have.
                               H.R. 4489
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on 
H.R. 4489, a bill to designate memorials to the service of members of 
the U.S. Armed Forces in World War I, and for other purposes.
    The Department supports H.R. 4489 with two amendments.
    H.R. 4489 would redesignate Pershing Park in the District of 
Columbia as the National World War I Memorial and allow for the 
enhancement of the park through the construction of appropriate 
sculptural and other commemorative elements, including landscaping, to 
further honor the service of members of the U.S. Armed Forces in World 
War I. The bill also designates the Liberty Memorial of Kansas City at 
America's National World War I Museum in Kansas City, Missouri, as the 
National World War I Museum and Memorial. Finally, the bill makes 
amendments to the World War I Centennial Commission Act.
    The Department has testified previously on other bills which sought 
to designate a National World War I Memorial in either the District of 
Columbia or at the Liberty Memorial in Kansas City, Missouri. In the 
111th Congress, S. 760 and H.R. 1849 proposed designating the Liberty 
Memorial as the National World War I Memorial, while S. 2097 would have 
rededicated the District of Columbia War Memorial as a National and 
District of Columbia World War I Memorial. In the 112th Congress, H.R. 
938 proposed to designate the Liberty Memorial as the National World 
War I Museum and Memorial, and the District of Columbia War Memorial as 
the District of Columbia and National World War I Memorial. In each 
case, the Department testified that it was premature to establish a 
National World War I Memorial without studying existing sites that may 
already serve that role. The Department also testified that a national 
memorial to World War I already exists in the District of Columbia.
    General John J. Pershing Park, located in the along Pennsylvania 
Avenue between 14th and 15th Streets NW, was built by the Pennsylvania 
Avenue Development Corporation and is now under the jurisdiction of the 
National Park Service. The park includes a statue of General Pershing 
and artwork detailing the major battles in World War I that involved 
U.S. troops. Quotations on the existing World War I Veterans Memorial 
at Pershing Park include General Pershing's tribute to the officers and 
men of the American Expeditionary Forces of World War I and a 
commemoration of those who served in the United States Navy in World 
War I. The Department believes that this is the appropriate site to 
commemorate World War I.
    The National Capital Memorial Advisory Commission (NCMAC) has 
concluded that the existing World War I Memorial at Pershing Park 
serves today as a national memorial to the veterans who served in World 
War I. On July 23, 2013, NCMAC considered H.R. 222, which would have 
established a new and separate memorial to the veterans of World War I 
within the District of Columbia. The Commission unanimously recommended 
enhancing the existing World War I Memorial in Pershing Park rather 
than establishing a second memorial. More recently, on May 6, 2014, 
NCMAC considered H.R. 4489 and its companion bill, S. 2264. The intent 
of the bill to enhance the existing commemoration at Pershing Park was 
met with unanimous approval.
    H.R. 4489 directs that there will be no infringement upon the 
existing District of Columbia War Memorial, and provides for compliance 
with the Commemorative Works Act (CWA), with two exceptions. The bill 
waives section 8905 with regard to site selection, as Pershing Park is 
an existing memorial site and the bill only calls for its re-
designation. The bill, also, waives section 8908(b) of the CWA, as the 
Area I designation process is precluded by re-designation of Pershing 
Park. The Department agrees with these waivers. It further prohibits 
Federal funds from being used for the design, establishment, or 
enhancement of a memorial or commemorative work by the WWI Centennial 
Commission.
    Because of the importance of World War I to the history of the 
United States and consistent with the treatment of memorials to other 
significant wars fought by our country, the Department believes that 
this bill would designate the National World War I Memorial as a new 
unit of the National Park Service, which would in turn be managed by 
the National Mall and Memorial Parks. We recommend that language be 
included in the text of the legislation establishing the memorial as a 
separate unit of the National Park System.
    The Department also recommends striking ``national'' from the name 
of the title of the memorial to redesignate Pershing Park in the 
District of Columbia as the World War I Memorial. No other memorials to 
our country's wars sited in the District of Columbia have ``national'' 
in their title, including the World War II Memorial, the Korean War 
Veterans Memorial, and the Vietnam Veterans Memorial. We believe siting 
the World War I Memorial in our Nation's capital will allow the 
memorial to stand on its own and provide appropriate recognition to 
honor the service and sacrifice of all those who fought in this war.
    The proposed amendments are attached. In addition, the Department 
of Justice advises that it has constitutional concerns with H.R. 4489, 
which it intends to convey to the committee by separate transmission.
    This concludes my testimony on H.R. 4489, and I would be happy to 
answer any questions you may have.
Proposed Amendment to H.R. 4489
    On page 2, strike lines 17-19 and insert:

        ``(a) REDESIGNATION.--Pershing Park in the District of Columbia 
        is hereby redesignated as the `World War I Memorial', a 
        separate unit of the National Park System.''
                               H.R. 4049
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on 
H.R. 4049, a bill to amend the act to provide for the establishment of 
the Apostle Islands National Lakeshore in the State of Wisconsin, and 
for other purposes, to adjust the boundary of that National Lakeshore 
to include the lighthouse known as Ashland Harbor Breakwater Light, and 
for other purposes.
    The Department supports the enactment of H.R. 4049 with the 
amendments discussed below.
    H.R. 4049 would adjust the boundary of the Apostle Island National 
Lakeshore (Lakeshore) to include the Ashland Harbor Breakwater Light, 
thereby transferring ownership of the historic 1915 lighthouse to the 
National Park Service (NPS) from the U.S. Coast Guard in accordance 
with previously enacted legislation which mandates that any Federal 
property located within the boundaries of the Lakeshore be transferred 
to the Secretary of the Interior without further administrative action. 
H.R. 4049 ensures that the U.S. Army Corps of Engineers can maintain 
the breakwater upon which the lighthouse stands, and, in accordance 
with the terms of the previously enacted legislation, the U.S. Coast 
Guard can continue to maintain a Federal aid to navigation in the 
lighthouse. All three agencies would be required to cooperate in their 
operations so that each of their agency missions is served.
    Apostle Islands National Lakeshore, located on the south shore of 
Lake Superior, is responsible for the care of what renowned lighthouse 
historian F. Ross Holland, Jr., has described as ``the largest and 
finest single collection of lighthouses in the country.'' The park 
manages six historic light stations, and a total of eight standing 
light towers--more than in any other unit in the National Park System. 
All of the lighthouses currently located within the boundary of the 
Lakeshore, as well as the Ashland Harbor Breakwater Light, are listed 
on the National Register of Historic Places.
    The Lakeshore has developed into one of the premier locations in 
the National Park System for historic preservation and education 
centered on lighthouses, including interpretive programs highlighting 
the stories of light keepers and the expansion of the United Sates in 
the late 19th century through maritime commerce. In 2006, Apostle 
Islands rehabilitated the 1863 Raspberry Island Lighthouse, which is a 
very popular visitor attraction. This year, the Lakeshore is concluding 
a major historic preservation project that will rehabilitate the 1856 
Old Michigan Island Light, the oldest in the park, and significantly 
improve conditions at four other light stations.
    All of the lighthouses currently managed by Apostle Islands 
National Lakeshore were transferred from the U.S. Coast Guard to the 
National Park Service as part of a Congressionally authorized boundary 
adjustment and land transfer in 1986 that mandated that any Federal 
property located within the boundaries of the Lakeshore be transferred 
to the administrative jurisdiction of the Secretary of the Interior. At 
the time of the 1986 transfer, the future of the Ashland Light was not 
in question.
    In May 2012, the Coast Guard announced its intent to dispose of the 
Ashland Light under the National Historic Lighthouse Preservation Act 
(NHLPA). The NHLPA, enacted in 2000 as an amendment to the National 
Historic Preservation Act, provides a public process for the disposal 
of federally owned historic light stations by allowing them to be 
transferred at no cost to Federal agencies, State and local 
governments, nonprofit corporations, educational agencies, and 
community development organizations. The first step is the 
determination of the property as ``excess to service requirements'' by 
the U.S. Coast Guard and its identification as a historic structure. 
This determination is reported to the General Services Administration 
and notice is given that applications may be made for the structure. If 
an application is accepted, the lighthouse is simply transferred to the 
applicant subject to compliance with requirements to maintain the light 
and make it available to the public.
    No public or private entity, aside from the NPS, expressed interest 
in obtaining and maintaining the Ashland Light through the NHLPA 
process. However, as the Ashland Light is not within the existing park 
boundary, a boundary adjustment is needed to clarify that the property 
will be administered as part of the park.
    The Ashland Light sits in Lake Superior's Chequamegon Bay, less 
than 2 miles offshore of the small city of Ashland, Wisconsin. The 
tower is visible from most of the city's waterfront, and the light 
shines brightly at night. Images of the Ashland Light are everywhere in 
the city; they adorn the logos of the local newspaper, the Chamber of 
Commerce, and many local businesses. Few residents, however, have 
actually visited the Ashland Light or understand the vital role it 
played in one of the busiest ports on Lake Superior a century ago.
    The Ashland Light is currently in fair condition, but its long-term 
survival as part of the Nation's maritime heritage is not assured. The 
NPS and the local community are optimistic that the condition could be 
improved and appropriate visitor educational opportunities could be 
provided in the future if the Ashland Light were managed as part of 
Apostle Island National Lakeshore. With the addition of the Ashland 
Light, the NPS would manage all of the nationally significant historic 
lights in the region, further enhancing the park's role in historic 
lighthouse preservation and education.
    The Department would recommend three amendments:
    The Department recommends deleting the portion of the amendment 
made in Section 2 that provides buffer zone language. The park boundary 
adjustment in H.R. 4049 includes only the lighthouse itself, not any of 
the waters of the Bay. The NPS has no authority to manage or permit 
activities outside of park boundaries. Fishing, boating, snowmobiling, 
and all other existing uses of the Bay's waters are not affected by 
this bill. The buffer zone language is unnecessary.
    The Department recommends that the portion of Section 2 of the bill 
directing the Federal agencies to cooperate in their operations be 
amended to clarify congressional intent. The bill does not otherwise 
alter the statutory standards or other mandates of the three agencies, 
nor does it affect the ongoing need for them to work cooperatively to 
carry out those mandates in the area, as they currently do with respect 
to other lighthouses within the boundary. We would be glad to work with 
the subcommittee to amend the existing language to ensure that the bill 
does not affect the missions of these agencies.
    Finally, the Department recommends deleting Section 3, which 
directs that no additional appropriations are to be authorized for the 
Lakeshore as a result of this boundary adjustment. The enabling 
legislation of Apostle Islands National Lakeshore makes no reference to 
the authorization of appropriations. In the absence of such authorizing 
language, adding language that specifically restricts the increase of 
appropriations for this particular boundary adjustment could be 
construed as prohibiting any future increase in appropriations for the 
park even if that increase was unrelated to the addition of the Ashland 
Light.
    Mr. Chairman, this concludes my testimony on H.R. 4049. I am 
prepared to answer any questions from members of the committee.
                               H.R. 4527
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
H.R. 4527, a bill that would remove a use restriction on land formerly 
a part of Acadia National Park that was transferred to the Town of 
Tremont, Maine.
    The Department could support H.R. 4527 if amended.
    H.R. 4527 declares that specified lands in Acadia National Park in 
Maine, which were conveyed by the National Park Service to the town of 
Tremont, Maine, for school purposes, shall no longer be required to be 
used exclusively and perpetually for such purposes, and upon their 
discontinuance of such a use, shall no longer be required to revert to 
the United States.
    The town of Tremont has contacted Acadia National Park concerning 
land currently used for the town's school. This parcel of land was 
owned by the National Park Service (NPS) and is known as NPS Tract 06-
126. In 1950, Public Law 81-629 permitted the NPS to convey the land to 
the town to locate the new school. The conveyance was completed in 
1951, with a reverter clause included in the deed specifying that the 
land would revert back to the United States of America if no longer 
used exclusively for school purposes.
    The town is now consolidating schools with a neighboring town and 
thus this property will no longer be used exclusively for school 
purposes. The town of Tremont would like to retain ownership and 
continue to use the developed property for community purposes. This 
legislation would allow it to do so.
    Acadia National Park has no intended uses for the property, and the 
NPS is agreeable to allowing the town to use the property for broader 
public purposes, so long as the use of the property will not degrade or 
adversely impact park resources and values. However, H.R. 4527 would 
eliminate entirely the requirement that the property revert to the 
Federal Government if it is not used for school purposes. Because the 
original 1951 conveyance was made without consideration, the bill as 
introduced would effectively convey Federal property to the town free 
of cost and with no requirement that it be used for a specific purpose.
    For this reason, the Department could support this bill only if it 
is amended to require that the property revert to the Federal 
Government if does not remain in public ownership for recreational, 
educational or similar public purposes, or if it degrades or adversely 
impacts park resources and values as determined by the Secretary of the 
Interior. The Department recommends an amendment to H.R. 4527 for this 
purpose and we would be glad to work with the committee on appropriate 
language.
    Mr. Chairman, this concludes my testimony on H.R. 4527. I would be 
happy to answer any questions that you or other members of the 
subcommittee may have regarding the proposed action.

                                 ______
                                 

    Mr. Smith. Any questions from Members? Mr. Grijalva?
    Mr. Grijalva. Thank you. Mr. Knox, the controversy around 
the draft general management plan stems from the perception 
that the Park Service is trying to limit or alter access for 
motorized watercraft. Is that the case?
    Mr. Knox. The general management plan looks at a range of 
alternatives that would change access by motorized watercraft. 
Yes, that is correct.
    Mr. Grijalva. And one of the other questions that I had had 
to do with--are the changes made between the publishing of the 
draft plan and the publication of the final plan?
    Mr. Knox. Yes. We are estimating that a final plan will be 
issued some time in early 2015. And because of the significant 
comment by Congressman Smith and local citizens and many others 
on this plan, we are taking some time to think through, 
listening carefully to those comments, continue to engage with 
stakeholders and make the hard decisions about what is the 
right balance between access and enjoyment and preservation of 
the wonderful place that is Ozark Scenic National Riverways.
    So, there will be--we anticipate changes between the 
preferred alternative and the final plan.
    Mr. Grijalva. If I may, Mr. Chairman, just, if there is no 
objection, enter into the record communication from the 
Conservation Federation of Missouri in opposition to both 
pieces of legislation; another communication from Friends of 
the Ozark Riverway, 24 organizations, the same, in opposition 
to the legislations before us, both of them. With that, I yield 
back, Mr. Chairman.
    Mr. Smith. Without objection. Thank you.
    Further questions?
    [No response.]
    Mr. Smith. I have questions. First off, Mr. Ross, did you 
attend the different--I mean Ms. Roberts. Did you attend the 
comment period during the general management plan hearings?
    Ms. Roberts. Yes, I attended both during different times. 
We have actually had two different comment periods. And I 
attended several meetings on the first comment period and 
submitted comments, attended three of the four meetings on the 
second comment period, and sent in my comments according to 
what was told to me by the National Park Service to do.
    In the first comment period, we were allowed to choose no 
comment--or no action. And that was one of the plans. There 
were four plans that were presented to the public. And there 
were well over 5,000, possibly 6,000 comments that went in to 
the National Park Service requesting no action be taken. That 
was a comment period that happened a couple of years ago.
    Then, this past December and January, early February, 
during the second comment period, whenever the public attended 
the meetings, people were told--even though the no action was 
listed as an option, people were told, ``Don't choose no 
action. We are not going to listen to you.'' And this was told 
to us by Park Service personnel.
    Mr. Smith. And, with that statement, since you attended 
these meetings, and no action wasn't even an option, what was 
the sentiment of the folks that were at these hearings? I mean 
do they want the general management to stay the same that it 
has for the last 30 years, or did they want any of those other 
alternatives?
    Ms. Roberts. Most of the people that were in attendance at 
the meetings would prefer that everything stay the way it is 
now.
    Mr. Smith. So you would say the majority.
    Ms. Roberts. The majority.
    Mr. Smith. OK.
    Ms. Roberts. Absolutely the majority.
    Mr. Smith. Thank you.
    Ms. Roberts. And I believe those comment cards from the 
first comment period prove overwhelmingly that that is what the 
people want.
    Now, I do want to make note that at these meetings people 
of the Ozarks are simple people. We are very simple. And you 
have elderly people, some people that lived on those rivers 50 
years ago when it was taken from them, that showed up. And they 
were told, right off the bat, ``Don't even bother putting down 
no action. Take Plan B, which is the least of the three other 
alternatives. Take that, and pick it apart. Take the policy in 
there that you don't like.'' Well, have you read that? It is a 
lot of pages. The people in the area just know what they want, 
and they want everything to stay the same that it was.
    Mr. Smith. OK. Representative Ross, you attended a lot of 
these hearings, as well.
    Mr. Ross. I did.
    Mr. Smith. Do you believe that we need statutory 
protections for public access in the Ozark National Scenic 
Riverways, or has the Park Service done a good job using its 
discretion to promote the balance of preservation, preserving 
our resources and allowing recreational activity?
    Mr. Ross. Well, I think, clearly, that is one of the things 
that is needed in this case. I mean in recent years the Park 
Service has clearly shown the direction they are heading, and 
that is to curtail access, whether that is to place boulders 
across the road, put up gates, say that you can't use a boat 
within--a motorized boat within this certain section of the 
river. As I mention in my testimony, closing off two-thirds of 
the horse trails that are in the area.
    And, this affects a number of businesses, regardless of 
whether they are directly in that area or not. There are a 
number of people that come through that buy gas, that eat at 
the restaurants, that use other services. And without some sort 
of a protection, this is going to be absolutely detrimental to 
our economy.
    Mr. Smith. Thank you. Mr. Knox, in your written testimony 
you raise concerns about changing the management of the ONSR as 
it relates to the NPS Organic Act. Can you tell me what year 
did the Organic Act pass?
    Mr. Knox. 1916.
    Mr. Smith. 1916? Well, Mr. Knox, if there is value in 
continuing to manage the ONSR under the Organic Act from 1916, 
isn't there also value in keeping the current general 
management plan since 1984, which has worked for over 30 years?
    Mr. Knox. The National Park Service Organic Act that was 
passed in 1916--and we will be celebrating the centennial of 
the National Park System in 2 years--is----
    Mr. Smith. And that has worked for 98 years.
    Mr. Knox. It has worked well for 98 years. It applies to 
all 401 units of the National Park System, and it is really 
what unifies us as a National Park System, the parks and 
recreation areas within the system.
    Mr. Smith. All right. Looks like time has expired. Let's do 
another round of questions. Are there other Members that would 
like to ask some questions?
    [No response.]
    Mr. Smith. OK. Well, then, I am going to ask some 
questions. Thank you.
    Mr. Knox, what is the Park Service doing with the comments 
that were created earlier in 2008 under the general management 
provisions?
    Mr. Knox. I believe you are talking about the comments on 
the alternatives document that came out originally?
    Mr. Smith. During what Ms. Roberts spoke of, of the 
comments that were taken in the late 2000s, there were 
thousands of comments in regards to the no-action plan. What 
are you all doing with those comments?
    Mr. Knox. Those--if I understand the question, those 
comments were used to develop the draft GMP. So we issued an 
alternatives document to look at, you know, potential 
alternatives for the draft GMP, solicited comments on that. 
Those were used to design the range of alternatives in the 
general management plan.
    Mr. Smith. And were those comments ever public?
    Mr. Knox. As far as I know, there are public comments, yes.
    Mr. Smith. And, from my understanding, those comments 
showed overwhelmingly for a no-action alternative. But in all 
of the alternatives that you listed in the current general 
management plan, no action was not even an option. Is that 
correct?
    Mr. Knox. No. No action is one of the alternatives in the 
current draft general management plan. It is required to be 
analyzed under NEPA.
    Mr. Smith. From my understanding, option A, B, and C. But 
from the hearing, you didn't--couldn't even really do no 
action, the public comments. So it is your understanding that 
no action was one of the issues that people could have as an 
alternative during the current general management plan comment 
period?
    Mr. Knox. It is one of the alternatives being considered in 
the draft general management plan, yes.
    Mr. Smith. All right. Ms. Roberts, is that your impression 
from that?
    Ms. Roberts. Absolutely not. We were told at the meetings 
that we could not choose--if we chose to put no action, that 
our comments would be thrown out.
    Mr. Smith. Representative Ross, is that your response? Is 
that your understanding?
    Mr. Ross. In looking back through this whole process--and 
this has been an ongoing process since 2003, 2004. And I am not 
sure if those comments are still available. At one time they 
were. And the statement that the current draft general 
management plan, the different alternatives that are now 
listed, are a derivative of the original comments, I find 
hilarious. Because I read through those original comments, a 
lot of those comments, and in no way--you know, it was a very 
small minority, would reflect anything close to what is now 
contained within the draft plan alternative A, B, or C. The 
overwhelming majority of those early comments substantively 
said no--no-action alternative.
    Mr. Smith. So, Representative Ross, in the current general 
management plan draft that has just went through public 
comment, was there a no-action option? There was plan A, plan 
B, plan C, but was there a no-action alternative?
    Mr. Ross. Well, I think there was an option, but then you 
have the Park Service itself coming out and saying that this 
is--alternative B is what they prefer, this is basically what 
they are going to choose, regardless of the input that they 
receive. What sort of a message is that sending to the public, 
when ``You don't have the choice to choose this alternative, 
because we are not going to hear your concerns'' ?
    Mr. Smith. From the concurrent resolutions that you all 
passed out of the State House and State Senate, in the 
resolution it said that in 1959 the State of Missouri 
encouraged Congress to pass the Ozark National Scenic 
Riverways, which they did----
    Mr. Ross. Right.
    Mr. Smith [continuing]. In 1964. It said that the reason 
for doing so, and why the State would relinquish their State 
parks, is because they wanted to make sure that there was a 
true preservation of the natural resources and allowing the 
abundant recreational resource for generations to come. Is that 
true?
    Mr. Ross. Yes. Yes, it is. And, one of the things that I 
strongly disagree with Mr. Knox in his testimony in talking 
about the lack of management of our State parks or our 
conservation land for all Americans, rather than just a strict 
focus on managing those lands for Missourians, contradictory to 
his testimony, the restrictions that the Park Service is 
attempting to implement here are the restrictions that would 
keep away more individuals from being able to come and enjoy 
and access the treasures that we have.
    Mr. Smith. Thank you, Representative Ross. Further 
questions?
    Mr. Grijalva. If I may, Mr. Chairman, just a clarification.
    Mr. Smith. Proceed.
    Mr. Grijalva. Excuse me, Mr. Chairman, just a 
clarification.
    Ms. Roberts?
    Ms. Roberts. Yes, sir.
    Mr. Grijalva. You said that the no option was the preferred 
by 5,000--the vast majority of the people that attended these 
hearings.
    Ms. Roberts. Correct.
    Mr. Grijalva. You also said that the Forest Service, during 
those, was saying to don't count those, they are not going to 
count because we want preferred option B.
    Ms. Roberts. Correct. Let me----
    Mr. Grijalva. So----
    Ms. Roberts. Let me clarify.
    Mr. Grijalva. OK.
    Ms. Roberts. There were two comment periods. During the 
first comment period, everybody did basically as they were--as 
they felt. Many people sent in comment cards, and we had 
postcards made up so that it was easy for the local people to 
send in what plan they preferred. And there were well over 
5,000--could have been 6,000--no-action comments. And we know 
of those.
    During the second comment period, whenever you attended the 
meetings, there were Park rangers set up at each station. And 
at each station there were different alternatives. There was a 
person, a Park Service personnel sitting there with a computer. 
So if you didn't have a way to be able to send in your 
comments, you could sit down with a Park personnel, and they 
would fill out that comment for you. However, everyone was 
encouraged not to choose no action. And we were told by the 
Park Service personnel to take plan B, because that was the 
least invasive, and to tear it apart.
    Mr. Grijalva. OK.
    Ms. Roberts. To take the policy and to put in how we would 
like to see it. And, in my opinion, that is a lot to ask of the 
people. It was very simple for the people to say that they 
wanted no action. And they were told during the second round 
that no action was not an option.
    Mr. Grijalva. Thank you very much for the clarification.
    Mr. Knox, on that same point, personnel from the Forest 
Service, Park Service, indicating to people that they had to 
take an option from the range of choices that they had, any 
reaction to the point that Ms. Roberts just made?
    Mr. Knox. I am not aware of what was said at those public 
meetings by Park Service personnel, and so whether that is 
accurate, that people were told not to choose a no option or a 
no-action alternative. So I really can't comment on that 
specifically.
    What I can tell you is that we do have a no-action 
alternative that is being evaluated within the draft general 
management plan, and there is a preferred alternative. And the 
reason to have a preferred alternative is to let everyone know 
that comes to the meetings and that cares about the plan----
    Mr. Grijalva. No, I understand that part. I understand that 
part.
    Mr. Knox. No, but what we are thinking about, so they can 
comment on----
    Mr. Grijalva. But the no-action indication by the public 
that is--because I have experienced that in public lands in my 
district, as well--is an indicator that the preferred option, 
to say the least, needs some work. And so I appreciate the 
clarification and your response, and I yield back.
    Mr. Smith. Thank you. Mr. Knox, is it appropriate for the 
Park Service to advocate that you should not use a no-action 
alternative?
    Mr. Knox. No. We are open to considering all alternatives 
that are proposed in the plan. That is the reason to propose a 
range of alternatives. We want to hear thoughts on each of 
those, those different ideas, for the future of the riverways.
    Mr. Smith. So, what if that did occur, that the National 
Park Service was saying, ``Don't advocate a no-action 
alternative,'' like what Ms. Roberts just suggested?
    Mr. Knox. My best guess is that the National Park Service 
people at those meetings were trying to help the public present 
ideas. I think we have heard loud and clear that there are many 
people that favor the no-action alternative, including 
yourself, Congressman. And so we are listening to that comment.
    Mr. Smith. That was not my question. My question is--what 
is the result, if the National Park Service is doing that? I 
mean are there any consequences to that, or do you think it is 
appropriate, or----
    Mr. Knox. Well, we certainly want to hear the thoughts of 
all citizens. And it is not appropriate to try and direct those 
thoughts. We want to hear those thoughts from everyone's mouths 
directly. And there are concerns and hopes and fears for the 
future of the riverways.
    Mr. Smith. I would agree. And I do want to note once 
again--I have noted this before when you testified--the 
Missouri Department of Conservation in fact submitted comments 
in regards to the general management plan. And they are the 
agency that has the responsibility for preserving our natural 
resources. And they recommended a no-action alternative, and 
enforced the current general management plan that has worked 
for 30 years. And I hope, once again, you will pass this on to 
the National Park Service, and that they will actually listen 
to the will of the people of Missouri and the people of this 
country. Thank you.
    Further questions?
    [No response.]
    Mr. Smith. Seeing none, thank you, witnesses. We will go to 
the next panel.
    We have Representative Emanuel Cleaver from Missouri, and 
we also have Representative Edwin Fountain, the Commissioner of 
World War I Centennial Commission, and Mr. Victor Knox, the 
Associate Director of Park Planning Facilities and Lands.
    Representative Cleaver, great to have you, you can proceed.

  STATEMENT OF THE HON. EMANUEL CLEAVER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MISSOURI

    Mr. Cleaver. Thank you, Mr. Chairman. Appreciate the 
opportunity to be here with you and Ranking Member Grijalva. I 
especially want to thank during my short talk here Judge Ted 
Poe of Houston; Eleanor Holmes Norton, who is the delegate here 
from the District of Columbia; the National Park Service; and 
the World War I Centennial Commission; and the entire Missouri 
Delegation, for its work on this issue. Commemorating the 
centennial of World War I has been, in many ways, a labor of 
love for me since I entered Congress almost 10 years ago. The 
World War I Memorial Act is the product of both sides of the 
aisle working together over the course of many years to do what 
is right to honor the memory of veterans who served so long 
ago.
    As you may know, this summer marks the 100th anniversary of 
the start of World War I. The United States formally joined the 
war in April of 1917. During that time, more than 4.7 million 
Americans served. And, of those brave men and women, more than 
116,000 soldiers made the ultimate sacrifice.
    During the war, Union Station in Kansas City, Missouri, 
became a focal point, where train traffic peaked during World 
War I with 79,368 trains passing through Kansas City's Union 
Station, including 271 trains in 1 day. Perhaps it was the 
witnessing of Americans traveling the East Coast to be deployed 
to the war effort that prompted the citizens of the Greater 
Kansas City Metropolitan Area to build a memorial. And on that 
memorial, these are the words that are encarved: ``Lest the 
ages forget.''
    The site dedication for the Liberty Memorial became a world 
event, as the five allied military leaders of World War I 
joined the Vice President of the United States, Calvin 
Coolidge, at the dedication in 1921. This is the only time in 
history that the allied leaders publicly joined together and 
honored those who had served and died in World War I. It is 
important to note that no other World War I memorial site was 
attended by such an impressive ensemble of dignitaries. And we 
have a picture of the 100,000 people--just think about this--
100,000 people in 1921 gathering in one spot to listen to 
people without the benefit of the kind of microphones we have 
today. No one knew at the time that future President of the 
United States, Harry Truman, was in attendance.
    At the official Liberty Memorial dedication in 1926, 
President Calvin Coolidge stated in his speech, ``It has not 
been raised to commemorate war and victory, but, rather, the 
results of war and victory, which are embodied in peace and 
liberty.'' President Coolidge further stated that, ``I may 
place the official sanction of the national government upon the 
most elaborate and impressive memorials that adorn our 
country.''
    So, Mr. Chairman, I appreciate the opportunity to come 
here. I think that we have worked across the aisles, we have 
worked with everybody who is interested in this issue. And, 
although we don't have a single person who fought in World War 
I who can come here today to be involved, I think it is our 
responsibility, as the benefiting generation, to do something 
in memory of what they did for us. I yield back the balance of 
my time.
    Mr. Smith. Thank you, Representative.
    Mr. Fountain.

   STATEMENT OF EDWIN L. FOUNTAIN, COMMISSIONER, WORLD WAR I 
                     CENTENNIAL COMMISSION

    Mr. Fountain. Thank you, Mr. Chairman, Ranking Member 
Grijalva. I am a member of the U.S. World War I Centennial 
Commission, which was chartered by this Congress last year to 
ensure a suitable observance in this country of the centennial 
of the war, and also to make recommendations to the Congress 
related to the centennial. I am here to make one of those 
recommendations, which is that Congress pass H.R. 4489.
    This bill relates directly to one of the primary projects 
that the Commission has undertaken, which is not only to 
designate the Liberty Tower in Kansas City as a national World 
War I memorial, but also to designate and improve and enhance 
Pershing Park, here on Pennsylvania Avenue in Washington, also 
as a national World War I memorial.
    Thirty-five years ago, this country didn't think in terms 
of national war memorials. Most towns around the country had 
local memorials to Civil War or World War I and World War II 
veterans. To their credit, Kansas City did erect a memorial 
that was to all the Nation's veterans, not just the local 
veterans, and we commend them for it.
    But then the Vietnam Veterans memorial came along, then 
Korea, then World War II. We now have in the Nation's Capital 
national memorials to the three other great wars of the 20th 
century, but not to World War I. This is a grave omission.
    The story of the 20th century and even the 21st can't be 
told without telling the history of World War I and America's 
involvement in that war. World War I introduced America as a 
world power, and began what became called the American century. 
It was the first time that such a power went to war not for 
conquest, or even defense, but for the ideals of democracy and 
self-determination that have guided American foreign policy for 
the last 100 years.
    Too few Americans know that more Americans died in 6 months 
of fighting in World War I than died in Korea or in Vietnam all 
together, and that during those 6 months the combat fatality 
rate in World War I was almost twice that of World War II. The 
war led directly to the second world war, and its consequences 
are still felt today in ongoing conflicts in places such as the 
former Yugoslavia, Israel, Palestine, and Iraq.
    More importantly--it is important to understand not just 
the consequences of the war, but the causes, because without 
understanding how an assassin's bullet in Sarajevo in July 1914 
sparked a war that all but destroyed Europe, we cannot 
understand how regional conflicts today in Syria, Ukraine, or 
elsewhere might spark another war, much less prevent that from 
happening.
    In short, it was a horrific, world-changing war. The 
Centennial Commission has undertaken to educate the American 
people about that war, and to commemorate the service and 
sacrifice of our armed forces in it. A national memorial is 
essential to that mission.
    We believe that a memorial in Washington would be most 
appropriately located on the Mall, but we recognize that the 
Commemorate Works Act prohibits any new memorials on the Mall, 
and we have chosen not to fight that fight. Instead, we have 
chosen to pursue a new memorial design at Pershing Park in 
front of the Willard Hotel, one block from the Capitol.
    Why Pershing Park? First, because there is already a World 
War I commemorative element there, in the form of a statue to 
General John Pershing, who commanded the American expeditionary 
forces of World War I. Second, because, after the Mall, 
Pennsylvania Avenue is the most significant and symbolically 
important concourse in the Nation's Capital. Pershing Park has 
the pride of place of anchoring the end of that avenue, 
opposite the Capitol, closest to the White House. If our World 
War I veterans are not to be honored on the Mall, then Pershing 
Park is the next most suitable location.
    For those reasons, the Commission supports passage of H.R. 
4489. I would like to urge the committee that time is of the 
essence here. Ideally, there would be a Presidential signing 
ceremony of this bill on July 28 of this year, a symbolically 
important date, as it marks the centennial of the start of the 
war.
    We appreciate that this bill has been attached as an 
amendment to the House version of the Defense appropriations 
bill. We hope that might speed its passage, but we are 
concerned that it will get bogged down on the Senate side and 
then later in conference, and we would urge the committee to 
move the bill forward independently. A companion bill has 
already been introduced in the Senate, and we would very much 
like to see this passed and signed by the end of July.
    There is the more practical reason that new memorials take 
time. The Commission would like to dedicate this memorial in 
Washington on Armistice Day 2018. That is a little more than 4 
years from now. That is a very short period of time to design a 
memorial, to raise funds, to go through the review and 
permitting process, and what not. Every month we lose now 
hampers our cause.
    I would like to emphasize that this bill imposes no cost on 
the Federal Government. It does not expand Park Service 
jurisdiction; Park Service already owns and maintains Pershing 
Park in Washington. This will be undertaken by the Commission 
with private funds. I would be happy to answer any questions 
that the committee might have.
    [The prepared statement of Mr. Fountain follows:]
Prepared Statement of Edwin L. Fountain, Member, World War I Centennial 
                        Commission on H.R. 4489
    My name is Edwin Fountain. I am a member of the World War I 
Centennial Commission, which was chartered by Congress in 2013. 
Commission members are appointed by the President, the majority and 
minority leaders of the House and Senate, the American Legion, the 
Veterans of Foreign Wars, and the World War I Museum in Kansas City.
    The WWI Centennial Commission's statutory mission is, among other 
things, to ``plan, develop, and execute programs, projects, and 
activities to commemorate the centennial of World War I,'' and to 
``develop recommendations for Congress and the President for 
commemorating the centennial of World War I.'' Pub. L. 112-272, 
Sec. 5(a).
    In fulfillment of its statutory duty to make recommendations to 
Congress, the Commission is pleased to recommend that Congress pass 
H.R. 4489, the World War I Memorial Act of 2014. H.R. 4489 would in 
part authorize the Commission to proceed with one of its primary 
projects to commemorate the war, which is the establishment of a 
national World War I memorial at Pershing Park in the Nation's capital.
    Throughout our country's history, towns and cities have erected 
their own local war memorials, be they to local veterans of the Civil 
War, or of World War I, or of all the Nation's wars collectively. In 
Washington, there are of course numerous memorials to generals and 
statesmen of the Revolution and the Civil War. But until the Vietnam 
Veterans Memorial was dedicated 30 years ago, there were no national 
war memorials.
    Today we have on the Mall national memorials to three of the four 
great wars of the 20th century. There is, however, no national memorial 
to World War I. This is a significant omission, given the profound 
nature of the causes, courses, and consequences of ``the Great War.''
    Understanding how a conflict between Austria and Serbia in July 
1914 caused a war that all but destroyed Europe can help us understand 
today how a regional conflict in Syria, Ukraine or elsewhere might 
spark another world war--and thereby prevent it from doing so.
    Although the United States entered the war late, the appearance of 
American soldiers and Marines on the Western Front tipped the balance 
of the war, and American troops demonstrated the courage, sacrifice, 
and feats of arms that have been the hallmark of our armed forces for 
over two centuries. Over 4.7 million Americans served in uniform, and 
116,516 gave their lives--more than in Korea and Vietnam combined. The 
combat fatality rate during World War I was almost twice that of World 
War II. It was a horrific, world-changing war, in which our Nation 
played a decisive role.
    World War I profoundly transformed America and the world, and 
America's role in the world. It was the first great conflict of what 
has come to be known as ``the American century.'' It led directly to 
the Second World War, and its consequences are still felt today in 
ongoing conflicts in the former Yugoslavia, Israel and Palestine, and 
Iraq.
    Few Americans today know this history, nor do they appreciate the 
impact World War I has on the world we live in today. Without a 
national memorial to World War I, we fail to properly commemorate the 
service of our armed forces, and we lose an opportunity to educate the 
American people about the war. The centennial of the war, which is now 
upon us, provides a timely and essential opportunity to fill that void.
    H.R. 4489 would do so by dedicating two national memorials to World 
War I. Soon after the war the good citizens of Kansas City took it upon 
themselves to erect a majestic memorial, not just to their local 
residents who served and died in the war, but to all the Nation's 
soldiers and sailors. H.R. 4489 would properly elevate the Liberty 
Tower, co-located with the World War I Museum in Kansas City, to 
national status.
    H.R. 4489 would also establish a national memorial in the Nation's 
capital. It would designate Pershing Park, at the far end of 
Pennsylvania Avenue from the Capitol, as a national World War I 
memorial, and would authorize the Commission to re-develop the site 
into a true national memorial, worthy of that status.
    The bill is consistent with the recommendation made by the National 
Capital Memorial Advisory Commission to Congress last October. That 
commission recommended that ``efforts to promote commemoration of World 
War I . . . should be undertaken through enhancements and improvements 
at the existing World War I Memorial in Pershing Park and better 
interpretation of that site so that people's understanding of the 
purpose of that memorial is increased.'' (Letter of Oct. 28, 2013, from 
Peter May, Chairman, National Capital Memorial Advisory Commission, to 
Hon. Doc Hastings, Chairman, House Committee on Natural Resources.)
    By establishing these memorials, the bill would thereby honor and 
commemorate the veterans of World War I in a way that is commensurate 
with the honor we have bestowed on the veterans of other major wars, 
while helping future generations of Americans to know the complete 
history of American's 20th-century struggle against aggression and 
totalitarianism.
    While it may be unconventional to have two national memorials, 
there is no reason not to do so, and there is every reason to 
commemorate a profound national event such as World War I more widely, 
rather than less.
    We also point out that H.R. 4489 does not expand the jurisdiction 
of the National Park Service, nor should it add to the Park Service's 
budget. The existing Pershing Park already belongs to the Park Service 
which has responsibility for its maintenance. Improvements to the site 
would be paid for by private funds raised by the Commission, which 
would include a separate fund for ongoing costs of maintenance.
    Congress would be minimizing the sacrifice of almost five million 
Americans who served in World War I, including 116,000 dead, if it did 
not honor them in the Nation's capital, as well as in Kansas City, in 
the same manner as the veterans of the wars that followed.
    Finally, we ask that Congress move promptly to pass this bill. July 
28, 2014 will mark the 100th anniversary of the start of the war. The 
Commission hopes that the President would sign this bill on that 
symbolically important date. More to the point, designing and 
constructing memorials takes time. In order to dedicate a new memorial 
by Veterans Day in November 2018, which will mark the centennial of the 
armistice that ended the war, the process needs to begin now. We as a 
Nation cannot delay any longer.

                                 ______
                                 

    Mr. Smith. Thank you. Representative Cleaver, you are free 
to go, or you can join us on the dais, whichever you would 
like.
    We still have Mr. Knox to testify on this bill, H.R. 4489.
    Mr. Knox. Mr. Chairman, thank you for the opportunity to 
present the Department of the Interior's view on H.R. 4489. I 
would like to submit our full statement for the record, and 
summarize our views quickly.
    H.R. 4489 would designate memorials to the service of 
members of the United States armed forces in World War I. This 
bill would redesignate Pershing Park in the District of 
Columbia as the National World War I Memorial, and allow for 
the enhancement of that park to further honor the service of 
members of the United States Army in World War I.
    The bill would also designate Liberty Memorial of Kansas 
City at America's National World War I Museum in Kansas City, 
Missouri, as the National World War I Museum and Memorial. The 
Department supports H.R. 4489, with amendments that are 
described in our written statement.
    Mr. Chairman, this concludes my testimony. I would be glad 
to answer any questions you might have. Thank you.
    Mr. Smith. No questions. Thank you.
    Next we will have Colonel William E. Weber, Chairman of the 
Korean War Veterans Memorial Foundation, to testify on H.R. 
318.

  STATEMENT OF WILLIAM E. WEBER, COLONEL, UNITED STATES ARMY, 
   RETIRED; CHAIRMAN, KOREAN WAR VETERANS MEMORIAL FOUNDATION

    Colonel Weber. Thank you, Mr. Chairman. I appreciate the 
opportunity to extend my previously submitted written 
testimony.
    The light blue blazers that you see in front of you 
represent the Korean War Veterans Association, of which there 
are 2.1 million left who served in Korea. And many of them, 
like myself, are also veterans of World War II and Vietnam. 
Therefore, we represent a unique block of American veterans.
    For us, though, the Korean War becomes a key point, because 
it is the first time in the history of our Nation that a war 
was fought that wasn't declared, and that the United States led 
a coalition of nations against aggression. That has become the 
pattern for U.S. participation in world conflicts since that 
time. Therefore, it occupies a very unique place in history.
    I would like to call your attention to the fact that if 
Public Law 99-572 had been complied with, as was written, I 
wouldn't be here today. The law stated specifically that the 
Memorial was intended to honor those members of the armed 
forces who served in Korea, particularly those who were killed 
in action, missing in action, or prisoners of war.
    During the negotiations for designing the Memorial, I 
served as a member of the group appointed by President Reagan, 
the Korean War Veterans Memorial Advisory Board, in negotiating 
with the various elements and agencies of the Federal 
Government that have control over what goes on the Mall. At 
that point in time, there was a great deal of controversy 
because of the Vietnam Wall. The veterans of Vietnam felt that 
their wall appropriately honored those who sacrificed their 
lives, but didn't honor those who served. As a result, the wall 
was changed, the Memorial was changed. In our case for the 
Korean memorial, we were unable to successfully include a means 
of identifying our killed in action because of the 
controversy--and, more specifically, because of the reasoning 
that they just didn't want another wall on the Mall.
    Today, at this point in time, there are 36,574 American 
dead from Korea whose names do not appear anywhere. Yes, you 
may find them on a Web site, but it is not correct, it is 
incomplete. There are names of the missing in action in the 
Punchbowl in Hawaii. There are also 6,000 American dead buried 
in Hawaii. The rest of the American dead from the Korean War 
are buried all over the United States. There is not one central 
point where Americans and foreigners visiting our memorial can 
visualize the extent of the cost of the war in Korea: more 
specifically, on an average, every month for 36 months, 1,000 
dead and 3,000 wounded.
    H.R. 318 will correct that discrepancy. It will not cost 
the U.S. Government one cent. The money will be coming from 
private sources. The plan is unique. It envisions a glass wall 
of remembrance that would encircle the rear area of the Korean 
Memorial. It would give closure to the Memorial, but it would 
also continue to fully integrate it into the Mall, as a whole. 
It would not bar vision from the Memorial to the rest of the 
Mall.
    We feel that a precedent exists for this. There have been 
changes to memorials on the Mall. No law is immutable. It is in 
the power of Congress to correct an error. That is what H.R. 
318 will do, it will correct an error of failure to comply with 
the original law that authorized a memorial.
    Please don't let this bill die here. Let it go to the full 
Congress, and let the people, through their Congress, express 
their wishes. And you will find that their wishes are they want 
the names of the dead in Korea to be recorded for the people 
who visit the Mall and the Memorial to see and visualize the 
cost of that war. Thank you.
    [The prepared statement of Colonel Weber follows:]
Prepared Statement of William E. Weber, Colonel--USA (Ret.); Chairman, 
          Korean War Veterans Memorial Foundation on H.R. 318
    I am Colonel William E. Weber, USA-Ret, Chairman of the Korean War 
Veterans Memorial Foundation, Inc. (KWVMFnd). I am here today to 
testify in support of H.R. 318. The KWVMFnd is a 501(C)(3) non-profit, 
tax exempt organization with the dual mission of ensuring there will 
always be the means available to guarantee appropriate maintenance of 
the Memorial and to ensure that a benchmark of the 20th Century, that 
is the Korean War and America's role, become a permanent part of our 
national consciousness. Our Board, chartered in December 1995, is 
composed in the main by those who were members of the presidentially 
appointed Korean War Veterans Memorial Advisory Board whose mission is 
as covered below.
    H.R. 318, 113th Congress, was initiated by Congressman Ralph Hall, 
4-TX, at our behest in an attempt to complete the Memorial's message as 
was intended by P.L. 99-572 which authorized the Memorial. As of June 
5, 2014, it had 53 co-sponsors. Further, it has the full support of the 
Korean War Veterans Association, Inc., a Congressional Chartered 
Veterans Organization of Korean War Veterans. In addition, it has the 
support of many of the Fraternal Unit Veterans Associations that have 
Korean War battle honors and, as well, family members of those Killed 
in Action.
    P.L. 99-572, specifically details the original intent of the 
Congress. Such is not fulfilled by the current Korean War Veterans 
Memorial which, though a magnificent work of art, lacks both the 
specific and subliminal message the Congress specified. Controversy 
generated by reaction to the Vietnam Memorial and the resultant 
philosophy generated thereby, precluded the Korean War Veterans 
Memorial Advisory Board from prevailing in the inclusion of naming of 
the Killed in Action in final design negotiations.
    P.L. 99-572 called for the President to appoint a Korean War 
Veterans Memorial Advisory Board (KWVMAB), whose mission, in part, was 
to, ``(1)--recommending the site and selecting the design with the 
approval of the American Battle Monuments Commission--.'' In effect 
this required selecting a design that would also be accepted and 
approved by the then National Capital Memorial Commission (NCMC), the 
National Capital Planning Commission (NCPC) and the Fine Arts 
Commission (FAC).
    When the specific language of P.L. 99-572 was being negotiated in 
order to ensure the Korean War Veterans Memorial gave appropriate 
recognition to the sacrifices of American Soldiery the phrase, ``--to 
honor members of the United States Armed Forces who served in the 
Korean War, particularly those who were killed in action, are still 
missing in action, or were held as prisoners of war.'', became a 
dominant element of the law and a major element to the intended theme 
of the Memorial.
    As part of a nationwide competition the KWVMAB reviewed over 500 
submitted designs none of which fully met the requirements of P.L. 99-
572, and thus, selected one that held the promise of appropriate 
modification. In keeping with P.L. 99-572 and the overwhelming wishes 
of the Nation's Korean War Veterans population, the KWVMAB studied 
means to meet the specific requirements of P.L. 99-572 (as underlined 
in the above), and satisfy the above named Commissions which held veto 
rights over any design. The KWVMAB was not able to resolve the primary 
requirement of P.L. 99-572 due to a seeming atmosphere of not wanting 
another `Wall on the Mall'!
    As a result, though a truly magnificent Memorial which clearly 
honors those who served in the Korean War, it does not appropriately 
honor those who sacrificed so much in the war! The visitor leaves with 
a sense of wonder at the magnificent artistry of the Memorial--but 
absent any sense of the full message it was intended to convey.
    Recording the KIA names and WIA and POW by number for posterity on 
a glass Wall of Remembrance, will thereby personalize the numbers and 
focus on the enormity of their sacrifice (over 36,574 KIA (which 
includes the MIA)), 103,134 WIA and 7,245 POW. In terms of percentage 
of casualties, the Korean War was the bloodiest major foreign war in 
U.S. history--1 in 9 for Korea versus 1 in 12 in WWII and 1 in 17 in 
Vietnam.
    As well, Korean soldiers known as KATUSA (Korean Augmentation to 
United States Army), who served alongside their U.S. comrades in U.S. 
units, and gave their lives deserve recognition. Over 9000+ KATUSA were 
KIA. Their sacrifice would have otherwise been American Soldiery whom 
they replaced. Their names are lost to history but their numbers 
deserve recognition for their sacrifice would otherwise have been 
American lives.
    Given the state-of-the-art at the time the Memorial design was 
finalized a Wall of Remembrance may have been an architectural barrier 
isolating the Memorial from the Mall and may have been incorrectly 
interpreted as copying or detracting from the Vietnam Veterans 
Memorial. Such thinking was specious given the totality of the theme of 
the Korean War Veterans Memorial.
    Today an architectural `barrier' is not a bar to a Wall, for a 
Glass Wall allows the Memorial to be integral to the Mall while still 
giving it a sense of closure and giving full meaning to the intended 
purpose of the Memorial. Contrary to the present pattern of visitation, 
the Wall will induce visitors to encircle the entire Memorial as 
opposed to current visitation habits which encourage encircling only 
the line of sculptures.
    As to why the language in H.R. 318 is so specific, it is necessary 
to ensure that the Wall presents the absolute versus just the 
subliminal message that now exists and is too subtle to be understood. 
This is the purpose of any War Memorial! If visitation to a Memorial 
requires that visitors must have a brochure to gain full appreciation 
for the `why' and `what' of the Memorial, it fails in its purpose!
    The Korean Was remains ``The Forgotten War'' in the history of our 
Nation. Mindful that this war was a benchmark of the 20th Century and 
notwithstanding the magnificence of the Memorial, it is inappropriate 
that the extent of our Soldiery's sacrifice remains unknown and that 
their sacrifice gave birth to the catalyst that generated the downfall 
of the USSR's goal to dominate the world.
    Enactment of H.R. 318 will give remedy to the missing link in the 
Memorial and give honored and deserved recognition to a generation of 
American Soldiery who have been Forgotten! Just as surely as we fought 
WWII to save the world FOR DEMOCRACY so too, did we fight the Korean 
War to save the world FROM communism! The cost of that battle in terms 
of the sacrifice by American soldiery is a relative unknown in the 
American psyche and history!
    Bureaucratic objection to adding the Wall of Remembrance to the 
Memorial seems fixated on the premise that once a Memorial is dedicated 
it is exempt from any modification or addition. Clearly, precedents 
exist which negate that premise!
    The theme of the Korean War Veterans Memorial is that `FREEDOM IS 
NOT FREE'! Adding the Wall of Remembrance will finally give meaning to 
that theme! The Memorial is the only means remaining to ensure future 
generations of Americans and foreign visitors will understand that the 
Korean War is a Benchmark of the 20th Century--the human cost of which 
should not be unknown!

                                 ______
                                 

Rebuttal by Chairman (Col [Ret] William E. Weber), Korean War Veterans 
 Memorial Foundation, Inc., to testimony of Mr. Victor Knox, Associate 
 Director, Park Planning, Facilities and Lands, NPS, U.S. DOI on H.R. 
                                  318
    (Note: Rebuttal remarks in bold follow disputed DOI testimony.)
STATEMENT OF VICTOR KNOX, ASSOCIATE DIRECTOR, PARK PLANNING, FACILITIES 
  AND LANDS, NATIONAL PARK SERVICE, U.S. DEPARTMENT OF THE INTERIOR, 
CONCERNING H.R. 318, TO AUTHORIZE A WALL OF REMEMBRANCE AS PART OF THE 
KOREAN WAR VETERANS MEMORIAL AND TO ALLOW CERTAIN PRIVATE CONTRIBUTIONS 
                    TO FUND THAT WALL OF REMEMBRANCE
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on 
H.R. 318, to authorize a Wall of Remembrance as part of the Korean War 
Veterans Memorial and to allow certain private contributions to fund 
that Wall of Remembrance.
    The Department opposes H.R. 318 because it would significantly 
alter the character of the existing Korean War Veterans Memorial, and 
it is inconsistent with the Commemorative Works Act.

    (Enactment of H.R. 318 would enhance, not alter, the character of 
the existing Memorial. To the visitor, the Memorial presents a stirring 
work of art, but as such it is incomplete, ignores the intent of law 
and fails to adequately present the intended theme of the Memorial that 
`Freedom Is Not Free'!)

    H.R. 318 would amend Public Law 99-572 to expand upon the original 
purpose and design of the Korean War Veterans Memorial. The bill adds 
new subjects for commemoration and would require the display of certain 
information at the memorial about members of the U.S. Armed Forces who 
served in the Korean Conflict. Also, the bill would require the display 
of information at the memorial about members of the Korean armed forces 
and other Korean military personnel as well as the 20 other non-U.S. 
forces that were part of the United Nations Command who served in the 
Korean Conflict.

    (H.R. 318 does not amend P.L. 99-572! It would ensure that the 
basic requirement of P.L. 99-572, as directed by Congress, would be 
honored. The Congress stipulated that the Memorial was to honor those 
who served in Korea `particularly those killed in action, missing in 
action or prisoners of war'.)

    The Korean War Veterans Memorial commemorates the sacrifices of the 
5.8 million Americans who served in the U.S. armed services during the 
3-year period of the Korean War. The Memorial also recognizes the 
participation of the 22 nations who served as United Nations 
contributors. During the Korean War's relatively short duration from 
June 25, 1950, to July 27, 1953, 54,246 Americans died. Of these, 8,200 
are listed as missing in action, lost, or buried at sea. In addition, 
103,284 were wounded during the conflict.

    (The current means of recognizing U.N. contributors to the war 
fails to do so! Visitation patterns miss or ignore the U.N. Stones. The 
54,246 U.S. dead are worldwide deaths during 25 Jun 50-27 Jul 53. KIA 
in Korea is 36,547! In brief, war zone casualties averaged 1,000 KIA/
Month and 3,000 WIA per month!)

    The Memorial was designed, constructed and completed by its 
legislatively designated sponsor, the American Battle Monuments 
Commission (ABMC) and the Korean War Veterans Memorial Advisory Board, 
with public involvement throughout. It was dedicated on July 27, 1995.
    The Memorial's design, and each of its features down to its 
plantings, is symbolic. The Memorial is the culmination of years of 
work by the ABMC, and careful reviews, followed by revisions, and 
ultimately approvals reached by the National Park Service and other 
Federal entities including the National Capital Planning Commission and 
the U.S. Commission of Fine Arts. This painstaking and public process 
began with the competition design, and resulted in the completed 
Memorial we know today. The Memorial should not now be changed to 
include the engraving of names of Americans who served in that 
conflict. The opportunity to mimic the design characteristics present 
at the Vietnam Veterans Memorial was purposefully avoided when the 
design was requested during an open, international design competition.

    (It was the controversy of the Vietnam Memorial that inhibited [but 
did not prevent], considering names at the Korean War Memorial! The 
issue that the Vietnam Memorial honored only sacrifice and not service, 
the public controversy that resulted and the need to modify the 
Memorial by adding the three sculptures, produced an aura of wanting to 
avoid a similar controversy. Ergo, though there was popular and public 
demand for naming the fallen, it was impossible to overcome the 
resistance to such from NCPC and FAC, even though attempts were made. 
It is not factual to claim that no effort was made by the KWVMABrd to 
include naming the fallen!)

    The concept of engraving names at this Memorial was considered 
extensively when the Memorial was being designed. The ABMC and the 
Korean War Veterans Memorial Advisory Board with the Department's 
concurrence, advised against the incorporation of engraved names at the 
Memorial. Both agencies arrived at this decision upon reflection of 
years of experience with the Vietnam Veterans Memorial. Inscribing 
names is a lengthy and painstaking process even when it goes smoothly. 
But more important, as the Vietnam Veterans Memorial experience showed, 
there is not always agreement on those names to be included and those 
names that are not, and this has led to public contention and 
controversy. Choosing some names and omitting others causes a place of 
solace to become a source of hurt. The Vietnam Veterans Memorial honors 
all who served in that conflict, but only the names of the 58,272 
killed within the combat zone are engraved on the Wall. This meant that 
those killed by a fire on a Navy ship just outside the zone were not 
eligible to have their names engraved on the wall--a difficult message 
for their survivors to accept.

    (This argument simply affirms that the `exception proves the rule'! 
Killed in Action means just what it implies! It does not infer that an 
auto accident in Japan can be a direct result of enemy action! The 
point at which the KWVMABrd consented--not unanimously--to exclude a 
`name' wall was when it was presented with having to choose between 
such and the Mural Wall. Having both was aggressively opposed by FAC, 
due in part to the then controversy pertaining to the Vietnam War 
Memorial.)

    The ABMC and the Department felt the lessons learned at the Vietnam 
Veterans Memorial must not be ignored, that a different type of 
commemoration must occur at the Korean War Veterans Memorial, and that 
the Memorial should be representative in design and not include 
individual names. As a compromise to the Korean War veterans who wanted 
the names engraved, ABMC created the Korean War Honor Roll, which is an 
electronic registry of names. Visitors have access to this registry 
from the Internet or at the kiosks at the Memorial. A kiosk containing 
the Korean War Honor Roll stands at the west entrance of the Memorial. 
It is serviced by a National Park Service ranger, who provides 
assistance to visitors. The Honor Roll computer contains the names of 
all military personnel who lost their lives during the Korean War, 
including the individual's name, service, rank, service number, date of 
birth, hometown or county of entry into the service, cause of death, 
and date of death. If the information is furnished to ABMC, the Honor 
Roll includes the serviceman's unit, his awards, the circumstances 
surrounding his death or his going missing in action and a photograph. 
The ABMC also has the names of those missing engraved at the Courts of 
the Missing at the Honolulu Memorial.

    (The Korean War Honor Roll at the Kiosk is useless to all visitors 
except those who know a name of a KIA to be entered for a printout of 
the data on that individual. It is a given that the almost 4 million 
annual visitors to the Memorial neither have the time nor information 
to utilize the Kiosk. The only beneficiaries are family members! Ergo, 
visitation to the Memorial DOES NOT adequately portray the sacrifice 
inherent in FREEDOM IS NOT FREE!)

    The Korean War Veterans Memorial is located near the Lincoln 
Memorial on the National Mall in Washington, DC, in an area designated 
by Congress in the Commemorative Works Act as the Reserve--an area in 
which no new commemorative works shall be located. As Congress noted in 
the law creating the Reserve, ``. . . the great cross-axis of the Mall 
in the District of Columbia . . . is a substantially completed work of 
civic art; and . . . to preserve the integrity of the Mall, a reserve 
area should be designated . . . where the siting of new commemorative 
works is prohibited.'' The Korean War Veterans Memorial is a completed 
work of civic art in this special landscape of the Reserve. Moreover, 
we cannot ignore the practical effect of this legislation. Essentially, 
the Memorial wall would be a second Korean War Veterans Memorial, 
effectively thwarting the intent of the Commemorative Works Act to 
prohibit new memorials within the Reserve and would be an addition that 
would significantly alter the character of the existing Memorial. And 
this second memorial would have the effect of violating the 
Commemorative Works Act prohibition on interfering or encroaching on an 
existing memorial.

    (Another specious argument! Adding the Wall of Remembrance to the 
Korean War Veterans Memorial does not CREATE a new Memorial--it 
COMPLETES an existing Memorial! Further, to suggest that the Wall of 
Remembrance would alter the character of the existing Memorial ignores 
that the existing Memorial fails to convey the level of sacrifice which 
the Congress directed it so do! In truth adding the Wall of Remembrance 
will ensure that visitation to the Memorial will ensure that the 
subliminal message of both service and sacrifice is conveyed!)

    We feel very strongly that the Korean War Veterans Memorial, like 
the Vietnam Veterans Memorial, exists to recall the exemplary service 
and sacrifice of outstanding Americans, and this memorial has already 
been completed as it stands today. The Korean War Veterans Memorial is 
a place of honor and dignity and we should avoid any intrusions that 
will become a source of contention or controversy.

    (The Vietnam Veterans Memorial required an addition to complete the 
intended actual and subliminal message. As originally dedicated the 
Vietnam War Memorial acknowledged and honored ONLY those who 
SACRIFICED, not those who SERVED! Clearly, such ignored the totality of 
the impact of the war on our Nation and people! A similar, though 
converse situation pertains for the Korean War Veterans Memorial! It 
honors only those who SERVED, not those who SACRIFICED! Adding the Wall 
of Remembrance will finally complete the Korean War Veterans Memorial 
as was originally intended by P.L. 99-572! Adding the Wall will mute 
the controversy that still pertains amongst veterans of the Korean War 
and their families!)

    That concludes my prepared testimony on H.R. 318, and I would be 
happy to answer any questions you may have.

                                 ______
                                 

    Mr. Smith. Thank you, Colonel Weber.
    Mr. Knox, would you testify on H.R. 318 and H.R. 4489?
    Mr. Knox. I spoke to 4489 previously.
    Mr. Smith. 4049. Representative Duffy's bill and also 
Representative Hall's bill. We haven't received comments on 
those two.
    Mr. Knox. OK, Mr. Chairman, thank you for the opportunity 
to present the Department of the Interior's views on H.R. 318 
and H.R. 4049.
    H.R. 318 would authorize a Wall of Remembrance as part of 
the Korean War Veterans Memorial. The Department opposes H.R. 
318 because it would significantly alter the character of the 
existing Korean War Veterans Memorial in a manner inconsistent 
with the Commemorative Works Act.
    We feel very strongly that the Korean War Veterans 
Memorial, like the Vietnam Veterans Memorial, exist to recall 
the exemplary service and sacrifice of outstanding Americans. 
And this memorial has already been completed as it stands 
today. The Memorial's design and each of its features, down to 
its plantings, is symbolic. The Memorial is the culmination of 
years of work by the American Battlefield Monuments Commission 
and careful reviews followed by revisions and ultimate 
approvals by the National Park Service, National Capital 
Planning Commission, and the U.S. Commission of Fine Arts.
    This painstaking and public process began with competition 
design, and resulted in the completed memorial we know today. 
The Memorial should not now be changed to include engraving of 
names of Americans who served in that conflict.
    The opportunity to mimic the design characteristics present 
at the Vietnam Veterans Memorial was purposely avoided when the 
design was requested during an open international design 
competition. The concept of engraving names at this memorial 
was considered extensively when the Memorial was being 
designed. The American Battlefield Monuments Commission and the 
Korean War Veterans Memorial Advisory Board advised against the 
incorporation of engraved names at the Memorial. Both agencies 
arrived at this decision upon reflection of years of experience 
with the Vietnam Veterans Memorial.
    Inscribing names is a lengthy and painstaking process, even 
when it goes smoothly. But, more important, as the Vietnam 
Veterans Memorial experience showed, there is not always 
agreement on those names to be included and those names that 
are not. And this has led to public contention and controversy.
    The Vietnam Veterans Memorial honors all who served in that 
conflict, but only the names of 58,272 killed within the combat 
are engraved on the wall. This meant that those killed by a 
fire on a Navy ship just outside the zone were not eligible to 
have their names engraved on the wall: a difficult message for 
those survivors to accept.
    And I need to find 4049. H.R. 4049 would adjust the 
boundary of Apostle Islands National Lakeshore to include the 
lighthouse known as Ashland Harbor Breakwater Light.
    The Park manages six historic light stations and a total of 
eight standing light towers, more than any other unit of the 
National Park System. The Department supports the enactment of 
H.R. 4049, with amendments that are described in my written 
statement.
    Mr. Chairman, that concludes my testimony. I appreciate any 
questions you might have. Thank you.
    Mr. Smith. Mr. Knox, could you also testify on 4527, as 
well?
    Mr. Knox. Yes, Mr. Chairman. H.R. 4527 would remove use 
restriction on land formerly part of Acadia National Park that 
was transferred to the town of Tremont, Maine. The property was 
conveyed in 1951 for school purposes. If the property is no 
longer used for a school in the future, the town would like to 
retain ownership, and continue to use the property for other 
community purposes. The legislation would allow them to do so.
    The Department could support H.R. 4527, if it is amended to 
provide for a reversion of the property to the Federal 
Government if it is not used for a public recreation, 
education, or similar purposes, or if it degrades or adversely 
affects Park values. We would be happy to work with the 
committee on language for this amendment.
    Mr. Chairman, this concludes my testimony. I appreciate any 
questions you might have.
    Mr. Smith. Thank you. Colonel Weber, I just have a quick 
question. The Korean War Memorial is one of the most popular 
and beloved memorials that we have out there. Why do you think 
it is appropriate to open it back up to make these changes?
    Colonel Weber. I think, sir, that the people who visit the 
Korean War Veterans Memorial are inspired by a magnificent work 
of art. They are not moved by the theme ``Freedom is Not 
Free.'' They don't understand what that means when they visit 
that memorial. What did it cost to have freedom? And the answer 
is it cost 36,574 American lives. The blood that was shed is 
what makes the Korean War Veterans Memorial missing an 
important part. And the law itself demanded that part be 
included. It specifically stated acknowledgment of those killed 
in action.
    When a visitor comes to the Memorial, there is a subliminal 
message there. There definitely is. But it is so subtle that 
the average visitor doesn't get the intent of the message. They 
were supposed to encircle the Pool of Remembrance and reflect, 
while encircling the Pool of Remembrance, on what it cost for 
that memorial to exist. The problem is the visitation of the 
Memorial, less than 1 out of 200 visitors even encircle the 
pool, because there is nothing to attract them there. And if 
placid water is supposed to cause reflection, then why is the 
pool drained in the winter time? It obviously doesn't serve its 
function if it is drained.
    The problem that we have is the traffic pattern in the 
Memorial is such that when visitors enter the Memorial, they 
are immediately awed by the line of 19 sculptures, and 
justifiably so, because they are magnificent. They go up to the 
apex of that triangle, they read the homily at the foot of it, 
they see the panel that says, ``Freedom is Not Free,'' and they 
turn back and go down the other wall along the mural wall. And 
then they depart the Memorial.
    Now, the Park Service will tell you that there is a kiosk 
at which the names of the dead can be found. Not completely 
correct. The only names in the kiosk are those that the family 
has specifically asked be entered there. And it is demonstrably 
evident that the almost four million visitors to the Memorial 
every year could not possibly, one at a time, make use of the 
kiosk, even to look up a name, if you even knew a name to look 
up.
    The simple truth is, as magnificent as the Memorial is, it 
lacks the subliminal message being heard by the visitor. Adding 
the Wall of Remembrance will provide that message. It will not 
change the complex of the Memorial, it will enhance it. It will 
make the Memorial what it was supposed to be: something to 
honor not only those who served, but those who sacrificed. And 
that is what is lacking.
    And I say again I spent 9 years of my life on the board 
that helped design the Memorial, and it is not true that we 
didn't ask for a name wall. Ultimately, we had to choose 
between one of two walls: a mural wall or a name wall. We chose 
the mural wall because that became America's mantlepiece.
    The solution for the dead doesn't work. That message is not 
transmitted to the visitor. And it will not be transmitted to 
future generations. And the whole reason for freedom not being 
free will be lost.
    Mr. Smith. Thank you, Colonel.
    Colonel Weber. Thank you, sir.
    Mr. Smith. I have no further questions. I do want to thank 
each and every one for their testimony. Definitely appreciate 
the testimony of the folks that served in our armed forces. And 
we thank you very much.
    Members of the subcommittee may have additional questions 
for the witnesses, and we ask you to respond to these in 
writing. The hearing record will be open for 10 days to receive 
these responses. If there is no further business, without 
objection, the subcommittee stands adjourned.
    [Whereupon, at 12:02 p.m., the subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

  Prepared Statement of Hon. Michael K. Simpson, a Representative in 
             Congress from the State of Idaho on H.R. 4283
    First, I'd like to thank Chairman Bishop and Ranking Member 
Grijalva for allowing me to testify today in support of H.R. 4283. 
Also, thank you to members of the subcommittee for your attendance.
    H.R. 4283 is intended to authorize the use of maintenance equipment 
and the replacement of some outdated and potentially hazardous energy 
facilities at the River of No Return Lodge in Smith Gulch on the Salmon 
River in Idaho. As it currently sits, the River of No Return Lodge is a 
small outfitter on the Salmon River that provides a unique recreational 
experience operating under a Forest Service permit. Unfortunately, the 
Forest Service does not believe it has clear authorization to permit 
the use of necessary maintenance or replacement of facilities. This 
proposed bill is an effort to clarify Congress' intent in legislation 
passed in 2004 to retain the basic characteristics of the Lodge without 
substantially altering the existing use.
    This legislation makes it clear that the owners of the Lodge are 
authorized to use weed trimmers, chainsaws, and other maintenance 
equipment needed for the general upkeep of the lodge. It also will 
allow the outfitter to reduce or eliminate his reliance on propane fuel 
and replace it with modest renewable energy sources. I believe H.R. 
4283 is consistent with the goals set forth by this subcommittee to 
make recreational opportunities available, as well as leaving our lands 
in even better shape for future generations of Americans.
    It should be noted that a few small changes will need to be made 
during markup of H.R. 4283 to address both technical corrections and 
concerns raised by interested parties. The bill, once amended, will 
have been crafted with the sentiments of both the Idaho Conservation 
League and the Wilderness Society in mind. We trust that the Forest 
Service will faithfully grant authorization for the maintenance and 
replacement activities without the burden of unreasonable environmental 
review costs.
    I look forward to amending H.R. 4283 with these changes at a future 
mark up.
    I appreciate the opportunity to testify regarding this common sense 
legislation that has been carefully crafted with the stakeholder's 
views in mind, so the operator of the River of No Return Lodge can 
perform the fundamental maintenance and replace outdated energy sources 
needed to carry out his small business with respect to the existing 
law. Again, thank you Chairman Bishop and Ranking Member Grijalva for 
the opportunity to speak on behalf of H.R. 4283.

                                 ______
                                 

   Prepared Statement of the Hon. Sean P. Duffy, a Representative in 
           Congress from the State of Wisconsin on H.R. 4049
    Good morning. Thank you Chairman Bishop and Ranking Member Grijalva 
for holding this hearing today. I appreciate the opportunity to testify 
on behalf of H.R. 4049, the Ashland Breakwater Light Transfer Act, 
which will facilitate the transfer of a lighthouse in Ashland, 
Wisconsin from the Coast Guard to the National Park Service.
    Next year will mark the 100th Anniversary of the Ashland Breakwater 
Light, a lighthouse that has stood strong on Lake Superior's shores, 
guiding ships through dark nights and storms and welcoming travelers 
back home. I was blessed to be able to raise my family, with my 
beautiful wife Rachel, in Ashland. Having spent years in the community, 
I know the importance of this light not only as a symbol of Ashland but 
as a major part of the local economy. The Ashland Light is listed on 
the National Register of Historic Places since 2007 and is an important 
part of Ashland area tourism, recreation, and education.
    This historic site faces an uncertain future, however, with the 
Coast Guard looking to give up management. The Coast Guard announced 
its intent to give up ownership of the Ashland Light in May of 2012. No 
public or private entity aside from the National Park Service's Apostle 
Islands National Lakeshore has expressed credible interest in obtaining 
and maintaining the Ashland Light. In the absence of legislation, 
however, there is no guarantee it would be maintained as a historic 
property or that it would be available for public education or access.
    H.R. 4049, the Ashland Breakwater Light Transfer Act, will allow 
the Apostle Islands National Lakeshore to maintain this lighthouse--
alongside the other eight lights it already manages. It does this by 
simply adjusting the boundary of the Apostle Island National Lakeshore 
(APIS) to include the Ashland Light itself.
    All of the other light stations within the boundaries of the 
Apostle Islands were transferred to the National Park Service from the 
Coast Guard in 1986. The Ashland Light was not included in the 1986 
transfer, however, because it was not inside the park boundary, the 
USCG was actively maintaining it, and its future was not at issue at 
the time.
    I have worked closely with National Park Service staff, as well as 
the local recreational community, to strike a balance that allows for 
the transfer of the lighthouse itself while preventing additional 
Federal rules and regulations from affecting any recreation on the 
waters surrounding the Ashland Light. Additionally, the Coast Guard 
will maintain access to the Ashland Light to maintain it as an aid to 
navigation and the Army Corps of Engineers will still maintain the 
breakwater on which the light stands.
    We know all too well that disagreements between agencies can often 
get in the way of the best interest of the community. For this reason, 
I specifically included language to ensure all the agencies involved--
the Park Service, the Coast Guard, and the Army Corps--cooperate in 
their operations to ensure that all of their needs surrounding the 
lighthouse are met.
    This legislation is the result of close collaboration with the 
Apostle Islands National Lakeshore--particularly Superintendent Bob 
Krumenaker, the Wisconsin Department of Natural Resources, the 
Wisconsin Historical Society, the Ashland Chamber of Commerce and 
Economic Development groups, the City and County of Ashland, and the 
local outdoor recreational community. And this legislation has received 
near unanimous, bipartisan support from the Wisconsin House delegation 
and Senator Baldwin and Senator Johnson have introduced companion 
legislation in the Senate.
    Additionally, I want to pay special recognition to a group of 
students who are in Washington, DC today--all the way from Ashland 
Middle School on a school field trip. I'm really glad that the timing 
of their visit coincided with this hearing, and I'm glad they will be 
seeing the democratic process first-hand this week, especially on an 
issue that is important to them in their hometown.
    Finally, I have several letters of support for H.R. 4049 that I 
would like to submit for the record.
    I look forward to advancing Ashland Breakwater Light Transfer Act 
and helping to preserve this piece of history for generations to come. 
I urge the committee to pass this legislation quickly and appreciate 
your support today.
    I yield back the balance of my time.

                                 ______
                                 

    Letters Submitted for the Record by Rep. Sean Duffy on H.R. 4049
                  Ashland Area Chamber of Commerce,
                                               Ashland, WI,
                                                  February 8, 2014.
Hon. Sean Duffy,
1208 Longworth House Office Building,
Washington, DC 20515.

    Dear Rep. Duffy:

    I would like to express the Ashland Area Chamber of Commerce's 
support for H.R. 4049, the Ashland Breakwater Light Transfer Act. We 
particularly appreciate your listening to our important concerns 
regarding the \1/4\ mile boundary surrounding the lighthouse and 
preventing any additional Federal rules and regulations from affecting 
any recreation on the waters surrounding the Ashland Light. The 
Chequamegon Bay is known for the world-class fisheries within its 
33,000 acres, and the area surrounding the Ashland Harbor Breakwater 
Light is one of the best and most well-known hot spots for year round 
fishing. It is imperative that there be no restrictions imposed by the 
National Park Service that would hinder access any time of the year to 
this area. Not only is the economic impact from four-season fishing 
important for our tourism industry, the freedom for our tax-paying 
residents to utilize the area around the lighthouse is of the utmost 
importance as well.
    Again, thank you for protecting Ashland's recreational 
opportunities and at the same time, allowing for the protection of the 
beautiful Ashland Harbor Breakwater Lighthouse.

            Sincerely,
                                          Mary McPhetridge,
                                                Executive Director.

                                 ______
                                 

                                   City of Ashland,
                                               Ashland, WI,
                                                 February 11, 2014.
Hon. Tammy Baldwin, Senator,
717 Hart Senate Building,
Washington, DC 20510.

Hon. Sean Duffy, Representative,
1513 Longworth House Office Building,
Washington, DC 20515.

    Dear Senator Baldwin & Representative Duffy:

    I am in favor of transferring the Ashland Light House which is 
located in the harbor of Ashland from the United States Coast Guard to 
the Apostle Islands National Lake Shore National Park Service.
    All of the other (six) light stations within the boundaries of the 
Apostle Islands National Lake Shore (APIS) were transferred to the NPS 
from the U.S. Coast Guard (USCG) in 1986 as a result of PL 99-497. All 
six light stations, which include eight standing light towers, are 
listed on the National Register.
    The Ashland Light was built in 1915 and was listed on the National 
Register of Historic Places in 2007. The Ashland Light was not included 
in the 1986 transfer because it was not inside the park boundary, the 
USCG was actively maintaining it, and its future was not at issue at 
the time.
    The Ashland Light transfer will be a gateway to the Apostle Islands 
National Lake Shore right here in the city of Ashland. It will be part 
of the tour that so many make as they explore the light houses in the 
Park. It will give the Park another opportunity to tell the story and 
importance of the APIS to many travelers who are passing through which 
may extend their stay and give them a reason to return for a longer 
visit.
    Just recently, the city of Ashland concluded negotiations with 
Canadian National Railroad to purchase the 1700 ft ore dock base 
located in the Ashland Harbor. The base could be the departing point 
for tours to the light and the activity created would do much to 
maintain the harbor designation as a commercial harbor. The designation 
is very important for the continued economic development of the harbor 
as a commercial shipping point on Lake Superior. The light can be the 
guide to not only the ships entering the harbor, but it will also be 
the light guiding the city to future development of the Ashland Harbor 
shoreline which fronts the entire city.
    The Apostle Islands National Lake Shore has the largest and finest 
collection of six lighthouses in the country. Let us make the Ashland 
Harbor Light number seven.

            Sincerely,
                                               Bill Whalen,
                                                             Mayor.

                                 ______
                                 

                      Wisconsin Historical Society,
                                               Madison, WI,
                                                 February 18, 2014.
Hon. Tammy Baldwin, Senator,
717 Hart Senate Building,
Washington, DC 20510.

Hon. Sean Duffy, Representative,
1513 Longworth House Office Building,
Washington, DC 20515.

    I write in support of the continued preservation of the Ashland 
breakwater light. The breakwater light has been listed on the National 
Register of Historic Places, our Nation's official Federal list of 
properties worthy of preservation. As Wisconsin's State Historic 
Preservation Officer, I understand the Federal Government's commitment 
to historic preservation as a means to celebrate the rich heritage of 
this nation.
    Wisconsin has a deep and rich maritime history and our impressive 
collection of historic lighthouses is a potent symbol of the historic 
importance of way finding to the history of Great Lakes navigation and 
commerce, and the economic development of Wisconsin.
    The Ashland breakwater light joins a nationally important 
collection of six historically significant lights within the boundaries 
of the Apostle Islands National Lakeshore. Together those lighthouses 
tell stories of the Great Lakes that enrich the experience of Wisconsin 
visitors and add to our understanding of America's culture and history. 
This story knits together large swaths of the Wisconsin experience, 
including transportation, recreation, commerce, maritime history and 
our culture and life ways.
    For those reasons, I strongly support efforts that will lead to the 
continued preservation of this important historic structure.

            Sincerely,
                                               Jim Draeger,
          State Historic Preservation Officer/Director of Outreach.

                                 ______
                                 

 Apostle Islands Historic Preservation Conservancy,
                                              Bayfield, WI,
                                                      May 15, 2014.
Hon. Tammy Baldwin, Senator,
717 Hart Senate Building,
Washington, DC 20510.

Hon. Sean Duffy, Representative,
1513 Longworth House Office Building,
Washington, DC 20515.

    Dear Senator Baldwin & Representative Duffy:

    On behalf of the Apostle Islands Historic Preservation Conservancy, 
I am pleased to write in support of S. 2031 and H.R. 4049, the bills 
you have introduced to preserve the historically significant Ashland 
Breakwater Lighthouse. The Conservancy promotes the preservation, 
restoration and public appreciation of cultural and historic resources 
of the Apostle Island Region. The Lighthouse is a very important part 
of the regional history, and it is deserving of protection. Your 
foresight in introducing this legislation will hopefully lead to the 
long-term protection of the Ashland lighthouse and its inclusion with 
the other lighthouses of the Apostle Islands National Lakeshore.
    As you pursue this legislation, we encourage you to consider the 
opportunities for community and non-federal support for, and 
involvement in, the preservation and maintenance of this icon. The 
National Park Service greatly benefits from such assistance. There are 
many management tools available to provide for non-federal assistance 
with historically significant resources like the Lighthouse. In fact, 
the National Trust for Historic Preservation has identified the Apostle 
Islands National lakeshore as one the units within the National Park 
System that is best positioned to take advantage of historic leasing 
and similar tools to supplement the federal capacity for carrying out 
NPS's important mission of historic preservation. The Conservancy has 
been pleased to assist in that role, and we are willing to help explore 
the opportunities for leasing, partnerships and cooperative management 
arrangements that may be available for the Lighthouse and other 
historic properties.
    Thank you for your leadership in protecting the historic and 
cultural heritage of the Apostles Islands, and please let us know if we 
can be of any assistance.

            Sincerely,
                                            Robert J. Dahl,
                                                          Chairman.

                                 ______
                                 

 Prepared Statement of the Confederated Tribes of the Umatilla Indian 
                        Reservation on H.R. 4272
                               background
    In 1855, the Confederated Tribes of the Umatilla Indian Reservation 
(CTUIR) ceded 6.4 million acres of its aboriginal lands in exchange for 
the Umatilla Indian Reservation and reserved a number of significant 
off-reservation rights for our members, forever. Among these are the 
rights to hunt, fish and gather our ``First Foods'' on lands ceded by 
the CTUIR to the Federal Government, including the Umatilla National 
Forest, Malheur National Forest and the Wallowa-Whitman National Forest 
in northeastern Oregon and southwest Washington.
    Our First Foods include, but are not limited to, water, anadromous 
and resident fish, big game such as deer and elk, roots, and berries. 
These resources can all be negatively impacted by excessive road 
development and unregulated public use. We support a balance between 
protection of these resources and access to them for tribal members and 
non-tribal peoples alike.
    The CTUIR continuously seeks to improve the quality of natural 
resources and First Foods in these areas and is consulted on a 
government-to-government basis in Federal environmental processes such 
as the National Environmental Policy Act (NEPA) and the Endangered 
Species Act (ESA). From 2007-2012, the CTUIR actively worked with the 
U.S. Forest Service, the State of Oregon and others on development of a 
Travel Management Plan (TMP) for the Wallowa-Whitman National Forest.
    The CTUIR worked to ensure that the Forest Service's decision in 
the TMP was consistent with its statutory obligations pursuant to NEPA, 
the Travel Management Rule, and the ESA, as well as the Federal trust 
responsibility. The CTUIR believed that the final TMP for the Wallowa-
Whitman National Forest met these obligations while continuing to 
provide reasonable public access. The proposed TMP are essential to the 
protection of endangered species and their habitats as well as 
providing elk security to address regional elk distribution problems 
and reduce elk impacts to adjacent private lands (e.g. crop and hay 
losses).
    Due to pressure from those who disagreed with the final decision, 
the Forest Service withdrew the Record of Decision for the TMP. No 
action has taken place since.
                               h.r. 4272
    The ``Forest Access in Rural Communities Act'' would cease all 
implementation of the Travel Management Rule across the country and 
require the concurrence of affected counties before individual TMP's 
are implemented.
    The CTUIR understands the interest in providing transparent 
consultation with local governments about Federal land management 
decisions. However, we believe this legislation over extends that goal 
and compromises critical obligations and responsibilities held by the 
Federal Government on behalf of the CTUIR and a diverse public of USFS 
stakeholders who enjoy non-motorized public-lands experiences.
    First, by subjecting Federal land management decisions to county 
approval, this legislation would prevent the Federal Government from 
fulfilling its trust responsibility to the CTUIR, particularly as it 
pertains to the tribes' off-reservation treaty-reserved rights and 
resources. It is important to understand that our Treaty did not 
``give'' the tribal people those rights to fish, hunt, and gather foods 
and medicines. They are rights that we have had and exercised since 
time immemorial.
    The CTUIR is a sovereign tribal government as recognized by the 
United States in the Treaty of 1855. In the Treaty, our ancestors 
reserved those rights to ensure that the tribe's future generations 
would be able to maintain and exercise our traditions and customs. In 
the withdrawn Wallowa-Whitman TMP, the Forest Service had, through 
consultation with the CTUIR, made certain decisions designed to uphold 
its trust responsibility to protect off-reservation treaty resources, 
including, for instance, the closure of certain roads to provide elk 
security and control the spread of noxious weeds.
    H.R. 4272, while intended to provide a greater voice to local 
forest users, would inadvertently enact a dangerous precedent striking 
at the heart of the unique legal relationship between the Federal 
Government and federally recognized tribes. The bill would upend 
Federal law to effectively give counties a veto authority over 
implementation of the Federal Government's trust responsibility in 
certain cases. Counties have no established trust responsibility to 
federally recognized tribes, and while we often find ourselves working 
cooperatively toward mutually beneficial goals, counties simply do not 
have the same duty as the Federal Government to protect treaty-reserved 
rights and resources.
    Further, the bill would interfere with the government-to-government 
relationship between the tribes and the United States as acknowledged 
in the treaty, statutes and Executive Order 13175 which recognizes the 
obligation of the Forest Service to consult with the CTUIR when taking 
actions impacting tribal rights and resources.
    Such a significant shift in the relationship between tribes, 
counties and the Federal Government is wholly disproportionate to the 
underlying concern: the disagreement among off-road users and county 
officials with the Forest Service over access management decisions. The 
USFS has an obligation to be responsive to a diverse public--including 
tribes--with interests in varied and multiple forest uses; this 
legislation would provide disproportionate influence to a subset of the 
public.
    Existing law already provides extensive avenues for opponents to 
appeal and litigate the Forest Service's decisions regarding travel 
management. Rather than utilizing existing processes or guaranteeing a 
more inclusive dialog with stakeholders, this legislation would 
marginalize tribal and other public stakeholders in the NEPA process by 
giving county government the final authority to approve a TMP. 
Therefore, the legislation as proposed creates inequities and is 
unnecessary because of the adequacy of existing legal avenues for 
participating in travel management planning and challenging unfavorable 
decisions regarding travel management.

                                 ______
                                 

 Prepared Statement of William P. Lecky, FAIA, Architect of Record for 
the Korean War Veterans Memorial and a Member of the Board of Directors 
          Korean War Veterans Memorial Foundation on H.R. 318
    I am currently a member of the Korean War Veterans Memorial 
Foundation, and was Managing Principal for the design of the Korean War 
Veterans Memorial created by Cooper-Lecky Architects, Inc. in 1995. 
Cooper-Lecky Architects, Inc. was dissolved in 2000. I am currently the 
President of the Lecky Design Studio, an architectural firm in McLean, 
VA, which recently developed the schematic design proposal for the 
addition of the Wall of Remembrance, the focus of this hearing. As an 
added point of interest, Cooper-Lecky also served as Architects of 
Record for the Vietnam Veterans Memorial . . . working for several 
years with Maya Lin in the early 1980s.
There are several reasons for the genesis of H.R. 318

  1.  The veterans of the Korean War have been pleading for years for a 
            more definitive representation of their fallen comrades on 
            the Korean War Memorial. We initially believed that request 
            had been satisfied by the creation of a National Park 
            Service pavilion, located near the entrance to the 
            Memorial, which allowed anyone--family member or friend--to 
            type in the name of a fallen soldier and receive a printout 
            of a personalized document that contained a photo and brief 
            background information on the soldier in question. Sadly, 
            this has not worked well in meeting its intended purpose. 
            The pavilion is not readily located and/or recognized. 
            Frequently equipment is out of service. The information on 
            any specific soldier is only in the system if provided by 
            the family of the deceased. And the enormity of the 
            national sacrifice is not truly realized by the visitor 
            when dealing with a single individual death.

  2.  During the original conflict, the Korean Military offered up 
            thousands of their soldiers, known as KATUSAs, to fight 
            alongside our troops. Exact numbers are unknown, but 
            estimates are that roughly 8,000 of these men gave their 
            lives in combat, side by side with our men in the field. 
            The Korean Government does not list the names . . . only 
            estimated casualty figures, but we feel it only appropriate 
            that some recognition be given to these KATUSA fighters, as 
            the number of our U.S. fallen would surely have grown 
            without their courageous assistance.

  3.  The Korean government and its people are grateful, beyond bounds, 
            for our help in preserving their freedom. Our memorial on 
            the National Mall is on every Korean tourist's must see 
            list. And they love this country and this memorial, but 
            many feel that there is little about the memorial that 
            speaks uniquely about Korea. Our hope is that artistic 
            contributions by Korean artists can be added to the Wall of 
            Remembrance to respond to those comments. As a designer, I 
            feel this will make a unique and interesting contribution 
            to the design of the wall.

Description of the proposed concept for the Wall of Remembrance
    The current design of the Korean War Veterans Memorial consists of 
two major elements . . . what we refer to as the ``Field of Service'' 
and the ``Pool of Remembrance''. The Field of Service consists of a 
sloped triangular hill covered by 19 stainless steel ground troops 
moving up a hill toward the American flag. The entrance walk to the 
memorial runs along the north side of that triangle. The departing walk 
runs along the south side of the triangle. Visitors overlook the ground 
troops on their right and a granite wall of 2,500 etched faces of 
support forces on their left.
    The top of the triangular field wedges its way into the black 
circular pool we call the ``Pool of Remembrance''. Our intention was to 
honor the ground troops with the stainless steel figures, the support 
forces with the faces on the wall, and the fallen soldiers with the 
black reflecting pool. The pool is surrounded by a treed, circular 
plaza with benches that were intended as a contemplative area for 
reflection on all the lives lost. Because the images are so powerful in 
and around the Field of Service, the circulation of visitors moves 
predominantly up one side of the triangle and down the other. The Pool 
of Remembrance is seen, but not fully, or evenly partially, understood 
by the average visitor. The plaza around the pool is only sparingly 
occupied.
    Our hope, with the Wall of Remembrance, is to create a transparent 
glass wall, perhaps 7 or 8 feet high, that would encircle the perimeter 
of the plaza at the top of the hill. Etched into the glass would be the 
names of the 36,574 Americans who gave their lives in this conflict. 
But the wall would also contain a number of other potential elements, 
as yet undetermined or designed. These would include a statement (and 
numbers of dead) honoring the fallen KATUSA soldiers . . . perhaps 
homilies, images of appropriate flags or symbols honoring the 
contributing countries who gave support to our effort in Korea, and 
perhaps some artwork from Korea. The glass wall would not interfere 
with one's view across the Mall, and at night, the names would be 
lighted from concealed, below grade, fixtures . . . allowing the names 
to sparkle in the night air. Our hope is that the wall will draw people 
into the plaza so they can realize the intensity of the impact and the 
degree of sacrifice of one of the bloodiest conflicts in our Nation's 
history. Our belief is that this will add major enrichment and a depth 
of understanding to the message of this memorial without impacting the 
strength and beauty of that which exists on the site today.
Justification for the addition of the Wall of Remembrance

  1.  I have given many tours of the Vietnam and Korean Memorials. The 
            typical take-away by the visitor to the Vietnam Memorial is 
            ``My God, I had no idea so many lives were lost in that 
            conflict.'' The Korean War was, in fact, far more costly 
            than any war we have fought. 1 in 9 men on the ground were 
            killed. 58,000 lives were lost in Vietnam in 10 years of 
            fighting. 36,574 lives were lost in Korea in just 3 years. 
            The enormity of that loss is not perceived by the typical 
            visitor to the Korean War Veterans Memorial.

  2.  Multiple revisions were made to the Vietnam Memorial over the 
            years. The Three Soldiers statue was added; a new plaza was 
            designed to accommodate the sculpture; the walks in and out 
            of the memorial were widened numerous times; a flagpole was 
            added; the entire circulation system at the west end of the 
            Mall was redesigned to accommodate the changes; night 
            lighting was added at the foot of the Wall.

      The Wall of Remembrance needs to be added to deliver on the 
            original intent of the legislation approving the memorial. 
            Precedent has been set many times over to allow changes to 
            memorials on the Mall.

  3.  There is a great dichotomy between the Vietnam and Korean 
            Memorials. The original design for Vietnam honored the 
            dead, but changes had to be made to honor the living who 
            returned from the war. At the Korean Memorial the living 
            were honored, but the dead were all but forgotten. The Wall 
            of Remembrance will resolve that problem.

  4.  Please remember that this addition to the Korean Memorial will be 
            funded by contributions from the public. There will be no 
            cost to the government. The addition will introduce both 
            new money and new jobs to our economy. And most importantly 
            we will finally honor the enormous sacrifice made by our 
            veterans . . . a long overdue debt.

  5.  Maya Lin's magnificent design for the Vietnam Memorial set a new 
            precedent in funereal design. Every memorial since has 
            borne the names of the fallen . . . The Pentagon Memorial, 
            the Law Enforcement Memorial, the 9/11 Memorial in New 
            York, the Shanksville Memorial. Yet all these were designed 
            in a unique way. I would suggest that the Wall of 
            Remembrance will not only add a meaningful element to the 
            Korean War Memorial, but etching the names in glass will 
            offer a unique presentation of the names.

                                 ______
                                 

   Prepared Statement of the National Parks Conservation Association 
             (NPCA) on H.R. 4029, H.R. 4049, and H.R. 4182
    Since 1919, the National Parks Conservation Association (NPCA) has 
been the leading voice of the American people in protecting and 
enhancing our National Park System. On behalf of our more than 800,000 
members and supporters nationwide, I write to urge you to consider our 
positions on the following three bills when they come before the 
subcommittee tomorrow, June 10th.

    H.R. 4029: To require the Sec. of Interior to transfer Federal 
assets associated with the Ozark National Scenic Riverways to the State 
of Missouri for the purposes of maintaining a State park.

    NPCA strongly opposes this legislation. At issue in this unit of 
the National Park System is the balance between recreation and natural 
resource preservation in the General Management Plan. Public recreation 
and the preservation of natural resources are contained in the enabling 
legislation for this park unit and both can be balanced without 
degrading the rivers, sacrificing the quality of the visitor experience 
or negatively impacting the local economy. The National Park Service is 
currently working in partnership with the State of Missouri at this 
park and should continue to do so without threat of the transferring of 
assets.

    H.R. 4049: Ashland Breakwater Light Transfer Act.

    NPCA supports this legislation which would provide a needed 
boundary adjustment to Apostle Islands National Lakeshore (APIS) to 
incorporate the Ashland Breakwater Light within the Park unit. APIS is 
the premier place in the National Park System for lighthouse historic 
preservation and education. Currently, APIS has six light stations 
within the boundaries of the park, all of which are listed on the 
National Register. The exteriors of all these historic lights are 
publicly accessible, and many are open for public educational tours 
during the visitor season. The National Park Service provides abundant 
information on all aspects of the historic lights and their importance 
to the Nation as part of the park's public education and visitor 
enjoyment mission. The Ashland Light is also on the National Register 
of Historic Places and sits just outside the park boundary. The U.S. 
Coast Guard has announced plans to dispose of the Ashland Light under 
the National Historic Lighthouse Preservation Act. Without this 
legislation to bring it into APIS, the Ashland Light could be offered 
for public sale, with no guarantees that a buyer would maintain its 
historic integrity or provide access to the public.

    H.R. 4182: To provide that the Ozark National Scenic Riverways be 
administered in accordance with the General Management Plan for that 
unit of the National Park System.

    NPCA strongly opposes legislation that would nullify the current, 
draft General Management Plan (GMP) for the Ozark National Scenic 
Riverways and require the Secretary of the Interior to manage the park 
unit according to the existing, 30-year-old 1984 GMP. It would also 
prohibit the Secretary from changing the park's management in the 
future with regard to recreation, motorized use, and preservation of 
natural resources. This legislation effectively removes the rights of 
the American people to comment on how a national park unit should be 
managed. During the public comment period for the current GMP, more 
than 16,000 unique comments were made by park visitors and others who 
care about this park unit. Congress should not tie the hands of the 
National Park Service or negate this public process.

    Thank you for considering our views.

                                             Craig D. Obey,
                         Senior Vice President, Government Affairs.

                                 ______
                                 

             Letters Submitted for the Record on H.R. 4272
 American Council of Snowmobile Associations, Inc.,
                                    East Lansing, Michigan,
                                                      June 2, 2014.

Hon. Greg Walden,
U.S. House of Representatives,
Washington, DC 20515.

    Dear Congressman Walden:

    I am writing on behalf of the American Council of Snowmobile 
Associations which represents snowmobilers across the country in 
support of H.R. 4272, the Forest Access in Rural Communities Act.
    We appreciate the language in H.R. 4272 which would require the 
Forest Service to consult and be in agreement with affected county 
government prior to altering access to the Forest Service lands--
including closures or decommissioning of any roads or trails.
    The snowmobile community is concerned with the lack of local input, 
access for motorized recreation being limited. Involving the local 
communities is crucial and endures those rural communities that depend 
on the economic impact and the residents that recreate on those lands 
the opportunity for input and comments.
    We wholeheartedly support H.R. 4272.
    Thank you for introducing this legislation. If you have any 
questions, please feel free to contact me.

            Sincerely,
                                        Christine Jourdain.

                                 ______
                                 

                 American Motorcyclist Association,
                                            Washington, DC,
                                                    March 26, 2014.

Hon. Greg Walden,
U.S. House of Representatives,
Washington, DC 20515.

    Dear Rep. Walden:

    The American Motorcyclist Association is writing to thank you for 
introducing H.R. 4272, the Forest Access in Rural Communities Act.
    Founded in 1924, the AMA is the premier advocate of the 
motorcycling community. We represent the interests of millions of on- 
and off-highway motorcyclists and all-terrain-vehicle riders in the 
United States. Our mission is to promote the motorcycle lifestyle and 
protect the future of motorcycling.
    As you are aware, this bill would require the U.S. Forest Service 
to consult and be in concurrence with affected county governments 
before altering access to the National Forest System--including closing 
or decommissioning roads and trails.
    The AMA is concerned that due to a lack of local input, access for 
motorized recreation is being unfairly limited on USFS lands. By 
requiring concurrence from local governments, this bill would ensure 
that those who use Forest Service land for recreation would be afforded 
an opportunity to comment on access issues.
    We would like to work with your office to ensure any future 
concerns we may have are addressed, so this important legislation can 
be signed into law.
    Once again. thank you for introducing H.R. 4272.
    If you have questions please do not hesitate to contact me.

            Sincerely,
                                              Wayne Allard,
                              Vice President, Government Relations.

                                 ______
                                 

                            Association of Oregon Counties,
                                                      June 4, 2014.

Hon. Doc Hastings, Chairman,
Hon. Peter DeFazio, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Chairman Hastings and Ranking Member DeFazio:

    The Association of Oregon Counties, which represents all 36 of the 
State's counties, wants the House Natural Resources Committee to know 
that we support H.R. 4272, the Forest Access in Rural Communities Act, 
sponsored by Congressman Greg Walden among other Members of Congress.
    Eastern Oregon is dominated by National Forests. It is a way of 
life for Oregonians to have access to these vast acreages. Recent U.S. 
Forest Service travel management planning and inadequate forest health 
management have directly and negatively affected our communities near 
the National Forests. In spite of a wealth of first-hand knowledge 
locally about these forests, the sense here is that policies are driven 
from Washington, DC, without regard to distinct local conditions and in 
a one-size-fits-all direction.
    H.R. 4272 will ensure local knowledge is applied to Federal 
decisionmaking on access. Governing bodies of directly affected 
counties, those who represent Oregonians who live among and depend upon 
the National Forests, will be able to be in direct partnership with the 
Forest Service on decisions to close or decommission a road in the 
National Forest.
    Please give serious consideration to H.R. 4272, hear it, and pass 
it to the full House of Representatives.

            Sincerely,
                                  Commissioner Earl Fisher,
                                         Columbia County President.

                                 ______
                                 

               Baker County Board of Commissioners,
                                            Baker City, OR.

Hon. Greg Walden,
U.S. House of Representatives,
Washington, DC 20515.

    Dear Congressman Walden:

    The Baker County Board of Commissioners would like to go on record 
as supporting H.R. 4272. Baker County has been heavily involved with 
our citizens and other stakeholders in the debate over road closures 
and access issues in the National Forests.
    This bill will require the Forest Service to formally coordinate 
their planning actions and allow the local governments to put forth the 
local customs, culture and economic input to various Federal actions.
    Local government is in a unique position to coordinate with the 
Federal agencies and come up with common sense solutions which protect 
our multiple resources while allowing for sustainable economic 
activity.
    Thank you for your efforts and please feel free to contact us with 
any questions or clarification needs.

            Sincerely,
                                           Fred Warner Jr.,
                                                          Chairman.
                                              Tim L. Kerns,
                                                      Commissioner.
                                           Mark E. Bennett,
                                                      Commissioner.

                                 ______
                                 


Hon. Greg Walden,
U.S. House of Representatives,
Washington, DC 20515.

    Dear Representative Walden:

    Thank you for this opportunity to provide input into a matter very 
important to me, my family and friends.
    I, my family and friends are regular users of Public Lands. We use 
them in a sane and responsible manner and encourage others to do the 
same, we work in cooperation with public agencies and private groups to 
maintain and enhance our ability to remain in the places we love.
    I am a member of several user groups and I am the Vice President of 
the Eastern Oregon All-Terrain Vehicle Association and one of the 
originators of the Forest Access For All organization. As a board 
member of the Grand Ronde Model Watershed organization appointed by the 
Union County Court I have worked extensively with Steve McClure and 
Mark Davidson to bring the message of sane use and utilization to the 
Watershed organization and through them to the State of Oregon.
    Because of the impacts to local economies and traditional uses from 
the original Travel Management Activities the Model Watershed Board 
drafted, voted on and approved a policy to not support any management 
activity brought to the board for approval if it included travel or 
access restrictions.
    On a local level over 4,500 pieces of input were received by the 
USFS on their original travel management activities. The tremendous 
majority of that input was in opposition to closure or restriction of 
access or use. I find it interesting the USFS is now attempting to 
obtain more input to ignore.
    The Native American has certain uses and access and rightfully so. 
For years I have asked anyone that would listen what was required to 
have those same uses and access. A friend working for the USFS made me 
aware of a policy the USFS and other agencies try to keep hidden and is 
titled Traditional Cultural Properties. Multiple generations of my 
family were born in the United States. I was born five or six blocks 
north of the Oregon State Capitol building. I served abroad under the 
flag of the USA, have earned a living and paid taxes for over 65 years, 
and am a loyal U.S. citizen. It appears to an old, uncultured, 
patriotic, independent U.S. citizen that under the Traditional Cultural 
Properties language that I also qualify as a Native American and am 
worthy of that same level of use and access.
    My activities require much travel in the eastern half of the State 
of Oregon. I observe empty store fronts, empty houses, mills closed and 
stock yards reducing activities. I see fewer and fewer opportunities 
for our young to enter the work force. I see increased regulation and 
restrictions further eliminating any opportunities for economic 
progress. In our part of the world the treasure we have to offer is our 
forests, meadows, streams and mountains and the very activities and 
objective of the Federal agencies is to lock our treasure away for few 
if any to enjoy.
    I see this legislation as a first step in putting those with a true 
vested interest in control of their future. Not as a victim but as the 
creator and recipient of the benefits.
    Thank you for past, present and future activities and this chance 
to relay my thoughts to others.

            Sincerely,

                                           Larry L. Cribbs.

                                 ______
                                 

    Eastern Oregon All Terrain Vehicle Association,
                                             La Grande, OR.

Hon. Greg Walden,
U.S. House of Representatives,
Washington, DC 20515.

    Dear Representative Walden:

    Thank you for this opportunity to provide input into a matter very 
important to all of the members of our organization. We are Eastern 
Oregon All Terrain Association and represent well over 100 individuals 
and family members. Our members have enjoyed recreating on our Forests 
and public lands for multiple generations. We are responsible users of 
our lands and have always done our part to see that others use them 
responsibly also. Our organization focuses on off-highway motorcycle 
and ATV use, but most of our members also enjoy driving on our National 
Forests roads, whether to reach a particular destination or just to 
enjoy the outdoors. Our organization also has an agreement with the 
Forest Service to help maintain the trails on two different trail 
systems. We spend a considerable amount of time each year maintaining 
these trails for our members and other users.
    Over the last couple of decades our organization has given our 
input on multiple ``Plans'' that the Forest Service has started, yet 
never seemed to finish. These ``Plans'' have always included 
restrictions on motorized recreation and access to our Forests. Even 
though these plans have never been completed, our members have 
gradually seen their access to our public lands reduced, usually with 
no warning or reason for the closures.
    The latest plan to be started, but not completed, was the Access 
Travel Management Plan (ATMP) for the Wallowa-Whitman National Forest. 
This plan would have changed forest access from open unless designated 
closed, to closed unless designated open. There was a great deal of 
time spent by our club members and others to inventory roads and give 
input on their use of the forest and its roads and trails. After all of 
our efforts it seemed to us that our input (the input of the people 
that live and use this Forest) was not taken seriously, or just 
ignored. It seemed as though the outcome of the plan was predetermined 
by someone somewhere that has never seen or even knows anything about 
our Forest. There seems to be a one size/plan fits all mindset in 
Federal Forest management decisions.
    Even though the ATMP was ultimately withdrawn and put on hold, we 
now have a different Plan to worry about. This is the Blue Mountains 
Forest Plan Revision. We are going through the same process of giving 
input, which we have done several times in the past, to a Forest 
Service that seems to never acknowledge the fact that they run the 
public through this same drill over and over again, and then ignore us 
in the end. It is as if they will keep coming back with a different 
plan until we get so frustrated with them or tired of doing the same 
thing that we just go away.
    Over the last couple of decades the local Forest Service has gone 
from an organization of people who grew up and lived in the region, 
that knew the forest and its users, to people who really know very 
little about the forest they work on or the people that use it. They 
spend far too much time behind a desk doing paper work and very little 
time actually on the forest managing it. Their lack of management has 
become their excuse for closing the Forest to the public. Their poor 
decisions are used as an excuse to punish the public by locking them 
out of the Forest. We are not the ones responsible for the Forest 
Service's incompetence.
    We need to return to where local input into local Forest management 
decisions actually means something. Every Forest is different and 
should not be managed by one all-encompassing set of orders from 
somewhere in Washington DC. That is why the Forest Access in Rural 
Communities (FAIR) Act--H.R. 4272 is so important to the members of 
EOATVA and the citizens of northeast Oregon. This bill would return 
decisions on access to our Forests back to the people that actually 
use, know and love them.
    Thank you for taking the time to hear our concerns and thoughts.

            Sincerely,
                                               Mark Barber,
                                        Secretary/Treasurer EOATVA.

                                 ______
                                 

                             Forest Access For All,
                                            Baker City, OR.

House Committee on Natural Resources,
 Subcommittee on Public Lands and Environmental Regulation,
Washington, DC 20515.

    Dear Honorable Committee Members:

    Forest Access For All of Baker City would like to give our support 
of Forest Access in Rural Communities (FAIR) Act--H.R. 4272.
    Our members, the local residents of eastern Oregon, western Idaho, 
southeastern Washington as well as groups of citizens across the United 
States have been involved in the Travel Management Planning Process to 
keep national forests open for both Subsistence and Recreational uses. 
Our communities are very dependent on an Open Forest system to access 
the needed resources that keep our rural communities resilient and 
vibrant as we struggle through difficult socio-economic times our 
Nation has been experiencing.
    The National Environmental Policy Act (NEPA) was created with good 
intentions to make sure the ``human environment'' was considered in all 
Federal actions to address how our Federal agencies decisions affected 
human beings. NEPA has been amended and re-interpreted repeatedly over 
the last 34 years due to ``policy by litigation''. NEPA is now a 
powerful tool to eliminate the human element from all Federal lands. 
The Travel Management Plan is essentially an accessory tool in 
accomplishing that very goal.
    Our region of the State encompasses an area roughly the size of 
Virginia at 49,000 sq. miles with a population of roughly 100,000 
residents. We have seen a substantial reduction in our main industrial 
economic engine of the timber industry over the last 30 years that has 
drastically reduced our abilities to facilitate the vibrant communities 
we desire.
    One of the greatest assets we have to keeping our communities as 
resilient as we would like is our freedom to access the natural 
resources of our regions. When decisions are spearheaded and 
implemented by Federal mandates and not by local residents, Federal 
Land Managers tend to protect their perceived responsibilities to the 
central government in Washington DC are not as concerned with the 
impact of their decision on the local residents of the areas they are 
making decisions around.
    FAFA's position is that County Administrations are the cornerstone 
of civil governments. When rural communities are allowed to partake in 
a process that allow them to not only engage, but affect a positive 
outcome for their families and residents, positive stewardship can take 
place that not only allows for effective landscape level management, 
but also leads to the resilient communities we all strive for. Over the 
last several years, our group and members have attempted tirelessly to 
be engaged in Forest Service decisions that affect the local residents, 
the local economy, ecology and lifestyle. The Travel Management Rule 
and the current Forest Plan Revision Proposal for the Blue Mountains 
are two such examples and residents have been met with stone walling, 
bullying and being marginalized from the process.
    The residents of eastern Oregon and rural communities across the 
West must have a majority voice when it comes to how local resources 
are stewarded, and how accesses to those resources are managed. Our 
members are regular and responsible users of the forest, and often have 
been sustaining their lives from these forests for generations.
    It is troubling to see how local communities lose their voice in 
the process, as access to the forests around them and they know well is 
restricted--often due to decision made by bureaucrats in Washington DC 
that may have never seen the roads they are closing. We have seen 
firsthand how this played out with the travel management planning 
process on the Wallowa-Whitman National Forest.
    Members of our organization and others across eastern Oregon 
dedicate hundreds of hours of time to travel and inventory roads, 
corresponding with U.S. Forest Service Staff, incorporating that 
information in to comments for the Forest Service, only to have that 
information largely ignored and popular trails, family hunting and 
camping spots are closed.
    This bill would require the U.S. Forest Service to consult with, 
and get approval from, affected counties before altering access to 
National Forests, which we feel are strong starting points for counties 
to affectively manage the Health, Safety and Welfare of the residents 
they elected to represent and protect.
    By requiring approval from local government, this legislation will 
ensure the communities most affected by these access changes have a 
fair say in their access to public land.
    Forest Access For All appreciates the opportunities over the past 
several years to provide input on forest access issues to the 
subcommittee and on this legislation. We look forward to continuing to 
work with your subcommittee to assist in getting this legislation 
signed into law.

            Sincerely,
                                            John D. George,
                                                Executive Director.

                                 ______
                                 

                      County Court of Grant County,
                                      Grant County, Oregon,
                                                      June 4, 2014.

Hon. Greg Walden,
U.S. House of Representatives,
Washington, DC 20515.

    Dear Congressman Walden:

    The Grant County Court enthusiastically supports Representative 
Walden's H.R. 4272 legislation, also known as ``the Forest Access in 
Rural Communities Act''.

    For too long the Forest Service has arbitrarily and capriciously 
closed roads without public notice or consultation. We in Grant County 
would argue that by doing so they, ``the agency'' have violated the 
National Environment Policy Act (NEPA). Like many rural communities, we 
in Grant County have an aging population, which a lack of motorized 
access has a profound detrimental effect on their lives, whether it 
involves hunting, camping or a leisurely drive through our beautiful 
National Forest. Another activity that these proposed closures would 
drastically reduce would be the ability of all our citizens to cut and 
gather firewood which is a large source of heat for our citizens.

    Our local community, like many others across the Nation, has an in-
depth historical knowledge of the roads in our county, noting that 64 
percent of our county is managed by the Federal Government. With that 
being said, the transitory nature of personnel on our National Forest 
prevents a comprehensive or cohesive view of the access issues that 
many of our life-long citizens have.

    The court feels that H.R. 4272 would assure that the agencies would 
be obligated to have local input on their actions concerning access 
travel management. Grant County has made its position quite clear by 
Ordinance 2013-01 adopted on 5/22/2013 (attached).

    The Grant County Court would encourage the Senate and House of 
Representatives of the United States of America to adopt H.R. 4272.

            Sincerely,

                                            Scott W. Myers,
                                                      County Judge.

                                              Boyd Britton,
                                               County Commissioner.

                                          Chris B. Labhart,
                                               County Commissioner.

Attachment: Ordinance 2013-01

               IN THE COUNTY COURT OF THE STATE OF OREGON
                        FOR THE COUNTY OF GRANT

AN ORDINANCE PERTAINING TO PUBLIC ROAD CLOSURES  ) ORDINANCE

WITHIN GRANT COUNTY, OREGON                          )  2013-01

    THIS BEING the 22nd day of May, 2013, and a day set aside for a 
regular meeting of the Grant County Court; and there being present 
County Judge Scott W. Myers, and County Commissioners Chris B. Labhart 
and Boyd Britton.

    WHEREAS, the safety and well-being of Grant County citizens and the 
custom and culture of Grant County are closely tied to the public lands 
within the boundary of Grant County; and

    WHEREAS, the roads, trails, stock driveways, and by-ways over and 
across these public lands have customarily been utilized unrestricted 
by Grant County residents for search and rescue, fire protection, 
firewood gathering, access for hunting and fishing, livestock 
management, logging activities, mining, recreational uses and general 
welfare.

    THEREFORE, be it hereby ordained that for the safety and well-being 
of Grant County citizens all roads, trails, stock driveways, and by-
ways over and across public lands within the boundary of Grant County, 
Oregon shall remain open as historically and customarily utilized 
consistent with the Grant County plans and policies, unless otherwise 
authorized for closure by the Grant County Court and the Grant County 
Sheriff.

    THIS ORDINANCE is adopted this 22nd day of May, 2013.

        GRANT COUNTY COURT            GRANT COUNTY SHERIFF

        Scott W. Myers, County 
        Judge                         Glenn E. Palmer, Sheriff

        Chris B. Labhart, 
        Commissioner                  ATTEST:

        Boyd Britton, Commissioner    Mary R. Ferrioli, Court Secretary

                                 ______
                                 

                Lake County Board of Commissioners,
                                          Lakeview, Oregon,
                                                     June 11, 2014.

Hon. Greg Walden,
U.S. House of Representatives,
Washington, DC 20515.

    Dear Congressman Walden:

    The Lake County Board of Commissioners would like to extend to you 
our strong support of the Forest Access in Rural Communities (FAIR) Act 
or H.R. 4272.
    This Board has expressed on numerous occasions frustration with the 
Travel Management Plan created for the purpose of closing of roads on 
public lands utilized by our citizens. We feel that the process 
followed by the Forest Service for these closures in no way took into 
consideration the concerns and comments submitted by our citizens or by 
this Board. Our greatest concern is the way in which this process, like 
so many others, completely ignored the input of the Board of 
Commissioners as the local governmental authority.
    H.R. 4272, in our opinion, would provide assurance that agencies 
such as the U.S. Forest Service would be obligated to consider local 
input in the future before taking action on travel management plans 
related to our public lands. We feel that local governments have always 
been the best resources for information when addressing concerns and 
feel even stronger that those resources have been vastly ignored.
    We appreciate your development of H.R. 4272 and for your continued 
efforts on our behalf.

            Sincerely,
                                                 Dan Shoun,
                                                             Chair.
                                        Bradley J. Winters,
                                                        Vice-Chair.
                                               Ken Kestner,
                                                      Commissioner.
               Oregon State Snowmobile Association,
                                            LaPine, Oregon,
                                                      May 14, 2014.

Hon. Greg Walden,
U.S. House of Representatives,
Washington, DC 20515.

    Dear Congressman Walden:

    The Oregon State Snowmobile Association and its membership of 
snowmobilers support H.R. 4272, the Forest in Rural Communities Act, 
introduced by Congressman Greg Walden.
    Local input should be a big part of the decisionmaking process, 
assuring the needs, concerns and desires of the people most affected 
are involved. Those living and working in these areas are in the best 
position to understand the impact on their local economy and 
environment.
    Decisions being made during the Travel Management Rule process 
involving altering public access to the forest lands, decommissioning 
roads, trails and closing of roads, should be based on local input as 
each area is unique. Decisions should not be made on the basis of one 
size fits all, but each area looked at as the distinctive area it is 
with the input of county and local leaders and those who use the area.
    Policies and rules adopted without consideration or understanding 
of local circumstances can have unintended consequences. Local 
flexibility makes common sense.

            Sincerely,
                                             Peggy Spieger,
                                           OSSA Executive Director.

                                 ______
                                 

                              Public Lands Council,
                     National Cattlemen's Beef Association,
                                                      June 9, 2014.
Hon. Greg Walden,
U.S. House of Representatives,
Washington, DC 20515.

Re: Livestock Industry Support for the Forest Access in Rural 
        Communities Act (H.R. 4272)

    Dear Representative Walden:

    The Public Lands Council (PLC) and the National Cattlemen's Beef 
Association (NCBA) support the Forest Access in Rural Communities Act 
(H.R. 4272). PLC is the only national organization dedicated solely to 
representing the roughly 22,000 ranchers who operate on Federal lands. 
NCBA is the beef industry's largest and oldest national marketing and 
trade association, representing American cattlemen and women who 
provide much of the Nation's supply of food and own or manage a large 
portion of America's private property.
    Your bill would stop the misguided travel management rule on 
national forests in the West and would promote local control over 
future proposals that could restrict forest access. This law would 
force the Forest Service to listen to local residents input before they 
make a decision to restrict access to public forests. Far too often, 
Federal agencies make decisions that affect local landowners and public 
land permittees and ignore the input they have received, or worse, 
don't even allow the opportunity for input. H.R. 4272 would end this 
abuse of agency decisionmaking.
    The Travel Management rule requires designation of those roads, 
trails, and areas that are open to motor vehicle use. According to the 
Forest Service, designations will be made by class of vehicle and, if 
appropriate, by time of year. The final rule prohibits the use of motor 
vehicles off the designated system, as well as use of motor vehicles on 
routes and in areas that are not consistent with the designations. 
While the rule is supposed to address the needs for access to National 
Forest System lands, far too often we see decisions to close roads made 
at the agency level without the proper level of input from local 
residents. This would directly impact ranchers who hold grazing permits 
on Forest Service lands, as it would be impossible for them to utilize 
their permits and properly manage and improve the Federal land that 
they are responsible for. Your legislation would ensure that local 
interests are kept at the forefront of the discussion where they 
belong.
    PLC and NCBA applaud your efforts, and appreciate the opportunity 
to provide our input on behalf of our members--the Nation's food and 
fiber producers. We encourage Members of Congress to support this 
positive and proactive piece of legislation.

            Sincerely,

                                                 Brice Lee,
                                                     PLC President.

                                                 Bob McCan,
                                                    NCBA President.

                                 ______
                                 

                                      Sportsmen Ride Right,
                                                     June 24, 2014.

Hon. Doc Hastings, Chairman,
House Committee on Natural Resources,
Washington, DC 20515.

Hon. Peter DeFazio, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Chairman Hastings and Ranking Member DeFazio:

    Sportsmen Ride Right is a coalition of hunters and anglers who 
believe that motorized access is an essential use of our public lands 
that must be managed in a way that ensures quality hunting and fishing 
opportunities.

    Travel management, the process through which we decide where we 
will and will not drive on public land, is a vital process that 
protects key habitat for fish and games species, reduces user conflicts 
and makes sure that our multiple use forests are managed in a 
sustainable and fiscally responsible way.

    Efforts to stop Forest Service travel management and undo previous 
planning decisions would negate the considerable efforts of sportsmen 
and others from around the country. Halting travel planning would also 
increase road maintenance costs and lower the overall quality of our 
public lands.

    Besides maintaining good fishing and hunting, travel management 
seeks to reduce user conflicts and to create a better experience for 
everyone. An early morning elk hunter glassing a hillside in the back 
country does not want to see a pickup truck drive into the spot he's 
glassing. A rancher paying to graze cows on National Forest land does 
not want unregulated motorized use damaging the grass and water 
resources he pays to use. And an ATV rider using an ATV-only trail does 
not want to encounter a bunch of full-size vehicles plugging the trail.

    As a coalition, we believe strongly that designated route planning 
is a necessity. A designated system of well-maintained roads is 
essential to preserve quality hunting and angling on public lands.

    We oppose legislative efforts such as H.R. 4272 that would halt 
travel management or overturn existing travel plans.

            Sincerely,

               Gifford Pinchot Off Highway Vehicle Alliance
                           Southwest Consolidated Sportsmen
                                  Dona Ana County Sportsmen
                                   Muley Fanatic Foundation
                                     Bow Hunters of Wyoming
                                Montana Wildlife Federation
                             New Mexico Wildlife Federation
                                Wyoming Wildlife Federation
                                  Idaho Wildlife Federation
                 New Mexico Backcountry Hunters and Anglers
                      California Council of Trout Unlimited
                                           New Mexico Trout
         Pennsylvania State Division of Izaak Walton League
                            Snake River Waterkeepers, Idaho
                  Emerging Rivers Guide Service, Washington
                                              Angling Trade
                 Washington Backcountry Hunters and Anglers
       Washington Recreational and Government Coordination 
                                                   Services
                      Gardenswartz Sporting Goods, Colorado
                Washington State Council of Trout Unlimited
                             Roaring Fork Anglers, Colorado
                                   Alpine Angling, Colorado
                  Dolores River Boating Advocates, Colorado
                              Rico Alpine Society, Colorado
                          Emerald Water Anglers, Washington
                                  The Reel Life, New Mexico
                                  Taos Fly Shop, New Mexico
                      Mesilla Valley Flyfishers, New Mexico
                            Caddis Fly Shop, Eugene, Oregon
              Royal Treatment Fly Shop in West Linn, Oregon
                   Alaska Fly Fishing Goods, Juneau, Alaska
                   Alan Corbett Photography, Juneau, Alaska
                       Adventures in Alaska, Juneau, Alaska
                          Land of Enchantment Guide Service
                                Solitary Angler, New Mexico
                                  San Juan Angler, Colorado
                              Intermountain Aquatics, Idaho
                        Victor Emporium and Fly Shop, Idaho
                               Dvorak Expeditions, Colorado

                                 ______
                                 

     Umatilla County Board of County Commissioners,
                                             Pendleton, OR,
                                                      June 5, 2014.
Hon. Greg Walden,
U.S. House of Representatives,
Washington, DC 20515.

    Dear Congressman Walden:

    Please add Umatilla County to the growing list of counties who 
strongly support House Resolution 4272.
    We agree with our colleagues in Wallowa County that the Travel 
Management Plan created considerable hostility in northeast Oregon and 
that the tremendous overreach incumbent in the plan addresses problems 
which simply do not exist.
    What is of even greater concern to us is the plan reflects yet 
another effort by the Federal Government to usurp the wisdom and 
authority of local government structures. Thank you for H.R. 4272 which 
would prevent such overreach and for your continued representation of 
rural counties and your awareness of our needs and interests.
    In our estimation, the Travel Plan is simply another reflection of 
the disparity that exists across the country in terms of Federal 
ownership. As you are well aware, issues such as this are minor in 
Eastern States where the percentage of Federal property ownership is 
extremely low. In States like Oregon, where such a significant portion 
of our land mass is federally owned, issues such as this are magnified 
many times over. We suspect Eastern Members of Congress would take a 
considerably different view in matters such as this if a significant 
portion of their State were to suddenly disappear from private 
ownership.
    Local government has always been the most effective avenue for 
addressing the unique needs of the particular region and we believe you 
clearly understand this principle. Thank you for H.R. 4272 and for your 
efforts on our behalf.

            Sincerely,
                                       William J. Elfering,
                                         George L. Murdock,
                                        W. Lawrence Givens,
                            Umatilla County Board of Commissioners.

                                 ______
                                 

               Union County Board of Commissioners,
                                             La Grande, OR,
                                                      June 5, 2014.
Hon. Greg Walden,
U.S. House of Representatives,
Washington, DC 20515.

    Dear Congressman Walden:

    The Union County Board of Commissioners are in full support of H.R. 
4272, the ``Forest Access in Rural Communities Act''. We appreciate 
your recognition of the negative impact of the current Travel 
Management Rule on the employment, economy and quality of life of our 
citizens. Your proposed H.R. will require the Forest Service to 
incorporate the needs, uses, and input of affected communities before 
taking any travel management action. There is a critical need for this 
change.
    Federal national forest lands comprise a large percentage of the 
geographic area included in Union County and surrounding rural 
counties. Access to much of this area has already been restricted 
impacting employment and other economic benefits and quality of life 
for citizens. County officials and our citizens have been very involved 
in the existing Travel Management process and have been frustrated and 
disappointed with the outcomes and lack of consideration of our input 
and efforts.
    We believe the requirements proposed in H.R. 4272 are a step in the 
right direction of including more local involvement in decisions that 
greatly impact our local citizens in so many ways. Thank you for your 
efforts toward improving a flawed process.

            Sincerely,
                                             Steve McClure,
                                                          Chairman.
                                          Mark D. Davidson,
                                                      Commissioner.
                                        William D. Rosholt,
                                                      Commissioner.

                                 ______
                                 

             Wallowa County Board of Commissioners,
                                            Enterprise, OR,
                                                      May 28, 2014.
Hon. Greg Walden,
U.S. House of Representatives,
Washington, DC 20515.

    Dear Congressman Walden:

    We would like to take this opportunity to comment on your Travel 
Management Bill, H.R. 4272. You are very aware of the anguish and 
hostility that was displayed in northeast Oregon when the Forest 
Service rolled out their Travel Management Plan. That plan, with its 
tremendous overreach, looked for solutions for problems that don't 
exist was the epitome of Federal Government agencies usurping local 
government's authority and trampling on the rights of our citizens. 
H.R. 4272 would prevent that draconian approach from happening in the 
future.
    Wallowa County's approach to the Travel Management Rule was to 
complete a roads analysis on all of the National Forest roads. Thirty-
three volunteers spent days driving and analyzing the roads based on 17 
criteria. That information resulted in the Wallowa County Travel 
Management Plan that was adopted into our local Comprehensive Land Use 
Plan. The information was also submitted to the Forest Service for 
inclusion in their plan, but was largely ignored. Our citizens will not 
tolerate the Forest Service heavy handiness of travel management, the 
resources on the National Forest do not necessitate such an approach 
and H.R. 4272 would correct this very real problem in northeast Oregon.
    Thank you for the opportunity to comment on the proposed 
legislation. We look forward to continuing the dialog on Federal land 
management issues and policy decisions.

            Sincerely,
                                              Mike Hayward,
                                                          Chairman.
                                           Paul Castilleja,
                                                      Commissioner.
                                             Susan Roberts,
                                                      Commissioner.

                                 ______
                                 

                   Wallowa Valley Trail Riders Association.

Hon. Greg Walden,
U.S. House of Representatives,
Washington, DC 20515.

    Dear Representative Walden:

    The Wallowa Valley Trail Rider Association was formed back in 1995 
out of a small group of Wallowa County residents that all had the same 
vision: to work with the USFS and local governments to create, maintain 
and assist in the past, present, and future OHV opportunities in 
Wallowa County. Since then the group has grown from a handful of 
dedicated people to over 25 families that still share the same goals 
that the club was founded on. One specific project that the club has 
been working on since 1996, an OHV trail system, now located in the 
Sled Springs area of Wallowa County, is a prime example of why the 
local people need a voice on matters that affect their backyards and 
why the governing agencies need to listen.
    This trail system was originally started in an area mutually 
decided and agreed upon by all parties after several years and hundreds 
of volunteer man hours, even over $20,000 worth of State grant money 
was spent mapping trails one special interest group was able to 
obliterate all the work that was done and send the project packing to a 
different area to start from ground zero. Ten years later the same 
exact thing happened again . . . the group was unable to get the system 
completely obliterated but after 2\1/2\ years in litigations the 
proposal that the Local club had worked so hard on was all but gone and 
in its place was a proposal that was signed and ready to implement but 
clearly was not what the local club and USFS had worked on for nearly 
10 years. The local voices were yet again unheard.
    The members of our club are all responsible users that understand 
how important it is to leave the smallest footprint possible when using 
the forest. Our members are all active in volunteering their time to 
implementing and maintaining our trail systems. We all have spent 
countless hours inventorying roads and creating viable comments for the 
forest service to use in their process. Many of our members have been 
not only using our forests for generations but have had a hand in many 
various partnerships with the local and federal governments with 
respect to taking care of our forests. All of this work appears to be 
nothing more than busy work given to the local public to only be 
ignored and shoved to the side when the final decisions come about. All 
will, myself included, vouch for how much the decisions being made in 
our backyards today are not being made with the best intentions of the 
people that call it home but for the best results for the private 
agenda.
    This is why we need to require that the Forest Service consult with 
affected counties and gain approval from the people before any changes 
are made to any access on the forest.
    We appreciate the opportunities to provide input on forest access 
issues and on legislation that affect us and our ways of life. We look 
forward to continuing to work with you and your office so this 
legislation can be wrote into law.
    Thank you.

            Sincerely,
                                              Dustin James,
                                                         President.

                                 ______
                                 

Letter Submitted for the Record by Ranking Member Grijalva on H.R. 4029 
                             and H.R. 4182

               Conservation Federation of Missouri,
                                  Jefferson City, Missouri,
                                                      June 9, 2014.

Hon. Rob Bishop, Chairman,
Hon. Rauul Grijalva, Ranking Member,
House Subcommittee on Public Lands and Environmental Regulations,
1324 Longworth House Office Building,
Washington, DC 20515.

Re: Comments on the proposed transfer of the ONSR to the State of 
        Missouri H.R. 4029 and H.R. 4182

    Dear Chairman Bishop and Ranking Member Grijalva:

    We appreciate the opportunity to send you our comments on two bills 
coming before your committee in the form of H.R. 4029 and H.R. 4182 
that would involve the transfer of the Ozark National Scenic Riverways 
(ONSR) to the State of Missouri.
    The Conservation Federation of Missouri (CFM) our State's largest 
citizen conservation organization is opposed to the idea of 
transferring the Ozark National Scenic Riverways (ONSR) to the State of 
Missouri. We also encourage you to oppose any legislation that would 
include such a transfer. As Missourians we should all take great pride 
that we have a National Park such as the ONSR in our State.
    CFM is Missouri's largest citizen conservation organization with 80 
affiliated sportsmen groups (i.e. Hunters, fishermen, campers, hikers, 
trappers, boaters, naturalist, etc.) and over 100,000 members 
statewide. Since this idea of turning the OSNR over to the State of 
Missouri first surfaced several months ago we have found no one in the 
ranks of our many affiliates or members that thinks this is a good 
idea.
    I have enclosed a recent resolution on the OSNR passed by our 
members at the 78th CFM Annual Meeting this past May held in Jefferson 
City, Missouri. CFM remains firmly supportive of the National Parks 
Service and its efforts to enhance and protect the Riverways. The OSNR 
first designated by Congress in 1964 has been in the good hands of the 
National Parks Service for the past 50 years and it should remain a 
National Park.
    If there are differences on how the park should be managed let it 
be addressed through meaningful dialog and sound planning. A transfer 
of the ONSR is not in the best interest of the resource, finances or 
visitor experience. Let's not jeopardize one of our ``National 
Treasures''.
    We appreciate your consideration and support on this matter with 
the hope that you will oppose these measures. If CFM can be of 
assistance please feel free to contact us at anytime.

            Respectfully Yours,

                                               Ron Coleman,
                                            CFM 1st Vice-President.

Enclosure
Committee: Parks
Author: Ron Coleman
            ``Stop OSNR Transfer to the State of Missouri''
WHEREAS, the Current and Jacks Fork Rivers are two of the state's most 
outstanding waters, Flowing through the heart of the Missouri Ozarks 
amid high bluffs of dolomite and limestone, vast forests of oak and 
shortleaf pine, and numerous caves and springs;

AND WHEREAS, more than one million people, including visitors from 
around the country, enjoy the clean water, spectacular scenery, and 
fish and wildlife of the Current and Jacks Fork rivers each year;

AND WHEREAS, in 1964, Congress recognized the outstanding qualities of 
these two streams by making them the first federally protected rivers 
in the nation, to be managed under the auspices of the National Park 
Service and encompassed within a national park known as the Ozark 
National Scenic Riverways;

AND WHEREAS, it is imperative that Missourians ensure that the natural 
resources of the Scenic Riverways are protected for future generations 
to enjoy;

AND WHEREAS, there is a movement to transfer the management and 
ownership of the Scenic Riverways from the National Park Service to the 
State of Missouri;

NOW, THEREFORE, BE IT RESOLVED that the Conservation Federation of 
Missouri assembled in Jefferson City, Missouri, this 22nd day of March, 
2014, does hereby oppose any legislation advocating the transfer of the 
OSNR to the State of Missouri.

RESOLUTION SUMMARY--Oppose Transfer of the Ozark Scenic Riverways to 
the State

RESOLUTION TO: Governor Jay Nixon, Missouri Legislature, U.S. 
Congressional Representatives, Mo.DNR Director and the Director of 
Missouri State Parks.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

--State of Missouri--House of Representatives Resolution for 
the Ozark National Scenic Riverways

--State of Missouri--Senate Substitute for Senate Concurrent 
Resolution No. 22 for the Ozark National Scenic Riverways

                                 [all]
</pre></body></html>
